<html>
<title> - ERICA'S IMMIGRATION SYSTEM: OPPORTUNITIES FOR LEGAL IMMIGRATION AND ENFORCEMENT OF LAWS AGAINST ILLEGAL IMMIGRATION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
  ERICA'S IMMIGRATION SYSTEM: OPPORTUNITIES FOR LEGAL IMMIGRATION AND 
            ENFORCEMENT OF LAWS AGAINST ILLEGAL IMMIGRATION

=======================================================================



                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                            FEBRUARY 5, 2013

                               ----------                              

                            Serial No. 113-1

                               ----------                              

         Printed for the use of the Committee on the Judiciary


   Available via the World Wide Web: http://judiciary.house.gov 




                  U.S. GOVERNMENT PRINTING OFFICE
76-633                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
LAMAR SMITH, Texas                       Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
SPENCER BACHUS, Alabama              ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     JUDY CHU, California
TED POE, Texas                       TED DEUTCH, Florida
JASON CHAFFETZ, Utah                 LUIS V. GUTIERREZ, Illinois
TOM MARINO, Pennsylvania             KAREN BASS, California
TREY GOWDY, South Carolina           CEDRIC RICHMOND, Louisiana
MARK AMODEI, Nevada                  SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 JOE GARCIA, Florida
BLAKE FARENTHOLD, Texas              HAKEEM JEFFRIES, New York
GEORGE HOLDING, North Carolina
DOUG COLLINS, Georgia
RON DeSANTIS, Florida
KEITH ROTHFUS, Pennsylvania

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel



                            C O N T E N T S

                              ----------                              

                            FEBRUARY 5, 2013

                                                                   Page

                           OPENING STATEMENTS

The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     1
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     3
The Honorable Luis V. Gutierrez, a Representative in Congress 
  from the State of Illinois, and Member, Committee on the 
  Judiciary......................................................     4
The Honorable Trey Gowdy, a Representative in Congress from the 
  State of South Carolina, and Member, Committee on the Judiciary     4
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Member, Committee on the Judiciary....     6

                               WITNESSES

Vivek Wadhwa, Director of Research, Pratt School of Engineering, 
  Duke University
  Oral Testimony.................................................    13
  Prepared Statement.............................................    16
Michael S. Teitelbaum, Senior Advisor, Alfred P. Sloan 
  Foundation, Wertheim Fellow, Harvard Law School
  Oral Testimony.................................................    19
  Prepared Statement.............................................    22
  Supplemental Material..........................................   340
Puneet Arora, M.D., M.S., F.A.C.E., Vice President, Immigration 
  Voice
  Oral Testimony.................................................    31
  Prepared Statement.............................................    34
Honorable Julian Castro, Mayor, San Antonio, TX
  Oral Testimony.................................................    45
  Prepared Statement.............................................    47
Julie Myers Wood, President, Guidepost Solutions LLC
  Oral Testimony.................................................   262
  Prepared Statement.............................................   264
Chris Crane, President, National Immigration and Customs 
  Enforcement Council 118, American Federation of Government 
  Employees
  Oral Testimony.................................................   278
  Prepared Statement.............................................   279
Jessica M. Vaughan, Director of Policy Studies, Center for 
  Immigration Studies
  Oral Testimony.................................................   282
  Prepared Statement.............................................   284
Muzaffar A. Chishti, Director, Migration Policy Institute's 
  office at New York University Law School
  Oral Testimony.................................................   288
  Prepared Statement.............................................   291

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Spencer Bachus, a 
  Representative in Congress from the State of Alabama, and 
  Member, Committee on the Judiciary.............................     9
Prepared Statement of the Honorable Doug Collins, a 
  Representative in Congress from the State of Georgia, and 
  Member, Committee on the Judiciary.............................    10
Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Member, Committee 
  on the Judiciary...............................................    63
Material submitted by the Honorable Spencer Bachus, a 
  Representative in Congress from the State of Alabama, and 
  Member, Committee on the Judiciary.............................   220
Material submitted by the Honorable Bob Goodlatte, a 
  Representative in Congress from the State of Virginia, and 
  Chairman, Committee on the Judiciary...........................   224
Material submitted by the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................   310
Additional Material submitted by the Honorable Sheila Jackson 
  Lee, a Representative in Congress from the State of Texas, and 
  Member, Committee on the Judiciary.............................   313
Material submitted by the Honorable Judy Chu, a Representative in 
  Congress from the State of California, and Member, Committee on 
  the Judiciary..................................................   317

                        OFFICIAL HEARING RECORD
      Material Submitted for the Hearing Record but not Reprinted

Report of the Migration Policy Institute (MPI) titled Immigration 
    Enforcement in the United States, the Rise of a Formidable 
    Machinery, by Dorris Meissner, Donald M. Kerwin, Muzaffar Chishti, 
    and Claire Bergeron, submitted by Muzaffar A. Chishti, Director, 
    Migration Policy Institute's Office, New York University Law 
    School. The report is available at the Committee and can also be 
    accessed at:

    http://www.migrationpolicy.org/pubs/enforcementpillars.pdf.


 AMERICA'S IMMIGRATION SYSTEM: OPPORTUNITIES FOR LEGAL IMMIGRATION AND 
            ENFORCEMENT OF LAWS AGAINST ILLEGAL IMMIGRATION

                              ----------                              


                       TUESDAY, FEBRUARY 5, 2013

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The Committee met, pursuant to call, at 10:28 a.m., in room 
2141, Rayburn House Office Building, the Honorable Bob 
Goodlatte (Chairman of the Committee) presiding.
    Present: Representatives Goodlatte, Smith, Chabot, Bachus, 
Issa, Forbes, King, Franks, Gohmert, Jordan, Poe, Chaffetz, 
Marino, Gowdy, Amodei, Labrador, Farenthold, Holding, Collins, 
DeSantis, Rothfus, Conyers, Nadler, Watt, Lofgren, Jackson Lee, 
Johnson, Pierluisi, Chu, Gutierrez, Bass, Richmond, DelBene, 
Garcia and Jeffries.
    Staff Present: (Majority) Shelley Husband, Chief of Staff & 
General Counsel; Branden Ritchie, Deputy Chief of Staff & Chief 
Counsel; Allison Halataei, Parliamentarian & General Counsel; 
George Fishman, Counsel; Kelsey Deterding, Clerk; (Minority) 
Perry Apelbaum, Staff Director & Chief Counsel; Danielle Brown, 
Parliamentarian; and David Shahoulian, Counsel.
    Mr. Goodlatte. Good morning. This hearing of the Committee 
on the Judiciary on America's Immigration System: Opportunities 
for Legal Immigration and Enforcement of Laws Against Illegal 
Immigration will come to order. Today, we hold the first 
hearing of the Judiciary Committee in the 113th Congress, and I 
will recognize myself for an opening statement after I welcome 
the Ranking Member.
    This year, Congress will engage in a momentous debate on 
immigration. This will be a massive undertaking with 
implications for the future direction of our Nation. As such, 
we must move forward methodically and evaluate this issue in 
stages, taking care to fully vet the pros and cons of each 
piece.
    This debate is often emotionally charged. That is because 
it is not about abstract statistics and concepts, but rather 
about real people with real problems trying to provide a better 
life for their families. This holds true for U.S. citizens, for 
legal residents, and for those unlawfully residing in the 
United States. I urge the Members of this Committee to keep 
that in mind as we begin our examination.
    America is a Nation of immigrants. Everyone among us can go 
back a few or several generations to our own relatives who came 
to America in search of a better life for themselves and their 
families.
    But we are also a Nation of laws. I think we can all agree 
that our Nation's immigration system is in desperate need of 
repair, and it is not working as efficiently and fairly as it 
should be. The American people and Members of Congress have a 
lot of questions about how our legal immigration system should 
work. They have a lot of questions about why our immigration 
laws have not always been sufficiently enforced. And they have 
a lot of questions about how a large-scale legalization program 
would work, what it would cost, and how it would prevent 
illegal immigration in the future.
    Immigration reform must honor both our foundation of the 
rule of law and our history as a Nation of immigrants. This 
issue is too complex and too important to not examine each 
piece in detail. We can't rush to judgment. That is why the 
Committee's first hearing will begin to explore ways to fix our 
broken system. Future hearings will take place in the 
Immigration and Border Security Subcommittee under the 
leadership of Chairman Gowdy.
    Today we will begin our examination of the U.S. immigration 
system by evaluating our current legal system and ways to 
improve it, as well as the history of the enforcement of our 
immigration laws.
    The United States has the most generous legal immigration 
system in the world--providing permanent residence to over a 
million immigrants a year. And yet, all is not well. 
Prospective immigrant workers with approved petitions often 
have to wait years for green cards to become available. So do 
their employers. It has gotten so bad that the immigrant 
scholar, Vivek Wadhwa, who will be testifying before the 
Committee today, states that ``if I were a young immigrant 
technologist in my mid-thirties, stuck on an H-1B visa in 
America, and trapped in a middling job, I would probably have 
decided to return to Australia or India.'' What does this 
foretell for America's continued economic competitiveness?
    Furthermore, legal permanent residents of the United States 
have to endure years of separation before they can be united 
with their spouses and minor children.
    Our laws also erect unnecessary hurdles for farmers who put 
food on America's tables. Our agriculture guest worker program 
is simply unworkable and needs to be reformed. At the same 
time, we allocate many thousands of green cards on the basis of 
pure luck through the Diversity Visa Lottery Program, and we 
allocate many thousands of green cards to nonnuclear family 
members. Some characterize this as ``chain migration,'' which, 
former Florida Governor Jeb Bush has recently written, ``does 
not promote the Nation's economic interests.''
    It is instructive to note that while America selects about 
12 percent of our legal immigrants on the basis of their 
education and skills, the other main immigrant-receiving 
countries of Australia, the United Kingdom, and Canada each 
select over 60 percent of their immigrants on this basis.
    These are just a few of the issues plaguing our legal 
immigration system, not to mention the larger question of how 
to address the estimated 10 million individuals unlawfully 
present in the U.S. Whether or not America should become more 
like our global competitors, we do need to have a serious 
conversation about the goals of America's legal immigration 
system.
    Today, we will also discuss the extent to which past and 
present Administrations have enforced our immigration laws, and 
whether we believe those efforts have been sufficient and 
effective. This is a crucial question. The year 1986 was the 
last time Congress passed comprehensive immigration reform. At 
that time, Congress granted legal status to millions who were 
unlawfully present in exchange for new laws against the 
employment of illegal immigrants in order to prevent the need 
for future amnesties. However, these ``employer sanctions'' 
were never seriously implemented or enforced. Even Alan 
Simpson, the Senate author of the 1986 legislation, has 
concluded that, despite the best of intentions, the law did not 
satisfy ``its expectations or its promises.''
    This Committee needs to take the time to learn from the 
past so that our efforts to reform our immigration laws do not 
repeat the same mistakes. Regardless of the conclusions of this 
national conversation, I think we can all agree that America 
will remain true to our heritage as a Nation of immigrants as 
well as a Nation of laws.
    I look forward to the testimony of all of today's 
witnesses, and now I turn to our Ranking Member, the gentleman 
from Michigan, Mr. Conyers.
    Mr. Conyers. Thank you, Chairman Goodlatte. This is an 
important hearing, and you started off on a very important 
analysis of where we are. And I am not here to critique your 
presentation, but to make my own. But I could summarize what I 
think we are going to be addressing in three phrases: one, 
comprehensive; two, a path to citizenship; and three, border 
security more than ever.
    Well, let us take the one we can most easily agree on is 
border security. It is improving. Well, there is always 
somebody that is going to get through, but I think that we have 
a general consensus about the ways that we may do a better job, 
and I would like to just throw out that there may be a few 
Members of the House Judiciary Committee that would like to go 
to the border and examine this and talk with those who are 
responsible for it. And I propose with the Chairman that we 
continue this discussion as these hearings proceed.
    Now, the notion of comprehensive immigration reform has 
been pushed around and bandied about, but the fact of the 
matter is that this is one big challenge that I don't think we 
can handle on a piecemeal basis. I mean, my experience with 
this subject tells me that with 10-11 million undocumented 
people living among us, we have got to approach this in terms 
of a more holistic way.
    Now, I think that there must be an earned legalization 
process that is fair, but firm, and that is not--that is not 
subject to a lot of manipulation. And, you know, to my 
colleagues, there is in some quarters among our citizens more 
agreement than there is sometimes in this body. And I am 
hoping, and I believe that it can be done, that this Committee 
will rise above our political instincts and try to serve the 
Nation and these American citizens in a very important way.
    I hope no one uses the term ``illegal immigrants'' here 
today. The people in this country are not illegal. They are out 
of status, they are new Americans that are immigrants, and I 
think that we can forge a path to citizenship that will be able 
to pass muster. We have got a Senatorial bipartisan support 
working very nicely thus far. And if it pleases the Chairman, I 
would like to yield the rest of my limited time--little time I 
have left to the gentleman Mr. Luis Gutierrez, who is now back 
on the Committee, and who I celebrate.
    Mr. Gutierrez. Thank you.
    Mr. Goodlatte. Mr. Conyers, the time has expired, but in 
recognition of the return of Mr. Gutierrez and your generosity, 
we will yield him 1 minute to close your remarks.
    Mr. Conyers. Thank you, sir.
    Mr. Gutierrez. Thank you so much, Mr. Conyers, Congressman 
Conyers, and Chairman Goodlatte. I expressed to Chairman 
Goodlatte that I had come back to the Committee, giving up 20 
years of seniority on Financial Services, because I believe 
that this Committee is that important. The Chairman said to me, 
don't put too much pressure on me.
    I just wanted to share that I didn't come here to undermine 
anyone's work and to challenge anybody's work, but to work in a 
collaborative spirit with you, Chairman Goodlatte, with my 
colleagues here, to frame a comprehensive immigration solution 
to our broken immigration system.
    I want to welcome the witnesses that are here today and 
just to share with everyone this issue is important to me. And 
I didn't come here with an engineering degree, with a Ph.D. My 
mom had a sixth-grade education, my dad didn't graduate from 
high school, but I think they did pretty well with their son.
    And I have come here simply to say that while I don't hold 
any of these prestigious degrees either, that immigrants have 
come here to do and to sweat and to toil in this country, and 
that if we could just part from the premise, and that is, as 
Gandhi might have said today, right, let us have politics with 
principles, because the absence of one really leads us down a 
very treacherous road that I don't think America wants to live 
in.
    So I thank you, Chairman Goodlatte, and I really look 
forward to working with all of my wonderful colleagues here, 
and especially Zoe Lofgren and Mr. Gowdy. I am looking forward 
to that Subcommittee experience with the both of you. Thank you 
so much for allowing me to express myself here this morning.
    Mr. Goodlatte. We are glad to have you back, Mr. Gutierrez.
    And now it is my pleasure to recognize the Chairman of the 
Immigration Subcommittee, the gentleman from South Carolina Mr. 
Gowdy, for his opening statement.
    Mr. Gowdy. Thank you, Mr. Chairman.
    A couple of years ago, a young African author spoke at a 
high school in South Carolina. Mr. Chairman, she was a 
beautiful, talented young woman, and when she looked at her arm 
to brush away the hair from her eyes, I saw something I have 
never seen before, at least not in this country, which was 
someone's hands that had been cut off with a machete.
    When she was 12 years old living in Sierra Leone, rebel 
soldiers came to her village during the civil war. She tried to 
run. She tried to hide. She asked God to let her die. But the 
soldiers found her, and they cut off her hands and mockingly 
told her to go to the President and ask for another pair. And 
that 12-year-old girl, Mr. Chairman, remembered thinking to 
herself, what is a President?
    Collectively, Mr. Chairman, we all understand why people 
want to come to this country to escape persecution, to taste 
freedom and liberty, to know that hard work and education and a 
level playing field can combine forces to transform lives. 
Escaping conflict and hardship is one thing, Mr. Chairman; 
picking a new home is another. And America is picked because we 
are a country that embraces justice. We reward fairness. We are 
an a Nation of laws. The poorest of the poor has the same 
standing in court as the richest of the rich. We believe in the 
even application of the law because law provides order, 
structure, predictability, and security.
    What we cannot become is a Nation where the law is enforced 
selectively or not at all. What we cannot become, Mr. Chairman, 
is a country where the laws apply to some of the people some of 
the time.
    The President from time to time, Mr. Chairman, says that he 
wants a country where everyone plays by the same rules. With 
respect, they aren't called rules in this country, they are 
called laws, and each of us takes an oath to enforce them, 
including those with which we may disagree, because when the 
law is ignored or applied in an uneven way, we begin to see the 
erosion of the very foundation upon which this Republic was 
built. And make no mistake, Mr. Chairman, as surely as today 
one may benefit from the noncompliance or nonenforcement of a 
law, that same person will be clamoring to have the law 
enforced in another capacity.
    So we seek to harmonize two foundational precepts, Mr. 
Chairman. Number one is humanity, and number two is the respect 
for the rule of law. And history is whispering, as you noted, 
Mr. Chairman, that we have traveled this road before. In 1986, 
we were told that immigration had been settled once at for all. 
We were told that in exchange for secure borders and employment 
verification, those who entered the country illegally would not 
suffer the full panoply of legal consequences. In the minds of 
many, Mr. Chairman, the country got amnesty, but is still 
waiting 25 years later on the border security and the 
employment verification.
    So here we are back again, asking our fellow citizens to 
trust us, and many, despite ourselves, Mr. Chairman, remain 
open to legislative expressions of humanity and grace, but they 
will be watching skeptically to see if we are serious about 
enforcing the rule of law. Are we serious about ending the 
insidious practice of human trafficking? Are we serious about 
punishing those who prey on folks with false promises and 
fraudulent documents? Are we serious about border security and 
employment verification? Are we serious about making this the 
last last time we have this conversation, or are we simply 
playing political games with people's lives and undercutting 
the respect for the rule of law, which ironically is the very 
reason they seek to come to this country in the first place? We 
shall see.
    I yield back.
    Mr. Goodlatte. I thank the gentleman.
    And it is now my pleasure to recognize the gentlewoman from 
California, Ms. Lofgren, the Ranking Member of the Immigration 
Subcommittee.
    Ms. Lofgren. Thank you.
    Mr. Chairman, I congratulate you on holding this hearing, 
our Committee's first hearing, on our broken immigration 
system. I appreciate that gesture, as I do your recent public 
statement that you are open to reform, and that America does 
not need a ``trail of tears'' to the border.
    I congratulate Mr. Gowdy as well on his chairmanship, and I 
look forward to working with him to find that balance between 
respect for the rule of law as well as our morality and 
humanity. I look forward to working with both of you in a 
bipartisan manner on these reform efforts.
    But as we move forward, we need to recognize that our 
broken system does immeasurable harm every day that it goes 
unreformed. A trail of tears to the border is not that far off 
from the system we currently have. Every day our system tears 
families apart, husbands from their wives, parents from their 
children. If we want a moral and humane system, we have a lot 
of work to do. America is ready for us to do that work.
    I participated in the immigration debate during my 18 years 
in Congress and long before that as an immigration attorney and 
law professor teaching immigration law. Today the country is 
past the point of debating whether we need reform. They are 
simply counting on us to get it done. And the growing 
bipartisan consensus means, I think, that we can get it done. 
Conservative leaders from Jeb Bush and Karl Rove to Sean 
Hannity and Bill O'Reilly have signaled support for 
comprehensive reform efforts including a path for undocumented 
immigrants. Even Rush Limbaugh told Senator Marco Rubio that 
his efforts for immigration reform are admirable and noteworthy 
and recognize reality.
    We have also seen Members in both parties in the House and 
Senate voice strong support for immigration reform,we know, 
with the bipartisan Blueprint for Immigration Reform released 
last week by eight Senators, and there are similar bipartisan 
discussions in the House. It will take such bipartisanship to 
solve this problem, and I am hopeful that this is the year we 
finally enact top-to-bottom reform of our immigration laws.
    As we will hear today, our current system is dysfunctional 
in many ways, keeping families apart for decades and hindering 
economic growth and American global competitiveness. Designing 
a sensible, legal immigration system is critical to preserving 
the rule of law. We need a legal immigration system that works 
so that workers and families who want to come here are able to 
go through that system rather than around it.
    Yet, despite the incredible need to reform the system, all 
we have done is enforce the heck out of it, especially over the 
last several years. We are now removing record numbers of 
undocumented immigrants each year, while attempted border 
crossings are at their lowest levels in more than 40 years. 
According to experts, net flight migration from Mexico is now 
zero and likely lower than that.
    Every year we spend more money on immigration enforcement, 
nearly $18 billion per year, than on all other Federal law 
enforcement combined. All of this enforcement hasn't solved the 
problem, and it should not be used to delay top-to-bottom 
reform of our laws.
    What needs to be done is not that complicated. We know a 
reform bill must include additional border enforcement as well 
as employment eligibility verification to secure the workforce. 
We need to reform our employment visa system so that tech 
companies, farmers, and other U.S. businesses have access to 
needed workers. And we need to reform the family system to help 
keep families together. We also need to provide a way for 10- 
or 11 million undocumented immigrants to come out of the 
shadows, get right with the law in a way that is fair and 
practical.
    A few words of caution. First, partial legalization as some 
are suggesting is a dangerous path. We need only to look at 
France and Germany to see how unwise it is to create a 
permanent underclass. What makes America special is that people 
come here, assimilate, and become American with all of the 
rights and responsibilities that citizenship bestows. With the 
exception of slavery and the Chinese Exclusion Act, our laws 
have never barred persons from becoming citizens, and we should 
not start now.
    Second, we must not fall into the trap of calling for 
piecemeal reform. As Governor Jeb Bush recently wrote in the 
Wall Street Journal, Congress should avoid such quick fixes and 
commit itself instead to comprehensive immigration reform. 
Immigration, as he points out, is a system, and it needs 
systematic overhaul.
    Finally, we must make it easier to keep critical workers 
who can keep America competitive and grow our economy, but we 
should not do so by closing the door on family-based 
immigrants. Family unity has been the bedrock of our 
immigration system since the Immigration and Nationality Act 
was enacted in 1952.
    In addition to strengthening American families, family-
based immigration plays an important role in bolstering our 
economy. Research shows that immigrants, most of whom come here 
through the family system, are twice as likely to start 
businesses in the U.S. as native-born people, and immigrant 
businesses, including small non-tech businesses, have grown at 
2.5 times the national average.
    I often say I am glad that Google is in Mountain View 
rather than Moscow. Like Intel and Yahoo!, Google was founded 
by an immigrant, but it is worth noting that none of the 
founders of these companies came to the United States because 
of their skills. Sergey Brin, Jerry Yang, Andy Grove all came 
here through our family-based system or because they were 
refugees or the children of refugees. What made these founders 
special were the traits they share with immigrants of all 
kinds: entrepreneurism, risk taking, a desire for a better 
life. These are among the most admired values in our country, 
as it should be, because it is the secret sauce that makes 
America great.
    From Alexander Hamilton to Andrew Carnegie to Albert 
Einstein, we are a Nation forged by immigrants. It is time we 
fully embrace that immigration is good for our country. It is 
time we do our part to devise a way for the people who have 
enough get-up-and-go to get up and go and come to our shores, 
and bring their talent and contributions to our society and to 
our economy, and to become Americans with us.
    Thank you very much, Mr. Chairman, and I yield back.
    Mr. Goodlatte. I thank the gentlewoman.
    Without objection, all other Members' opening statements 
will be made a part of the record.
    [The prepared statement of Mr. Bachus follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                               __________
    [The prepared statement of Mr. Collins follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Goodlatte. And we will turn now to our very 
distinguished first panel of witnesses. And I will begin by 
introducing that first panel.
    Our first witness on this panel is Mr. Vivek Wadhwa, a 
visiting scholar at the University of California-Berkeley, a 
senior research associate at Harvard Law School, and Director 
of Research at the Center for Entrepreneurship and Research 
Commercialization at Duke University. He is also a faculty 
member and advisor at Singularity University, and writes a 
regular column for both The Washington Post and Bloomberg 
BusinessWeek.
    Last year, his book, The Immigrant Exodus: Why America is 
Losing the Global Race to Capture Entrepreneurial Talent, was 
named a ``Book of the Year'' by The Economist magazine.
    Mr. Wadhwa received his Bachelor's degree from the 
University of Canberra in Australia, and received his M.B.A. 
from New York University's Stern School of Business, and we 
thank him for coming today.
    Our next witness is Mr. Michael Teitelbaum, who currently 
serves as the Senior Director of the Alfred P. Sloan 
Foundation. From 1980 to 1990, he served as 1 of 12 
Commissioners of the U.S. Commission for the Study of 
International Migration and Cooperative Economic Development. 
Prior to this he served as a Commissioner of the U.S. 
Commission on Immigration Reform, which completed its work in 
December 1997.
    Mr. Teitelbaum received his Bachelor's degree from Reed 
College, and subsequently earned his Ph.D. in Demography from 
Oxford University, where he was a Rhodes Scholar. We are glad 
to have him joining us today.
    The third member of this first panel is Dr. Puneet Arora, 
currently serving as the Vice President for Immigration Voice, 
a coalition of 75,000 highly skilled foreign professionals. He 
also serves as the Medical Director for Genentech, a biotech 
firm in San Francisco, California. Dr. Arora joined Amgen in 
2008 as Clinical Research Medical Director, then Genentech in 
2011. He has been a volunteer with Immigration Voice since 
2006, and leads the Physician's chapter as well as the 
Minnesota and Southern California chapters.
    Dr. Arora received his medical degree from the All India 
Institute of Medical Sciences in 1994. He completed his 
residency training in Internal Medicine at Southern Illinois 
School of Medicine in 1999, and received fellowship training in 
Endocrinology, Diabetes, and Metabolism at New York University 
School of Medicine. He practiced in a medically underserved 
area and was subsequently granted a National Interest Waiver 
for permanent residence in the United States by USCIS. We thank 
Dr. Arora for serving as a witness today as well.
    Our final witness is the Honorable Julian Castro, mayor of 
San Antonio, Texas. First elected in 2009 and reelected in 
2011, Mayor Castro earned his undergraduate degree from 
Stanford University with honors and distinction in 1996, and a 
juris doctorate from Harvard Law School in 2000. In 2001, at 
the age of 26, Castro became the youngest elected city 
councilman at that time in San Antonio history. Mayor Castro's 
brother, Joaquin, serves in the U.S. House of Representatives.
    We are pleased to have the mayor with us today, and I will 
turn to the gentlewoman from Texas Ms. Jackson Lee for 15 
seconds of additional welcome to the mayor.
    Ms. Jackson Lee. Thank you, Mr. Chairman. Thank you very 
much.
    Mayor Castro is particularly well placed and unique for 
this role as a witness today. I would like to welcome his as a 
fellow Texan. I know that his brother, a Congressperson, Member 
of the U.S. House of Representatives, has already done so, but 
as a mayor of one of the world's international cities, who sees 
people coming from all backgrounds, you are well placed to 
understand what immigration and the opportunities and 
contributions that immigrants and those who come to this 
country for better opportunity can contribute, and I thank you 
so very much for your leadership of your city and your presence 
here today. Welcome, fellow Texan.
    I yield back, Mr. Chairman.
    Mr. Goodlatte. Thank you, Ms. Jackson Lee. And I now turn 
to the former Chairman of the Committee and the gentleman from 
San Antonio, Texas, Mr. Smith for a comparably calculated 15 
seconds of welcome.
    Mr. Smith. Thank you, Mr. Chairman. I will try to stick to 
the 15.
    I, too, wanted to welcome the mayor of my hometown, San 
Antonio. Mayor, as we both know, San Antonio is a wonderfully 
livable, tricultural city, and you have done a great job 
representing us in so many ways. So welcome today. And also I 
want to say to you that I enjoy serving with your brother in 
Congress, who is sitting behind you as well. And we will talk 
more and look forward to your testimony as well.
    Mr. Goodlatte. Welcome to all of our witnesses, and we will 
begin with Mr. Wadhwa.

 TESTIMONY OF VIVEK WADHWA, DIRECTOR OF RESEARCH, PRATT SCHOOL 
                OF ENGINEERING, DUKE UNIVERSITY

    Mr. Wadhwa. Chairman Goodlatte, Members of the House 
Committee, thank you for giving me a chance to speak to you.
    You know, being here in D.C., it is very easy to be 
pessimistic. Everything about here, we worry about China, 
whether they are going to rule the future. We worry about 
shortages. We worry about everything in the world. And when you 
are worried about a lack of resources, shortages, and you worry 
about countries like China taking over the world, you become 
very pessimistic. You begin to wonder if there are shortages of 
engineers or a glut of engineers. In fact, some of the debates 
we will have is are we graduating too many scientists?
    All of this is based on a perspective of yesterday. You 
know, the United States has a way of reinventing itself. Every 
30 or 40 years we get really, really worried about ourselves, 
and we start developing an inferiority complex, wondering why 
the rest of the world is better than we are. And then we wake 
up and realize that, hey, we are ahead again.
    The United States is in the middle of another reinvention 
right now. As we speak, we are in the middle of the next major 
rebound. Technology is changing the entire landscape and giving 
Americaits edge back, so much so that--let us start with 
manufacturing. I will give you a crash course in exponential 
technologies.
    You know, just like we saw oil being something we worried 
about, we worried about running out of oil, now you have 
newspapers writing about ``Saudi America.'' Fracking came 
along. Within 5 years it changed our entire perspective of oil. 
That is just one small thing.
    Look at computing. Five years ago none of you would ever 
have used smartphones or been on Twitter or social media. Now 
all of us do that. Well, practically all of us do that. But the 
point is that we carry in our pockets more computing power than 
existed the day we were born. Think about it. Thirty years ago 
we would have banned this device because it was more powerful 
than a Cray supercomputer. Today it sits in our pocket waiting 
for us to check emails. That is how fast computing has 
advanced.
    The same thing is happening in manufacturing. If you look 
at the advances in robotics, in artificial intelligence, and 3D 
printing, within the next 5 to 7 years, my prediction is that 
China's manufacturing industry will be toast; that it will 
start coming back to America like we never imagined before.
    You know, we have debates about health care. We worry about 
multitrillion-dollar deficits and our system becoming bankrupt. 
Health care is advancing like you can't imagine. Between 
digital medicine and genomics, there are major advances 
happening. There is the quantified self. For example, I am a 
heart patient. My iPhone case is an EKG machine. I hope none of 
you have ever had heart problems or never had to get an EKG 
done. They are really painful. I attach the two leads on my 
iPhone. It does a complete EKG for me. I can email that EKG to 
my cardiologist. The way technology is going, 2 or 3 years from 
now I won't need a cardiologist to be read my EKG. It will be 
read by a computer on the cloud.
    This same type of technology is being built in many other 
areas, which means we have preventative medicine. We will be 
able to save, you know, tremendous amounts of money on curing 
disease because we will prevent it. This is happening 
regardless of what we do. This is happening at light speed.
    We also have advances happening in other fields. For 
example, in California, we have the Google self-driving car. By 
the time it is released later in this decade, it is going to 
change the face of cities. A third of the land use in cities is 
for parking. We get stuck in traffic jams; 30,000 highway 
deaths. All of these things can be eliminated by one new 
invention. Also, 90 percent of the energy we use on 
transportation can be used by automated self-driving vehicles.
    There are major advances happening in education. These type 
of technologies are still expensive right now. In India they 
are going to be giving kids in school and teachers tablets 
which are bigger than this, as sophisticated as the iPhone 1 
was for $20. Within the next 5 years, you are going to have 
another 3 billion people coming on the Internet worldwide.
    Look at the revolution that telephones and then social 
media created in the Middle East. In China, the government is 
quaking because its people are connected, they can talk to each 
other. Imagine what happens over the 5 or 7 years when the 
entire world comes online with technology.
    These are the sort of Earth-changing things that are 
happening, and it is all because of technology. And who is 
driving technology? Skilled immigrants are. People like me, 
engineers, scientists. It is a whole assortment of people that 
are driving these changes. And guess what? Until recently, 52 
percent of the start-ups in Silicon Valley, the most innovative 
place on this planet, were immigrants. So the people who were 
driving this boom I am talking about, this technology which is 
reinventing America, are skilled immigrants.
    Representative Gutierrez, I understand what you said about 
your parents not having been educated and the fact that things 
were very different. In an era in which, you know, skilled 
labor didn't have as much value as today, it made sense that we 
definitely need the unskilled workers. There is no doubt about 
that. But in this new era, it is all about skill. The people 
who are making this happen are engineers, scientists, doctors, 
most importantly entrepreneurs.
    So we have a choice right now. We can either trip up the 
entrepreneurs who are going to reinvent America and save the 
world, or we can fix this problem instantly and create a better 
world, because we have the ability right now to solve 
humanity's grand challenges. We can create unlimited energy, 
unlimited water, unlimited food. We can create security which 
protects us from threats. We can do all of this and maybe 
things right now, the new technology, and all within the next 5 
or 7 years.
    I can almost guarantee that 5 years from now we are going 
to be debating how do we distribute some of the abundance we 
are creating? Because just like we are talking about oil being 
abundant, we are going to be talking about many other things 
becoming abundant. We will have different debates over here.
    But it is imperative that we, you know, allow Silicon 
Valley, our entrepreneurs, our technologists to do their magic 
and to save us. A strong America is important for the world. We 
can solve the world's grand challenges, and immigration is one 
of the keys to making it happen.
    Thank you.
    Mr. Goodlatte. Thank you, Mr. Wadhwa.
    [The prepared statement of Mr. Wadhwa follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Goodlatte. Mr. Teitelbaum, welcome.

 TESTIMONY OF MICHAEL S. TEITELBAUM, SENIOR ADVISOR, ALFRED P. 
     SLOAN FOUNDATION, WERTHEIM FELLOW, HARVARD LAW SCHOOL

    Mr. Teitelbaum. Thank you, Mr. Chairman, Ranking Member 
Conyers, Members of the Judiciary Committee. Thank you for 
inviting me to report on the recommendations of the U.S. 
Commission on Immigration Reform. It was a Commission 
established by the Immigration Act of 1990, and it is often 
called the Jordan Commission after its chair, Barbara Jordan, 
Congresswoman Jordan, who was, of course, a distinguished 
Member of this very Committee. Eight of the members of the 
Commission were appointed by the House and Senate majority and 
minority leadership, and the chair was appointed by the 
President. The mandate was very broad and you have in your 
written testimony from me a copy of the executive summary of 
the Commission report, the final report, which includes the 
mandate. So I won't repeat that given the time.
    Now, as the Chair has said, these are contentious and 
emotional disagreements on these issues, so I want to tell you 
that the nine members of this Commission included among them 
almost all perspectives on immigration and refugee issues. And 
I told my wife there was little chance that this Commission was 
going to be able to reach any substantial majority agreement on 
anything. Ultimately that Commission, all of its 
recommendations, which you have before you in the written 
testimony, all of them were unanimous, or unanimous less one.
    Since we are focusing on legal immigration today, let me 
try to very quickly in the time I have summarize the Commission 
recommendations on that part of its mandate. The Commission was 
a strong supporter for a properly regulated legal immigration 
system that serves the national interest, and it decried 
hostility and discrimination against immigrants as antithetical 
to the traditions and interests of the United States. It said 
that a well-regulated immigration system enhances the potential 
benefits of immigration, but if it were not well regulated, it 
would not.
    The Commission said that there was a need to set priorities 
in immigration because there was much more demand than there 
was available visas. It should set priorities, and it should 
deliver on those priorities.
    With respect to the national interest, it said these were 
three priorities: unification of immediate or nuclear families, 
as one of the Members has already spoken to; admission of those 
highly skilled workers who are legitimately needed to support 
the international competitiveness of the U.S. workforce, as the 
previous witness has just mentioned; and refugee admissions, 
which haven't yet been mentioned a great deal--refugee 
admissions and other actions that affirm U.S. commitments to 
provide refuge to the persecuted. The number of visas should 
flow from those priorities.
    The third point was from the Commission, the third 
recommendation and finding, was that the policies that it was 
reviewing in the 1990's were broadly consistent with these 
three priorities, but they included elements among them that 
were creating serious problems in the 1990's and that needed 
thoughtful attention.
    A fourth recommendation was that priorities in the family 
category should be established, and the Commission concluded 
that the priority should be placed on the expeditious admission 
of immediate or nuclear family members in this order: spouses 
and minor children of U.S. citizens, number one; parents of 
U.S. citizens, number two; and spouses and minor children of 
legal permanent immigrants, number three. And it therefore 
recommended a reallocation of the visas in the family-based 
system from lower priority categories outside of those 
priorities. Those were the adult children and adult siblings of 
U.S. citizens, and the so-called diversity visas to the 
highest-priority categories that I just listed.
    The problem with the lower priority categories is they have 
never been given very many visas, and there was enormous demand 
and therefore very large backlogs in those categories. So the 
recommendation there was that we should stop trying to manage 
immigration by backlog--in effect we are making promises that 
we can't keep--and instead focus on prompt admission of the 
highest-priority categories. And had that been done, all of 
those categories would have been admitted very promptly, within 
1 year of application. But, of course, it didn't happen, and in 
the absence of such actions, these backlogs have actually 
become longer and more extensive.
    The fifth recommendation was that a well-regulated 
admission system for skilled immigrants is in the national 
interest, and we already heard Vivek Wadhwa talk about that. So 
I won't say a lot about it, but it is consistent with what he 
said. When needed, they contribute to the global 
competitiveness of the U.S. workforce. And then there is a 
second point which is that we want immigrants to do well in the 
United States. We want them to prosper, and if they are 
skilled, they are more likely to prosper than if they are not.
    However, this was a bit of a controversial recommendation 
the Commission found that the labor certification process for 
this category did not protect U.S. workers from unfair 
employment competition and does not serve the national 
interest, so it advocated a new and more market-driven approach 
for selection among those categories.
    The sixth recommendation was that admission of low-skilled 
and unskilled workers is not in the national interest. It 
recommended against the continuation of the small number of 
employment-based visas for low-skilled and unskilled workers. 
It could find no compelling evidence that employers who offer 
adequate remuneration would face difficulties in hiring from 
the large pools of low-skilled and unskilled workers in the 
U.S. workforce. And, of course, large numbers of such workers 
would be continuing to flow--much larger than the number of 
visas in this category--continue to flow under the family and 
refugee visa categories.
    Seventh, that admission of large numbers of temporary or 
guest workers in agriculture or other fields, the Commission 
said, would be a grievous mistake. The Commission found that 
such programs lead to particularly harmful effects. Guest 
workers are vulnerable to exploitation, and their presence in 
large numbers depresses the wages and working conditions of 
U.S. workers, which, by the way, includes recent immigrants.
    Mr. Goodlatte. If you want to go ahead and just summarize 
each of the last two points, because I know you do want to get 
all nine in, but we are out of time.
    Mr. Teitelbaum. I mentioned the refugee thing, and the 
Commission recommended a well-regulated resettlement program.
    And finally, it recommended more flexibility and 
adaptability of immigration policies needed as circumstances 
changed. So in my testimony you will see an example of another 
country with quite a lot of similarities to the U.S. in which 
they have come up with a way to have a more flexible system 
that is based on rigorous analysis of where the needed 
employment-based visas might be.
    And I will suspend at that point, Mr. Chairman.
    Mr. Goodlatte. Thank you. And what country is that?
    Mr. Teitelbaum. That is the United Kingdom.
    Mr. Goodlatte. Thank you.
    [The prepared statement of Mr. Teitelbaum follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Goodlatte. Dr. Arora, thank you.

       TESTIMONY OF PUNEET ARORA, M.D., M.S., F.A.C.E., 
               VICE PRESIDENT, IMMIGRATION VOICE

    Dr. Arora. Thank you.
    Mr. Goodlatte. You should hit the button on your microphone 
and pull it close to you. Pull it close. Pull the microphone 
close to you.
    Mr. Arora. Distinguished Chairman Goodlatte, Ranking Member 
Conyers and Members of this Committee, on behalf of Immigration 
Voice and the many highly skilled professionals and their 
families waiting for permanent resident status to the United 
States, I thank you for this opportunity to contribute my views 
toward immigration reform.
    Immigration Voice is a grassroots organization of highly 
skilled foreign men and women that have come together to 
advocate for a change in the employment-based green card 
system. Today I would like to talk to you about the problems 
faced by 1 million highly skilled foreign professionals and 
their families, future Americans, most of whom have been 
gainfully employed in the United States for a decade or more, 
but find themselves in lines for a green card.
    Our community is invested in America through our diligence, 
innovation, and productivity. Our children are Americans. This 
is our home.
    My journey through the employment-based backlog began in 
1996 with a medical residency program at the Southern Illinois 
University School of Medicine in Springfield; followed by a 
fellowship in endocrinology, diabetes, and metabolism at the 
New York University School of Medicine; and then to the Mayo 
Clinic in Rochester, Minnesota, for a fellowship in advanced 
diabetes.
    In 2003, I joined the clinical practice with the Health 
Partners Medical Group in St. Paul, Minnesota, and as assistant 
professor of medicine at the University of Minnesota Medical 
School. My practice was in a medically underserved area with a 
substantial population of indigent patients. Even so, my 
national interest waiver was significantly delayed.
    In 2008, I was offered the position of clinical research 
medical director of Amgen, the world's largest biotechnology 
company. I was able to accept this offer only because of a 
small window of relief offered in July of 2007 that allowed me 
to gain work authorization. Many of my colleagues in 
Immigration Voice were not so fortunate, and still, today they 
continue to lack the ability to change jobs without losing 
their place in the green card line.
    I now work for Genentech as medical director for early 
development, and at the end of 2011, my green card application 
was finally approved after more than 15 years of life in the 
United States. And as I continue toward citizenship, I count 
myself as fortunate. Today USCIS is just now adjudicating 
applications for applicants like me from the year 2004.
    Spending a decade or more for permanent residency takes its 
toll on professionals and on their families. Children age out, 
and they have to secure their own visas to go to college. 
Traveling abroad or just maintaining legal status takes an 
infusion of time and money to renew documents. Scientists often 
cannot get grants, and, sadly, even motivated parents cannot 
adopt children.
    These problems all generally arise from what we term the 
double backlogs, the green cards shortage backlog and the per 
country backlog. And I want to make a few brief points on both 
of these.
    We have the largest and the fastest-growing highly skilled 
economy in the world. It is America's fastest-growing export. 
We are fighting over green card numbers here for highly 
educated people, each of whom is a net job creator according to 
the American Enterprise Institute, while America is bleeding 
some of the best minds from its borders, many of whom were 
trained in U.S. schools.
    As parents of American children, we see firsthand that 
America is struggling to produce qualified students in STEM, 
and I worry as a father of two wonderful girls. We have heard 
proposals for increased fees to pay for STEM programs in the 
States, and we support that.It can only help, and all help in 
this matter is welcome.
    On the second part of the double backlog, I want to start 
by thanking this Committee, and especially Representatives 
Chaffetz, Smith and Lofgren, for their amazing bipartisan work 
on poor country elimination. We fell short in the Senate on 
process in spite of overwhelming support. Regardless, we know 
that just changing the poor country quota alone with not fix 
the overall shortage of green cards, but it will help to 
alleviate some of the burden for America's most experienced, 
highly skilled green card applicants. And again, we sincerely 
appreciate your efforts in this regard.
    Mr. Goodlatte. Thank you, Dr. Arora.
    [The prepared statement of Dr. Arora follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Goodlatte. Mayor Castro, we are pleased to have you 
with us.

           TESTIMONY OF THE HONORABLE JULIAN CASTRO, 
                    MAYOR OF SAN ANTONIO, TX

    Mr. Castro. Thank you very much, Chairman Goodlatte, and, 
of course, to Representative Jackson Lee, and my hometown 
Representative Smith. Thank you for having me to the Ranking 
Member Conyers, as well as to the Members of the Committee.
    I come to you today as many things: as an American, as an 
optimist, the grandson of an immigrant orphan from Mexico who 
found opportunity in our great country, and as mayor of the 
Nation's seventh largest city, a community that looks like the 
Texas and the America of tomorrow.
    Immigration for all of us is more than a political issue. 
It is who we are as Americans. From Plymouth Rock to Ellis 
Island and Galveston, Texas, to the sandy shores of Florida and 
the rocky coast of California, immigrants have made ours the 
greatest country in the world.
    Today, however, our immigration system is badly broken, but 
there is hope. This hearing and, more importantly, the 
bipartisan legislation that I believe can be enacted because of 
it shows that we are on the cusp of real progress.
    The President and a growing number of bipartisan lawmakers 
have laid the framework for what Americans support: 
comprehensive, commonsense reform. We must do at least three 
things: further strengthen border security, streamline the 
legal immigration process so that law-abiding companies can get 
the workers they need in this 21st century global economy, and 
create a path to citizenship to bring the estimated 11 million 
undocumented immigrants in this country out of the shadows and 
into the full light of the American dream.
    In Texas we know firsthand that this Administration has put 
more boots on the ground along the border than at any other 
time in our history, which has led to unprecedented success in 
removing dangerous individuals with criminal records. But 
Democrats and Republicans can agree that the work to ensure 
America's safety and security is ongoing and should be a part 
of any future legislative agenda.
    The reforms that you have on the table are also profamily, 
and probusiness. Outdated visa allocations that separate 
husbands and wives, mothers and children, and brothers and 
sisters for years and sometimes decades make no sense. It also 
makes no sense that while some employers choose to flout the 
rule of law and exploit employees, other companies who want to 
play by the rules are handcuffed by rigid employment ceilings 
and burdensome regulations.
    Every year, as competition increases across the globe, 
America companies throw up their hands and watch engineers, 
nurses and entrepreneurs who are trained at American 
universities leave in frustration only to invent new products, 
heal the sick, and innovate in other countries.
    What Americans deserve is a system that works; a system 
that is efficient, that is accountable, that in our Nation's 
best interest puts the undocumented immigrants already here on 
a road to earn citizenship. Those immigrants take on many faces 
from Virginia, to North Carolina, to Utah.
    In San Antonio, those faces include students like Benita 
Veliz. Benita, like so many so-called DREAMers, was brought to 
this country as a child from Mexico. She learned English, 
played by the rules, and achieved astounding academic success, 
even became a valedictorian of my alma mater, Thomas Jefferson 
High School in San Antonio. She was a National Merit scholar, 
and Benita earned a bachelor's degree by the time she was 20 
years old.
    By any measure Benita is an American success story, but 
under current immigration law she is in limbo. America is her 
home in every single sense of the word except under our broken 
immigration system.
    Since the signing of the Declaration of Independence, 
America has distinguished itself as the land of opportunity, 
the place where the human spirit is free to reach its full 
potential. In this 21st century global economy, we need Benita 
and immigrants like her to be competitive. But we all know that 
as one generation of Americans has passed on to the next, this 
great Nation has drawn tremendous strength from immigrants, 
whether they came from Germany, or Italy, or India, or Mexico.
    A hearing is a great start, but a hearing is not enough. 
Let us rise above the political fray. Let us once again show 
that no challenge is too big for America. Ladies and gentlemen, 
America is watching. Let us get this done. Thank you.
    Mr. Goodlatte. Thank you, Mayor Castro.
    [The prepared statement of Mr. Castro follows:]
      Prepared Statement of Julian Castro, Mayor, San Antonio, TX
    Thank you Chairman Goodlatte, Ranking Member Conyers, Members of 
the Committee . . .
    I come to you today as many things--an American, an optimist, the 
grandson of an immigrant orphan from Mexico who found opportunity in 
this great country, and as Mayor of the nation's seventh-largest city, 
a community that looks like the Texas and America of tomorrow.
    Immigration is more than a political issue. It's who we are. From 
Plymouth Rock to Ellis Island and Galveston, Texas, to the sandy shores 
of Florida and the rocky coasts of California, immigrants have made 
ours the greatest country in the world.
    Today, however, our immigration system is badly broken. But there 
is hope. This hearing and more importantly, the bipartisan legislation 
that I believe can be enacted because of it, shows that we are on the 
cusp of real progress.
    The President and a growing number of bipartisan lawmakers have 
laid the framework for what Americans support: comprehensive, common-
sense reform.
    We must do at least three things: further strengthen border 
security; streamline the legal immigration process so that law-abiding 
companies can get the workers they need in this 21st century global 
economy; and create a path to citizenship to bring the estimated 11 
million undocumented immigrants in this country out of the shadows and 
into the full light of the American Dream.
    In Texas, we know first-hand that this Administration has put more 
boots on the ground along the border than at any time in our history, 
which has led to unprecedented success in removing dangerous 
individuals with criminal records. But Democrats and Republicans can 
agree that the work to ensure America's safety and security is ongoing, 
and should be part of the legislative agenda going forward.
    The reforms that you have on the table are also pro-family and pro-
business. Outdated visa allocations that separate husbands and wives, 
mothers and children, and brothers and sisters for years and sometimes 
decades make no sense.
    It also makes no sense that, while some employers choose to flout 
the rule of law and exploit employees, other companies who want to play 
by the rules are handcuffed by rigid employment ceilings and burdensome 
regulations.
    Every year, as competition increases across the globe, American 
companies throw up their hands and watch engineers, nurses and 
entrepreneurs, who were trained in American universities, leave in 
frustration only to invent new products, heal the sick and bring new 
innovations to other countries.
    What Americans deserve is a system that works. A system that is 
efficient. That is accountable. That, in our nation's best interest, 
puts the undocumented immigrants already here on a road to earned 
citizenship.
    Those immigrants take on many faces from Virginia to North Carolina 
to Utah. In San Antonio, those faces include students like Benita 
Veliz.
    Benita, like many so-called DREAMers, was brought to this country 
as a child from Mexico. She learned English, played by the rules and 
achieved astounding academic success--even becoming valedictorian of my 
alma mater, Thomas Jefferson High School.
    A National Merit Scholar, Benita earned a bachelor's degree by the 
time she was 20.
    By any measure, Benita is an American success story. But under 
current immigration law, she is in limbo. America is her home in every 
sense of the word, except under this broken immigration system.
    Since the signing of the Declaration of Independence, America has 
distinguished itself as the land of opportunity, the place where the 
human spirit is free to reach its full potential.
    In this 21st century global economy, we need Benita and immigrants 
like her to be competitive.
    As each generation of Americans has passed on to the next, this 
great nation has drawn tremendous strength from immigrants, whether 
they came from Germany, Italy, India or Mexico.
    But we all know that a hearing is not enough. Let's rise above the 
political fray. Let's once again show that no challenge is too big for 
America.
    Ladies and Gentlemen, America is watching. Let's get this done.
    Thank you.
                               __________

    Mr. Goodlatte. Dr. Arora, you gave an excellent statement, 
and I thought it was full and complete, but apparently I called 
you before your time was expired and maybe before your 
statement was finished. Did you want to summarize your 
statement?
    Mr. Arora. Thank you. I just have a little bit left, so I 
am just going to complete it.
    The benefits of removing poor country limits will accrue to 
only one Nation in this world, the United States of America. 
Ultimately we do not care how you fix the system. We just want 
it fixed not in 5 years, not in 10 years; now, this year.
    On that note, there are so many proposals out there for 
broader high-skilled immigration reform. They include 
recapturing unused visas, providing additional U.S. STEM visas, 
exemptions for spouses and children, early filing, exemptions 
for physicians who provide service in underserved areas, and we 
support all of these.
    We are extremely encouraged by the introduction of the 
Immigration and Innovation Act of 2013 in the Senate, and we 
really hope that a similar bipartisan bill will be introduced 
the House. This innovation economy is global, and the ripe 
export markets and the foreign professionals in America 
creating products for these markets will not wait forever.
    Our futures are tied to the United States, as are those of 
our children. The growth of America's economy and the 
availability of jobs for Americans are of great significance to 
us and our families. We want nothing more than to see America 
prosper and grow while still remaining the most welcoming 
Nation on the face of this Earth.
    On behalf of Immigration Voice, again, my sincerest 
gratitude for this opportunity and the very patient hearing you 
have given me today. Thank you.
    Mr. Goodlatte. Thank you, Dr. Arora.
    And I will begin the questioning with you, Mr. Wadhwa. 
Which do you believe is a greater factor in encouraging foreign 
students and workers on temporary visas to return home, 
difficulties receiving green cards in the U.S. or expanding 
opportunities in their home countries?
    Mr. Wadhwa. They are both. In fact, when we surveyed 
several hundred returnees, they said it was greater 
opportunities. But I know in dealing with my students what 
happens is that they look for jobs because they want to stay 
here for 2 or 3 years after they graduate. They can't get jobs 
because companies can't get H-1B visas, or they are worried 
about hiring foreigners because of the backlash.
    Mr. Goodlatte. I have got another question for you, and I 
am going to go quickly because I have several I want to ask in 
a short period of time.
    As I noted in my opening statement, other primary 
immigrant-receiving countries like the U.K., and Canada, and 
Australia select over 60 percent of their immigrants based on 
their education and skills, while the United States selects a 
little more than 10 percent on this basis. Which type of 
immigration system do you think makes the most sense for 
America?
    Mr. Wadhwa. We need both because you have to have families 
as well, but right now we need more skilled.
    Mr. Goodlatte. Talking about ratios here, percentage.
    Mr. Wadhwa. I would increase the ratio of skilled 
immigrants dramatically.
    Mr. Goodlatte. Great. Okay, thank you.
    Next, Mr. Teitelbaum, I see that the Jordan Commission 
recommended eliminating the Diversity Lottery Program. Since 
the Jordan Commission's recommendations were issued, somewhere 
in the magnitude of 800,000 diversity green cards have been 
issued. Can these green cards have been better utilized for 
another higher priority?
    Mr. Teitelbaum. That was indeed the recommendation, that it 
should be used for higher-priority categories.
    Mr. Goodlatte. And then to approach the second question I 
asked Mr. Wadhwa from a different vantage point, the Jordan 
Commission also stated that, quote, ``Unless there is a 
compelling national interest to do otherwise, immigrants should 
be chosen on the basis of the skills they contribute to the 
U.S. economy. The Commission believes that the admission of 
nuclear family members and refugees provide such a compelling 
national interest, where unification of adult children and 
siblings of adult citizens solely because of their family 
relationship is not as compelling.''
    Isn't this what some refer to as chain migration, and isn't 
it true that over 2.5 million siblings of U.S. citizens are now 
on a waiting list for green cards, and some will have to wait 
over two decades? What does this say about the credibility of 
that aspect of our immigration system?
    Mr. Teitelbaum. Yes, that is true. That is what we referred 
to as management by backlogs, in which you make promises that 
cannot be fulfilled, and you get these enormous and very long 
backlogs that are built up. So our recommendation was that 
those visa numbers be reallocated to the high-priority, higher-
priority categories that we mentioned, and then there would be 
immediate admission of those people and no backlogs in those 
categories.
    Mr. Goodlatte. Thank you.
    And, Mayor Castro, you state that comprehensive immigration 
reform should do three things: secure the border, streamline 
the legal immigration process, and provide a path to 
citizenship for 11 million illegal immigrants.
    Do you think that interior enforcement should play a role 
to discourage future immigration by those not documented by 
making jobs to them unavailable? Should that be a part of that 
comprehensive immigration reform?
    Mr. Castro. Yeah, that is a great question. I do believe 
that enforcement, both in terms of active enforcement on our 
borders and under this Administration there has been tremendous 
progress with regard to enforcement. In fact, the triggers in 
the 2007 proposal have just about all been met. But going 
forward, of course, enforcement is part of the conversation.
    Mr. Goodlatte. And one of the aspects of enforcement that 
doesn't get as much attention here, although it does get 
attention in some of the States which have attempted to do 
things about it, is the fact that a large percentage of people 
who are not lawfully in the United States entered legally, on 
student visas, visitors' visas, business visas, and overstayed 
their visas, and so the border and securing the border is not a 
component in dealing with that aspect of unlawful immigration. 
It has to be done in the interior of the country with 
verification programs, with regard to employment, with 
cooperation amongst various law enforcement authorities, and so 
on. Do you think that should be part of the process?
    Mr. Castro. Yeah, I think we agree that we can make the 
system work better for everyone, including for employers, 
including at our airports, in each and every way. Both in terms 
of border security and interior security, comprehensive 
immigration reform gives us the opportunity to make this work 
better at every single juncture.
    Mr. Goodlatte. And I want to give you an opportunity to 
answer the question of the day, and that is this: Are there 
options that we should consider between the extremes of mass 
deportation and a pathway to citizenship for those not lawfully 
present in the United States?
    Mr. Castro. Well, let me say that I do believe that a 
pathway to citizenship should be the option that the Congress 
selects. I don't see that as an extreme option. In fact, as one 
of the Representatives pointed out, if we look at our history, 
generally what we found is that Congress over time has chosen 
that option, that path to citizenship. I would disagree with 
the characterization of that as the extreme.
    The extreme, I would say, just to fill that out, would be 
open borders. Nobody agrees with open borders. Everyone agrees 
that we need to secure our border; that the United States needs 
to improve its----
    Mr. Goodlatte. I think we agree on that, but the question 
is what to do about the 10 million or more people who are not 
lawfully here. Are you and, do you think, others open to 
finding some ground between a pathway to citizenship and the 
current law, which would be to require deportation in many 
circumstances, whether that is being enforced today or not?
    Mr. Castro. I believe that, as the President has pointed 
out, as the Senators who have worked on this have pointed out 
from both parties, that a path to citizenship is the best 
option.
    Now, I also understand that, in terms of getting at what 
you may be thinking about, a guest worker program in the future 
has also been put out there. I know that there are some 
concerns about how you would set that up, but I think if you 
want to deal with issues going forward, that may be one way to 
do it. However, in terms of the 11 million folks who are here, 
certainly putting them on a path to citizenship, ensuring that 
after they pay taxes, they pay a fine, they learn English, they 
get to the back of the line, that is the best option.
    Mr. Goodlatte. I thank you.
    The gentleman from Michigan is recognized.
    Mr. Conyers. Thank you, Chairman Goodlatte. And I want to 
thank all the witnesses on the first panel. You have done a 
good job. We may not have settled much, but that is the way 
these things start out, isn't it?
    I just wanted to see if we could get a little more 
agreement on Chairman Goodlatte's last question: What do we do 
with 11 million people that are already here? Are there any of 
you that still have reservations about a path to citizenship 
that is firm and fair? We are not going to jail them or send 
them back. Can we hit a small chord of agreement on that one 
question? What do you think, Dr. Arora?
    Dr. Arora. We believe that a balanced approach to this is 
really important, one that is fair and is a win-win situation 
for everyone. Like I said before, we tend to be focused on 
issues that we are very familiar with, having been through the 
employment-based immigration system, but certainly we would 
like to see a situation where Congress comes together and 
agrees on something that can go and get passed by the Senate 
and signed by the President and actually solve some of these 
problems in a balanced program. We would like to not view 
immigration as a zero-sum game, and I think we all agree that 
it doesn't have to be that way.
    Mr. Conyers. Mr. Wadhwa, do you think that reasonable 
people with strong differing views can come up with elements of 
a path to citizenship that would get us through this very 
difficult problem?
    Mr. Wadhwa. You know, I think the low-hanging fruit here is 
the children. I don't believe any decent human being would 
argue that those children should be deported. We should give 
them citizenship immediately without thinking twice.
    And then the issue is about the law. I mean, that is a very 
strong point that Representative Gowdy made. Maybe what you do 
is you give them indefinite permanent resident status instead 
of citizenship. There is other ways of slicing this. They want 
to be here, they want to raise their children. You know, we 
don't have to discuss deporting them; we just should legalize 
them so they can pay taxes, participate as regular U.S. 
citizens do without calling them citizens. There is a way.
    Mr. Conyers. Mayor Castro, I and, I know, some of my 
colleagues are a little reluctant about permanent indefinite 
status. You know, this is one of the things that makes this 
country great. You can become a citizen; you are either born 
here, or you earn your way in as an American. And we are all 
citizens equally, and so I have just a little bit of reluctance 
about having somebody here, an immigrant, permanently.
    Mr. Castro. To my mind, it would be unprecedented for us to 
create a class of folks who are stuck in this kind of limbo, 
who are not allowed to become citizens, but almost everything 
up to that line. We draw our strength as Americans from 
citizenship. That is the essence of who we are. Throughout the 
history of this Nation, the biggest challenges we have faced 
have been when we created second-class citizens, much less 
second-class noncitizens, and so I believe that a path to 
citizenship is the best option.
    Mr. Conyers. Mr. Teitelbaum, have we reached a state where, 
in terms of border security, I got the impression we are doing 
a little better, the rates are going down, fewer people are 
coming over. We are spending tons of money. What do you see in 
that area that we might want to look at if Chairman Goodlatte 
agrees that we should send some Judiciary Committee Members 
down for a serious examination after having talked with 
security people here before we go there?
    Mr. Teitelbaum. Are you asking me to speak on behalf of the 
Commission on Immigration Reform, or what do I----
    Mr. Conyers. Your personal views, sir.
    Mr. Teitelbaum. Well, I have traveled along that border 
many times. There is no such thing as the average border 
situation along that border. There are huge variations across 
that border as to what is happening. And my impression is, from 
the data I have seen, that the number of attempted crossings 
has declined. There are more boots on the ground, as someone 
else said. There is also a deep, deep recession in the United 
States since 2008 and more rapid economic growth south of the 
border.
    So you have got competing explanations of what is going on 
there, and I don't think we can actually answer your question, 
Mr. Ranking Minority Member, as to whether the enforcement 
efforts are the primary cause of that trend.
    Mr. Conyers. Can you give them a good grade so far?
    Mr. Teitelbaum. Can I do what?
    Mr. Conyers. Can you give them a fair grade so far?
    Mr. Teitelbaum. A fair grade?
    Mr. Conyers. Yes.
    Mr. Teitelbaum. I think there have been serious efforts, 
increased efforts, along the border. I don't think there have 
been serious efforts in the interior. As one of the other 
Members mentioned, if you don't have interior enforcement, it 
really doesn't matter how good your border enforcement is, 
people will find a way around the barrier if they can find work 
easily in the United States.
    Mr. Conyers. Thank you, sir.
    Thanks, Chairman.
    Mr. Goodlatte. Thank you, gentlemen.
    It is now my pleasure to recognize the gentleman from Texas 
Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. And, Mr. Chairman, 
thank you, too, for your thoughtful approach to the subject at 
hand.
    One thing that I think all Members can agree upon, and I 
assume all panelists as well, is that immigrants work hard, 
they create jobs, and they set a daily example of how to 
achieve the American dream. Immigration, in fact, has made our 
country great.
    As the Chairman pointed out a minute ago, America is the 
most generous country in the world. We admit 1 million legal 
immigrants every year. That is about as many as every other 
country combined, so there is not even a close second when it 
comes to our generosity. I do think that generosity gives us 
the credibility to say that we need to devise an immigration 
system that is in the best interests of America and Americans.
    One way, in my view, to improve our legal immigration 
system, and that is the subject at hand, is to admit more 
immigrants on the basis of their skills that America needs 
today. We admit only about 6 percent of the legal immigrants 
now on the basis of their skills. That happens to be, I think, 
the lowest percentage of any industrialized country in the 
world. So I would like to get us back to where we emphasize and 
encourage immigrants who have the skills that America needs, 
but we need to do so in a way that does not jeopardize the jobs 
of Americans who are in this country who are working, either 
citizens or legal immigrants. We don't want to jeopardize their 
jobs or depress their wages.
    So my question for Mr. Wadhwa, and maybe Mr. Teitelbaum, is 
this: How do we admit skilled immigrants without hurting 
American workers?
    Mr. Wadhwa. First of all, if you look at all the data, 
every single study that has been done, it shows that when you 
bring skilled immigrants in, they create jobs. And right now we 
are in an innovation economy. Skilled immigrants are more 
important than ever, not only to create jobs, but to make us 
innovative and to help us solve major problems. So bring the 
right people in, and you will make the pie bigger for everyone. 
And we can bring in more unskilled as well, because we will 
have a bigger economy. We need them. The population of America 
will decline unless we keep immigration going at least at the 
pace that it is now.
    Mr. Smith. Thank you. I am not sure Mr. Teitelbaum is going 
to agree with you on the low-skilled, but Mr. Teitelbaum?
    Mr. Teitelbaum. Yes. I will say in answer to your question, 
one way is not to admit larger numbers as temporary admissions 
than you have visas for permanent admissions or you will 
negatively influence the U.S. workforce. And the second is a 
much more effective means of assessing the effects of 
admissions of skilled workers in particular areas on U.S. 
workers, so you don't want to, I would say--this is a personal 
statement, not for the Commission--you don't want to admit all 
STEM workers, because the tight labor markets are in some parts 
of STEM, but definitely not in other parts of STEM, and this 
Committee has actually reflected that in, I guess, it was your 
bill, Mr. Chairman----
    Mr. Smith. Yes.
    Mr. Teitelbaum [continuing]. That was passed one time or 
two times in reflecting that difference at the Ph.D. level. 
That was very smart of you.
    Mr. Smith. Okay. Thank you, Mr. Teitelbaum.
    And, Dr. Arora, any comments on that?
    Dr. Arora. Yes. Thank you, Mr. Smith.
    I think that there is a couple of really important things 
here. You brought up a very good point, and it is important to 
protect American workers and at the same time have a robust 
immigration system where skilled immigrants can come in and 
fill real needs.
    And one of the problems that we have today is that we have 
restricted the mobility of the skilled workers that come into 
the country. They get trapped in jobs for long periods, where 
promotions can be denied, where they have no way of going to 
another employer that is willing to offer a market wage or 
advancement as based on the experience that they have gained 
over a period of time and toward the skills that are really 
required by the demands of the job is. And I think that these 
long periods of limbos, and the restrictions on job mobility, 
and this lack of reliance on the market to tell us what the 
demand is is a problem.
    Mr. Smith. Okay. Thank you, Dr. Arora.
    Mayor Castro, let me follow up with a question that the 
Chairman was asking you a minute ago. Do you see any compromise 
area between the current status quo and a path to citizenship 
for virtually all the 11 million or more illegal immigrants in 
the country today?
    Mr. Castro. I see the compromise as a recognition that a 
path to citizenship will be earned citizenship; in other words, 
that they will have to----
    Mr. Smith. But you don't----
    Mr. Castro [continuing]. Pay a fine.
    Mr. Smith. In other words, a path to citizenship 
regardless, one way or the other.
    Mr. Castro. Well, I believe that it is the best option. I 
think history has borne out that that has served the United 
States best.
    Mr. Smith. Okay. Let me ask all panelists this question, 
and maybe since my time is almost up, I will say this: Is there 
any witness today who does not agree that we ought to have a 
system that requires employers to check to make sure that they 
are hiring legal workers? Is there anyone who would disagree 
with that system?
    Mr. Teitelbaum. It was a recommendation of the U.S. 
Commission on Immigration Reform.
    Mr. Smith. Mr. Teitelbaum, you and I worked together to try 
to implement the Commission's recommendations, and we came 
awfully close until the Clinton administration reversed their 
endorsement.
    But everybody agrees that with some kind of a system to 
make sure that employers only hire legal workers; is that 
right?
    Okay. Thank you.
    Thank you, Mr. Chairman.
    Mr. Goodlatte. I thank the gentlemen.
    The gentleman from New York Mr. Nadler is recognized for 5 
minutes.
    Mr. Nadler. Thank you, Mr. Chairman.
    Mayor Castro, your testimony said that we must do at least 
three things in immigration reform: further strengthen border 
security, streamline the legal immigration process that law-
abiding companies can get the workers they need, and create a 
path to citizenship for the estimated 11 million undocumented 
immigrants.
    It seems to me that there is one further thing that any 
good immigration reform should do, and that is to eliminate 
unjustified, invidious discrimination that is present in the 
system. And one such discrimination is certainly the fact that 
people other than gay and lesbian people can sponsor their 
spouses for immigration into the United States so that you 
don't keep them separated, whereas under our laws, of course, 
gay and lesbian people cannot marry other gay and lesbian 
people--at least the Federal Government won't recognize it, a 
few States will--so that the laws work a--what I would call a 
cruelty on people, an unnecessary cruelty, because under our 
laws it may be that the lover or partner of an American citizen 
can't be here, and under the laws of the foreign country, it 
may be that the American can't go there, and you are keeping 
people apart.
    Now, there is legislation called the United American 
Families Act which would establish an equivalency so that, the 
question of gay marriage apart, which is really a separate 
question, we will not have the cruelty of keeping loving 
couples apart by allowing a gay person or a lesbian person to 
sponsor his or her partner for immigration. We are 
reintroducing that bill today, by the way. It has broad 
bipartisan; it has the support of Republicans as well as 
Democrats, church leaders, members of the Hispanic Caucus, and 
now recently the President of the United States.
    Do you think this is a good or essential piece of 
comprehensive immigration reform?
    Mr. Castro. I believe that it would be a good piece for 
comprehensive immigration reform, and, as you suggest, I 
believe that there would be significant support for that. I 
myself support marriage equality, but even for folks that 
support, for instance, only civil unions and certain rights 
that partners would have, I believe that this is right in that 
vein and that it makes sense.
    Mr. Nadler. Thank you. And I just want to make clear that 
this is not--not the question of gay marriage. If we had gay 
marriage, you wouldn't--it would be moot. But this is a 
question of enabling people to be together who otherwise cannot 
be for no purpose at all, purposeless cruelty, which the United 
States should never engage in.
    I have a second question for you, and that you note in your 
testimony the immigration laws are broken across the board, 
harming businesses and separating families. There are some who 
support the idea of increasing the number of green cards in the 
employment-based system, we have heard that, but only if a 
commensurate number of green cards are eliminated from the 
family-based system.
    Do you buy into this zero-sum approach, and can we be a 
Nation that supports both business groups and keeping families 
together?
    Mr. Castro. Thank you for the question, Representative. I 
agree with Dr. Arora that this is not a zero-sum game. There is 
no reason that we need to choose between these. I believe that 
we should have both employment-based and continue our family-
based allocation as well as, of course, addressing the issue of 
high-skilled immigrants and other skilled immigrants.
    I would also, frankly, suggest that being able to pick 
crops in the sun, under the hot sun, for 12, 14 hours a day, to 
do back-breaking work, is a kind of skill; maybe not one we 
would call a high skill, but certainly a skill that many, many 
folks either do not or cannot do. And so to answer your 
question, I believe that that is a false dichotomy.
    Mr. Nadler. Thank you.
    And, finally, I have one question for Mr. Teitelbaum. Mr. 
Teitelbaum, you say that some of the Commission's strongest 
recommendations were against temporary worker programs, noting 
that admitting large numbers of temporary workers in 
agriculture and other fields would be, quote, ``a grievous 
mistake.''
    I must say I am very ambivalent about this. On the one hand 
I worry about guest worker programs bidding down U.S. wages for 
American workers; on the other hand, the share of the native-
born workforce without a high school diploma was around 50 
percent in the 1940's and 1950's, and it is now down to about 6 
percent. And as the native-born have grown better educated, 
U.S. workers have been less willing to engage in farm work, but 
the demand for farm work has not decreased.
    So my question is if we still have a need for on-the-farm 
labor, but a giant reduction of population of native workers 
likely to look for work in the sector, do we have a need for a 
guest worker program? Is it naive to think that if we cut out 
foreign workers, that these jobs would just be filled by 
American workers? And is such a program, in fact, cutting down 
on American--you know, bidding down American wages?
    Mr. Teitelbaum. Again, this is going to be my thoughts, not 
the Commission. The Commission was recommending against large-
scale temporary worker programs for the reasons I indicated. I 
agreed with that recommendation. I believe it still to be true.
    There is a very large population in the United States of 
low- and unskilled workers, many of whom are unemployed and 
relatively unemployable. The conditions of work offered in some 
of the jobs you are talking about are really not very 
attractive compared to their alternative sources of income as 
citizens, and, therefore, I think you have a situation in which 
the market disposes toward dependence upon unauthorized 
migrants.
    In addition, you have decisions made by employers as to 
where to invest or where to plant and what plants to plant, are 
they labor-intensive plants or not labor-intensive plants, 
based upon the assumption of continued access to this kind of 
labor. So you get a kind of mutual dependency, if you will. A 
situation in which it is correct, as the growers might say, 
that if you took away my workforce now, all my plants, all my 
crops would rot in the field. But if they were pretty certain 
they weren't going to have that future workforce in the future, 
they would make different decisions about what crops to grow 
and where to grow them. But why should they if they assume they 
are going to have that workforce?
    Mr. Goodlatte. The time of the gentleman has expired.
    The Chair recognizes the gentleman from Alabama Mr. Bachus 
for 5 minutes.
    Mr. Bachus. Thank you.
    Let me ask each one of you for a yes or no answer if you 
can give it. If you can't, I will permit you to pass.
    Mr. Teitelbaum. Yes or no?
    Mr. Bachus. If you can. If you want to pass, you know, 
can't answer it.
    Do you think our immigration policies ought to be based on 
our own national interests; in other words, what is best for 
America?
    Mr. Wadhwa. Yes.
    Mr. Teitelbaum. Yes.
    Dr. Arora. Yes.
    Mr. Castro. Absolutely. Sure.
    Mr. Bachus. So we all agree on that.
    Now, do we all agree that attracting high-skilled legal 
immigrants is in our best interests? You know, the Chairman 
mentioned Australia and Canada. And obviously high-skilled 
workers in mathematics, sciences, technology, they have 
actually created jobs in those countries. They have created 
jobs for native Australians, native Canadians. It has brought 
down their unemployment rate. But do all of you agree that that 
is in our best interest, and there is less contentious issues 
with our highly skilled workers?
    Mr. Wadhwa. Double yes.
    Mr. Teitelbaum. In principle, yes, but you must be careful 
not to deter American kids from going into those fields by 
taking that action.
    Mr. Bachus. Oh, absolutely.
    Mr. Teitelbaum. So you just have to do it right.
    Mr. Bachus. Right. But it is less contentious than with our 
undocumented, unskilled workers, I think. Would you agree?
    Mr. Teitelbaum. Yes.
    Dr. Arora. Yes, it is.
    Mr. Bachus. So yes?
    Dr. Arora. Yes.
    Mr. Bachus. And Mayor.
    Mr. Castro. Yes, I agree to the need to encourage high-
skilled immigration, sure.
    Mr. Bachus. Now, the Chairman mentioned that some 
countries, and these are countries all of which have 
significantly lower unemployment rates than America, are 
actually attempting to attract entrepreneurs, engineers, 
mathematicians, scientists, people skilled in technology. And I 
think we all agree we have all seen cases of these people being 
trained, some of them at University of Alabama Birmingham, and 
then going back to India, some going back to China, and 
starting jobs which compete and take jobs away from our people, 
and that that is really a tragedy; and that Germany doesn't do 
that, Chile doesn't do that, Australia doesn't do that, Canada 
doesn't do that. So should we design a system that 
prioritizes--not excludes other, but prioritizes those 
individuals?
    Mr. Wadhwa. Yes.
    Mr. Teitelbaum. Once again, as long as it does not deter 
U.S. kids from going into those fields.
    Mr. Bachus. Oh, and let me say that with those caveats, and 
also in certain areas where if there are Americans that can 
fill those positions.
    Mr. Teitelbaum. The general point, Congressman, is you 
might end up with fewer people net if you discourage the inflow 
of people from the largest source of those occupations who are 
American citizens.
    Mr. Bachus. Sure. Okay.
    Dr. Arora. We believe, yes, that there is a need to reform 
the way highly skilled immigration is done today.
    Mr. Bachus. All right. Mayor?
    Mr. Castro. I believe there is a need to reform highly--
immigration for highly skilled workers----
    Mr. Bachus. Yes.
    Mr. Castro [continuing]. But I also believe there is a need 
to reform the entire system.
    Mr. Bachus. Oh, absolutely. We all agree, but I think that 
my point is, and I think each of you would agree, it is going 
to be a much easier lift to solve the problem with highly 
skilled workers. This House has passed on one occasion, could 
have on two occasions, a bill which would address that. And the 
present system for our highly skilled entrepreneurs is 
diametrically opposed to what is done in Canada, Australia with 
great success and created hundreds of thousands of jobs there, 
and actually has put Americans out of work because we refuse to 
do that here. And Ms. Lofgren and I agree on that, I think, 99 
percent or 100 percent. I think that the gentleman from 
Michigan, the former Chair, and I agree, and I think we could 
pass a bill which would take that off the table.
    When you take comprehensive, then we are dealing with 
certain issues like full citizenship, and whatever else we 
disagree on, I think we would agree on that that is a more 
toxic, contentious issue, granting full amnesty. And I would 
hope that by comprehensive we could address those on two 
different paths, because we can pass something and solve the 
problem which is putting Americans out of work and is enabling 
other countries to compete successfully and take jobs away from 
us. And I would just hope that you all would all agree with 
that, that let us not let the more contentious issues and this 
idea of comprehensive reform prevent us from this year, this 
month, you know, in the next 2 or 3 months passing something to 
address what is a horrible situation in this country, and that 
is we are training people to go back to their countries and 
compete against us.
    And we have mentioned Google, Intel, eBay, Microsoft. All 
of those companies, the CEOs say for every one of those people 
I hire or keep in America, I can hire three Americans, too.
    Mr. Wadhwa. We can agree on the Dream Act quite easily. 
That there is widespread agreement on.
    Mr. Bachus. Okay.
    Mr. Goodlatte. The time of the gentleman has expired.
    The Chair recognizes the gentleman from North Carolina Mr. 
Watt.
    Mr. Watt. Thank you, Mr. Chairman.
    Let me say at the outset so that nobody is misled I am a 
strong supporter of a system that encourages high-skilled 
workers, but the composition of this panel may leave the 
impression that I hope is not the one that we intend to leave, 
that that is all that immigration reform is about.
    And so I want to be clear that Google, Yahoo!, Intel, eBay 
were all founded and run by immigrants, but none of them came 
here under a skilled worker visa program. They came here as 
family-based immigrants, refugees or children of refugees.
    And so just to be absolutely clear on this, this emphasis 
that seems to be being placed on high-skilled visas and reform 
just--are we clear that that is not to the exclusion of other 
kinds of immigration reform and encouragement of other 
immigrants? And if I can get clarity on that from all four 
witnesses, I just want that on the record so that we are not 
misled.
    Mr. Wadhwa. I completely agree with that. We can't lose 
time on the skilled, because right now the U.S.'s economy is in 
a slump. We are in the middle of a major reinvention. Our 
competitors are rising. Immigrants are fleeing. I wrote an 
entire book about the immigrant exodus.
    So we have to fix the immediate problem of skilled 
immigrants, the million skilled immigrants legally here waiting 
for green cards. We don't talk about them. We need to fix that 
ASAP, and we need do the other things we are talking about 
without doubt. But we can't wait on the million, because they 
are leaving, and America is bleeding talent right now.
    Mr. Watt. If we are doing all of this immediately, I don't 
want to do that to the exclusion of doing the rest of 
immigration reform. That is the point I want.
    And, Mr. Teitelbaum, just to be clear, you all's 
recommendation, I guess, that you are not encouraging low-
skilled or unskilled workers, that is not--that recommendation 
was not about eliminating other kinds of non-skill-based 
immigration either, was it?
    Mr. Teitelbaum. No. You may remember the main 
recommendation on family-based immigration recommended 
establishment of these priorities and the rapid admission of 
people in these priority groups, and that is by far the biggest 
category of legal immigrants.
    Mr. Watt. And, Dr. Arora and Mayor Castro, if I can get you 
all to be as clear. And I am just trying to document a record 
here so nobody comes back later and says this hearing was only 
about high-skilled visas, high-skilled worker admissions to the 
country. I mean, I think that would be a gross misperception of 
what we should be coming away with. So, Dr. Arora and Mr. 
Castro, if you can help me clarify the record, I would be 
appreciative to you.
    Dr. Arora. Congressman, we are a grassroots organization, 
and we supported a comprehensive bill in the past, and if 
Congress is to come up with a doable bill that you can all 
agree on, we would be very happy to back it and support it.
    In the end we would like to see these problems solved. 
Whether you decide to do them in steps and individual bills, or 
you take an approach that everything can be done together, we 
leave up to your judgment, but we realize that it is a complex 
problem, and there are many parts to this.
    Mr. Watt. Mr. Castro?
    Mr. Castro. Well, I absolutely believe that this issue of 
immigration reform should be addressed comprehensively. And I 
would also add that even though it might seem, as was said, 
easy to do just one part of this, the STEM bill, which was 
supposed to be easy, did not get through the Senate, probably 
the better option is to address this comprehensively at one 
time that will impact the entire system in a positive way.
    Mr. Watt. All right. Thank you. I appreciate the 
clarification.
    And with that, Mr. Chairman, I won't even go to another 
question, because my time is about to expire.
    Mr. Goodlatte. We appreciate the diligence of the gentleman 
from North Carolina and commend that to all the Members.
    And we turn now to the gentleman from Virginia Mr. Forbes 
for 5 minutes.
    Mr. Forbes. Thanks, Mr. Chairman.
    Thank all of you for your testimony. I only have 5 minutes, 
so I am going to try to be succinct and ask you in your answers 
to do so as well.
    And, Mayor, I know you have studied this issue a lot, you 
prepared for this hearing, or you wouldn't be here. And let me 
just ask you, if I gave you this pen and asked you to go back 
and take as long as you needed and draft this comprehensive 
piece of legislation, you brought it back before us, and we 
passed it out of here, and we passed it out of the Senate, and 
the President signed it into law, we all know that there will 
be some people that disagree with portions of it, some people 
who try to circumvent it, some people who break it.
    I want you to fast-forward now. You are a young man, and 10 
years from now we ask you to come back and testify before us, 
and we found that the people that circumvented that law were 
either 10 or 10 million. Should we be prepared to draft a new 
path of citizenship for those 10 million people that 
circumvented the law that you wrote?
    Mr. Castro. Thank you very much for the question. And I 
know that this has been a concern with regard to the 1986 law. 
And, in fact, I am very pleased that the bipartisan effort so 
far, what has been proposed by the President and the Senate, 
includes stronger interior enforcement.
    Mr. Forbes. Yeah. And I don't want to interrupt you, you 
can put all you want on the record, but I am saying you have 
written a law, we do everything we can. Despite our best 
efforts there will be people who break that law and circumvent 
them. It may not be 10 million, it may be a million, but for 
those individuals should we be expected to 10 years from now 
write a new path of citizenship for those individuals however 
many there might be?
    Mr. Castro. With all due respect, Representative, I just 
don't think that that is a question that can be answered right 
now. It is such a hypothetical question. I believe that if the 
Congress does an excellent job now----
    Mr. Forbes. Mayor, are you saying that you don't believe 
that there will be any people that circumvent the law no matter 
how well we write it? Is that your testimony?
    Mr. Castro. No, I wouldn't disagree with you that there may 
be folks who circumvent it.
    Mr. Forbes. And as to those individuals, should we be 
prepared at some point in time, 10 years down the road or 
whenever, to be prepared to write a new path of citizenship for 
them?
    Mr. Castro. I believe that that is a question hopefully 
that won't have to be answered in any significant measure by a 
Congress in the future if you do the job right this time.
    Mr. Forbes. So you believe if we do the job right, there 
will not be individuals who circumvent that law down the road? 
And the reason I say it, Mayor, is we have got to ask these 
tough questions. It is easy to talk about comprehensive reform 
if we don't ask and answer those tough questions.
    Let me give you another one. The Ranking Member said there 
is so much that we agree on, and I agree with that 
comprehensively, but we can't just take a concept like 
comprehensive and not look at the detail, because sometimes the 
devil is in the details.
    When you talk about a lot of individuals who are here and 
not documented, or here not legal, or illegally, one of the 
things for us, most of them are hard-working, good people, you 
would attest to that, but not all of them. For example, 
testimony we have had before this Committee of the rise in gang 
activity that we have had in the country, we had testimony that 
85 percent of one gang, the individuals here were here 
illegally.
    Now, as to just that group, I want to ask you this 
question: If we have someone here who is here illegally, and 
not one of those hard-working people, but someone who is a 
member of a violent criminal gang, should we be prepared to 
deport them before they commit a criminal act, or should they 
also have a path to citizenship?
    Mr. Castro. Thanks for the question. I think there is an 
agreement across the board that if someone has committed a 
violent crime----
    Mr. Forbes. No, no. Before they have committed a violent 
criminal act, they are here illegally, and they are a member of 
a violent criminal gang, should we be able to deport them 
before they commit that violent criminal act, or should they 
also be able to have a path to citizenship?
    Mr. Castro. You mean if you determine them guilty before 
they have committed a crime?
    Mr. Forbes. Not guilty. I am saying they are here 
illegally. They didn't come here legally, and they acknowledge 
and we prove that they are a member of a violent criminal gang, 
should we be able to remove them from the country before they 
commit another--or before they commit a violent criminal act?
    Mr. Castro. I would just say that I believe that ensuring 
that America is free of folks who have committed violent 
crimes, that that is and should be a priority.
    With regard to the hypothetical of people who might commit 
a crime or might not commit a crime, you know, I readily 
concede that I am not in law enforcement, I am not a technical 
expert in that regard, but I do believe that folks who have 
committed a violent crime should be deported.
    Mr. Forbes. And, Mayor, the reason I tell you is this exact 
situation happened in Boston, and a young girl was raped and 
brutally beaten for individuals that were here illegally, 
member of a violent criminal gangs, and temporary protected 
status protected them. So at some point in time we have got 
to--we passed legislation, and here the Senate refused to pass 
it.
    And so with that, Mr. Chairman, I see that my time is 
expired, but, Mayor, they are the kind of questions that we 
need answers for, and unfortunately that is going to be part of 
what we have to ferret out over the next several weeks and 
months. And with that, Mr. Chairman, I yield back.
    Mr. Goodlatte. I thank the gentleman.
    The Chair recognizes the gentlewoman from California Ms. 
Lofgren, for 5 minutes.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Before my questions, I would like to ask unanimous consent 
to place in the record 22 statements from various individuals, 
including religious organizations, social organizations, labor 
organizations, as well as an op-ed from The Washington Times 
today from Mat Staver, the dean of the law school at Liberty 
University.
    Mr. Goodlatte. Well, seeing as Liberty University is a fine 
institution in the Sixth Congressional District of Virginia, 
and I think very highly of Dean Staver, we will admit all of 
those, without objection, to the record.
    Ms. Lofgren. Thank you very much.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               

                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________

    Mr. Bachus. Mr. Chairman, could I have unanimous consent to 
introduce an article that appeared in Saturday's Wall Street 
Journal on our declining birth rates?
    Mr. Goodlatte. Without objection, that will be made a part 
of the record as well.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Goodlatte. And while we are at it, if the gentlewoman 
will suspend, we will give you your full 5 minutes, but I would 
also ask unanimous consent that a joint statement by the 
Comprehensive Immigration Reform Coalition and the National 
Hispanic Christian Leadership Conference, of which Dean Staver 
is a member, be also made a part of the record. Without 
objection, all of these documents will be put in the record.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Goodlatte. And the gentlewoman is recognized for 5 
minutes.
    Ms. Lofgren. Thank you, Mr. Chairman. And, you know, it has 
been so interesting to listen to the questions so far. You 
know, in fact, a person can be found deportable now not just if 
you are convicted of an offense, but if you have admitted to 
committing all the elements of a criminal offense even though 
you haven't been convicted. So in the hypothetical that was 
earlier posed, you wouldn't have to change the law to deal with 
that situation.
    You know, I think we have a unique opportunity here to come 
together and come up with a situation where another Congress 20 
years from now won't be dealing with this same problem. Dr. 
Richard Land, who was the president of the Southern Baptist 
Convention, was a witness before the Subcommittee a number of 
years ago, and I always quote him because I don't want to steal 
his line. He said for many years there were two signs of the 
southern border: One said ``No Trespassing,'' and the other 
said ``Help Wanted.''
    And our situation after 1986, we did the Reagan amnesty, 
but we made no provision to meet the economic or familial needs 
of the country. And so you have a situation now where we have 2 
million migrant farm workers, and, like, 80 or 90 percent of 
them are here without their papers. They are providing a vital 
service to the United States. You could do E-Verify and find 
out they are not properly here, and American agriculture would 
collapse. So that is not going to be helpful.
    What we need to do is provide a system that will actually 
meet our needs both in the economy, whether it is high tech, 
whether it is agriculture, and that also respects the needs for 
American families to be united.
    And I would just add, it is not my belief that my son and 
daughter are chain migration. My son and daughter are part of 
my nuclear family, and I think that is true for Americans who 
have sons and daughters abroad.
    I think it would be such a tragedy if we became sidetracked 
on whether or not the 11 million here who responded to the help 
wanted sign at the border can never become right with the law 
and never have the aspiration to become an American.
    We are not talking about giving U.S. citizenship to 
anybody. What we are saying is over some period of time that is 
arduous, you might gain legal permanent residence in the United 
States, and then if you pay thousands of dollars, learn 
everything there is to know about the American Government, 
learn English so well you can pass the test, and then swear to 
defend the Constitution and be willing to go fight for your 
country, only in that case could you become an American 
citizen.
    So I just think that looking back to Mat Staver, the dean, 
in today's newspaper article, he said that we should include 
appropriate penalties, waiting periods, background checks, 
evidence of moral character, a commitment to full participation 
in American society through learning English, but yet for hard-
working, undocumented neighbors who aspire to be fully 
American, it must end with citizenship, not a permanent second-
class status. I hope that people will read Dean Staver's op-ed, 
because it is really very compelling.
    Now, I would like to ask you--and first, thanks to all the 
people for being here, you have all been excellent witnesses--
but, Mayor Castro, you have talked about immigration. Your 
grandparents, I guess, just like mine, were immigrants. But one 
of the arguments that has not been made here, but it is made 
some sometimes in the country, is that somehow today's 
immigrants are different than the old immigrants, the good 
immigrants from before. I mean, the German immigrants, it was 
said when they came, wouldn't really learn English; or, you 
know, the Irish didn't need to apply; the Italians were somehow 
morally not the same as the people they were joining. Now that 
all seems preposterous.
    Have you seen any evidence that today's immigrants from 
Latin America are any less meritorious than the immigrants from 
our American past, any less willing to learn English, become 
patriotic Americans? Can you guide us on that question?
    Mr. Castro. Thank you for the question, Representative. 
This generation of immigrants, I am convinced, is just as hard-
working, just as patriotic, just as faith-oriented as the 
immigrants of generations before that helped build up the great 
country that we live in today. I know that there has been 
sometimes, unfortunately, that type of characterization, but in 
San Antonio I see folks like Benita Veliz, who graduated as 
valedictorian of her high school class, National Merit scholar, 
graduated from college at the age of 20, big dreams, wants to 
be productive for the country. That is the caliber of 
immigrant, whether it is someone like Benita or it is someone 
who is working very hard in the agriculture industry, working 
12, 14 hours a day. These are hard working folks that are 
positively contributing to the progress of our Nation.
    Ms. Lofgren. Thank you. And I see my time has expired, Mr. 
Chairman. I don't want to abuse your patience.
    Mr. Goodlatte. I thank the gentlewoman.
    The Committee is going to take a very brief recess, so 
those of you who need to accommodate yourselves, you will have 
5 minutes to do so. So we will stand in recess until--well, 
make it until 12:20.
    [Recess.]
    Mr. Goodlatte. The Committee will reconvene. We will 
continue our questioning by Members of the Committee, and the 
Chair now turns to the gentleman from Iowa Mr. King for 5 
minutes.
    Mr. King. Thank you, Mr. Chairman.
    I thank the witnesses for your testimony. And this has been 
an engaging hearing, and I am looking forward to your answers 
and the rest of the testimony.
    I would turn first to Mr. Wadhwa. And yours was, I think, 
Mr. Wadhwa--I am over here on your left--yours was, I think, 
the most engaging, and when you talked about the inspiration 
that comes from the inventions that we have and how it can 
transform not just American society, but global society, and 
has. But what I notice in dialogue, it has crept in almost all 
of American society, is we are not separating the term--the 
term ``immigrant'' now means, as I listen to the panel, if I 
were just a casual observer here, I wouldn't know whether we 
are talking about legal or illegal immigrants, and I didn't 
actually know whether you were. And so could you define that 
for me and let me know what your intentions were in your 
testimony.
    Mr. Wadhwa. You know, what I have been researching and 
talking about are the people who came here lawfully, came 
through the front door, came on student visas or H-1B visas, 
who started companies, who boosted entrepreneurship. I have 
documented the statistics, you know, 52 percent Silicon Valley, 
25 percent nationwide. With the number having dropped, our 
research is recently that we are strangling our immigrant 
entrepreneurship because we won't give them visas. I am talking 
about lawful, skilled immigrants.
    Now, you know, we keep talking about the 11 million, 10 
million undocumented, unskilled workers, illegal workers; we 
don't talk about the 1 million skilled immigrants who are 
trapped in limbo who are doctors, scientists, lawyers who can't 
get visas.
    Mr. King. So really as I listen to your testimony, I should 
be focusing on you are talking about legal immigrants and their 
contribution as skilled workers?
    Mr. Wadhwa. Exactly.
    Mr. King. And the Chairman mentioned about 10 percent of 
our legal immigration is based upon merit, and the balance of 
that is really out of our control. And I remember the hearings 
that we have had here in this room, that number falls pretty 
good. It is between 7 and 11 percent. I agree with that. And 
your advocacy is that we should take a number of legal 
immigrants and focus on the skilled worker side of this, which 
would be STEM, which I support. I think that is the right 
direction to go.
    And I turn to Mayor Castro, and I recall you mentioning 
that it is not a zero-sum game, that we can have both skilled 
workers and unskilled workers and family reunification. And so 
a zero-sum game always gets my attention, because we have 
about, what, 6.3 billion people on the planet, so that would be 
the universe that you have addressed, I think. But do you 
believe that there should be a limit to the number of people 
brought into the United States, especially if we could all have 
them be legal, and what is that number?
    Mr. Castro. Thank you for the question. First let me say 
that, you know, I won't say that I could set a number for you 
right here, Representative King. I will say, of course, like 
every country, there are only a certain number of folks who 
will be permitted to enter the United States, but I just don't 
believe that it is a zero-sum game. I do think that the answer 
is to increase the number of high-skilled immigrants that we 
have, but also to put the folks who are already here on a path 
to citizenship.
    Mr. King. But, Mayor Castro, then what I am hearing here is 
that you wouldn't put a limit on any of those groups, you would 
just fill up those categories essentially by the demand, and 
that demand is potentially the entire population of the planet.
    Let me ask you another question, and that is do you believe 
that an immigration policy in this country should be 
established to enhance the economic, social and cultural well-
being of the United States?
    Mr. Castro. Well, I think that you and I agree that our 
immigration policy should enhance the economic, social well-
being of the United States.
    Mr. King. Thank you. And I have found that----
    Mr. Castro. And I believe that it has been shown that 
immigrants, high-skilled immigrants and what you would consider 
low-skilled immigrants, do benefit the economic progress of the 
United States.
    Mr. King. Thank you.
    And I turn to Mr. Teitelbaum. And I just recall the 
gentlelady from California saying that the agriculture would 
collapse if all of a sudden we didn't have the, quote, 
``immigrant labor'' to do that. Did you agree with that, or do 
you care to illuminate that subject a little for us, please?
    Mr. Teitelbaum. Again, this is my comment, not the 
Commission's comment, but if you suddenly removed the entire 
workforce of fruit and vegetable agriculture in California and 
the Southwest, it would collapse. But that is not the question. 
The question really is should you continue to depend on 
continuing inflows of people to be the workforce of that 
industry.
    Mr. King. Would you agree, Mr. Teitelbaum, that there are 
many businesses in this country that have been predicated upon 
the presumption that there would be unskilled and often illegal 
labor to fill those ranks, and that our economic structure that 
we see in the United States would be dramatically different if 
the promise of the 1986 Amnesty Act had been upheld?
    Mr. Teitelbaum. Yes, there are. There are many industries. 
I have talked to a lot of the farmers in those areas, and they 
tell me that they make their decisions about what crops to 
plant based upon the assumption they will continue to have 
access.
    Mr. King. I watched it happen in my district.
    Thank you to the witnesses.
    Thank you, Mr. Chairman. I yield back.
    Mr. Goodlatte. I thank the gentleman.
    The Chair recognizes the gentlewoman from Texas
    Ms. Jackson Lee for 5 minutes.
    Ms. Jackson Lee. I thank the Chair very much.
    Let me particularly thank all of you for your time here 
today. It is a very important process that we are going 
through, and if I have ever felt the spirit of the greatness of 
America and what we are capable of doing, it is today, and it 
is now, because of all of your testimony.
    I want to put into the record quickly that in this year 
2012, relating to border security--and I also serve on the 
Homeland Security Committee--that Border Patrol agents have 
apprehended 356,873 in 2012 under President Obama's 
administration, and the budget has doubled from 6.3 billion to 
11.7 billion. So I think that is an important note to make for 
this record as we look at how we balance security and 
comprehensive immigration reform.
    I absolutely believe, in spite of your different interests, 
that we cannot suffer a piecemeal process. It must be a 
comprehensive process.
    So, Mr. Wadhwa, let me thank you for your intellect and 
genius and let me ask these questions very quickly. Those 
individuals who have come, who are now technological giants, 
many of them were trained in America's institutions of higher 
learning; is that not accurate?
    Mr. Wadhwa. That is correct.
    Ms. Jackson Lee. And so the likes of--these two are 
American citizens--Mark Zuckerberg went through Harvard. I 
think he paused a little bit. Bill Gates went through Harvard, 
but a number of those that you speak, Google, Yahoo, et cetera, 
went through the Nation's institutions of higher learning. 
Could it not also be that the children of those who have 
different skills ultimately go through the Stanfords, Harvards, 
Princetons and ultimately be the same kind of geniuses that 
immigrants have been, or when I say immigrants, those 
youngsters that you speak of? So that if you happen to be the 
child of an unskilled, undocumented person, you could also 
ascend to genius by going to those schools?
    Mr. Wadhwa. I 100 percent agree, and my children are going 
to outdo me.
    Ms. Jackson Lee. Is it also true that many flock to the 
United States because of institutions of higher learning that 
have the excellent professors, such as yourself?
    Mr. Wadhwa. Absolutely.
    Ms. Jackson Lee. And is it also the commitment of American 
to make sure that those individuals that may not necessarily be 
the children of first-generation of immigrants but those who 
look at this hearing and say, what is going to happen to me, 
should we look to the promise of America for everyone, African 
Americans, Asians, Hispanics, Anglos, should that be the 
promise of America?
    Mr. Wadhwa. I agree with that as well.
    Ms. Jackson Lee. And would you commit then, when you 
educate technological phase--our geniuses, that they should 
look to making sure everyone has an opportunity?
    Mr. Wadhwa. There is no disagreement on any of these 
points.
    Ms. Jackson Lee. So when we talk about comprehensive 
immigration reform, is it an important message that no one be 
left out?
    Mr. Wadhwa. I agree, but the issue of timing. Right now the 
skilled immigrant issue is critical because, we are bleeding. 
We need the talent. We need innovation to cure the economy. And 
this is why I emphasized this over everything else.
    Ms. Jackson Lee. And we thank you for that. Let me make you 
a commitment. I am right there with you. We put the skilled 
immigrants right there with the comprehensive immigration 
reform, and we will roll forward together. You are absolutely 
right. You have my commitment.
    Mayor Castro, if I might ask you a question about two 
issues. Working with immigrant issues, let me first of all say 
how endearing the DREAM Act youngsters are. I spent a lot of 
time with them in my office, literally saw a mother fall on the 
ground, screaming, in my office when we were able to say that 
we might have a deferred circumstance; tragically saw a person 
who had a serious neurological issue be expelled from one of 
our public hospitals while her husband paid taxes, sales taxes, 
other taxes of which that hospital facility was built on, and 
her child was a documented individual.
    Can you speak to the horror of us not doing comprehensive 
immigration reform, the pains of those kind of stories? If we 
put a face on those kind of stories, and can you relate it to 
the diversity of your city that includes African American and 
others who have come together and worked together and have 
shown productivity when we work together?
    Mr. Castro. Yeah, well, I am very proud of San Antonio over 
the years. You have people from many backgrounds. Many 
immigrants have come up and built up one of the Nation's 
leading cities today.
    But you are right. I hear the stories. I met with the 
dreamers of folks oftentimes who are doing great in high 
school. They find out that they are not here documented. They 
call the United States home. America is the only country that 
they have ever called home. They are as patriotic as anybody 
else. They worry every day about their parents. They worry 
about themselves and whether they are going to be trapped with 
very little future, despite the fact that they have great 
talent and a lot to offer the country.
    It rips families apart at the seams to be in this kind of 
limbo, and it injures communities because we are not fully able 
to take advantage of the brain power of those young people. I 
believe that brain power is the currency of success in this 
21st century economy. I also agree with you that that brain 
power comes from many different quarters. And my grandmother 
came to San Antonio through Eagle Pass, Texas, in 1922 as a 6-
year-old orphan. She wasn't a high-skilled worker. But two 
generations later, you know, her grandson is the mayor of the 
city and the other grandson is the Congressman from San 
Antonio. These are the stories that we have to pay heed to when 
we think about the need to do this comprehensively.
    Mr. Goodlatte. The time of the gentlewoman has expired.
    The gentleman from Texas, Mr. Gohmert, is recognized for 5 
minutes.
    Mr. Gohmert. Thank you, Mr. Chairman, and thank you to the 
witnesses for being here today.
    Yeah, I am down here on the Chairman's far right, imagine 
that.
    Mayor, you are right. We do have to put faces on things and 
like when I saw the President with children gathered around him 
as he is often doing now, I think about the financial burden we 
are putting on our children. First generation in American 
history that is actually making things worse for future 
generations. Instead of sacrificing ourselves, we are spending 
money like crazy.
    And part of it is health care. We have just had Obamacare a 
couple of years ago passed, and now seniors are seeing the 
massive cuts that are affecting their ability to get health 
care.
    One of the problems it seems with our economy, the 
overspending with the burden on health care, is that even 
though people in business, the Chamber wants to look the other 
way sometimes on people coming in illegally if they are working 
providing cheap labor, is that the rest of Americans are paying 
the health care of those who come in, if they are coming in 
illegally. And so the health care, it is free to those 
individuals, but somebody is paying it.
    I just wondered about, you know, as we hear farmers--and 
apparently, it is essential that they have immigrant workers 
come in, harvest crops. We have heard that over and over. Would 
any of you have any problem with saying, okay, you want to 
bring in temporary workers to harvest your crop, then you need 
an umbrella health insurance policy that covers the people that 
you are bringing in to work temporarily?
    I am looking for grounds for compromise, where we could 
work something out so we accommodate those who need temporary 
workers and yet not continue to bust the system. Would anybody 
be offended by a requirement that an employer to bring in 
temporary workers provide an umbrella health insurance policy? 
Anybody?
    Mr. Castro. Well, I would just say, Representative Gohmert, 
that, you know, I had not given that thought, but I do believe 
that we need to address the 11 million folks who are already 
here. And with regard to future workforce needs----
    Mr. Gohmert. Well, and I understand that, Mayor, but that 
is not the direction of my question. And since my time is 
limited, I do need to move on. But you have all agreed that our 
policy should be what is in the best interested of the United 
States. We have heard before there may be--I am sorry, 1.5 
billion that want to come to the United States. Obviously, that 
would overwhelm our system, and then nobody would want to come 
here because we would be bankrupt.
    But we often talk about all of those who cross our borders 
illegally. But as the Chairman has pointed out before, 40 
percent of the people who are unlawfully in the country right 
now came in lawfully and have overstayed their visa, their 
means of coming in legally.
    Does anybody on the panel believe we should advertise to 
the world, if you come in temporarily on a visa, you don't have 
to leave? I mean, it may sound like a silly question, but that 
is a concern of mine that we may be advertising. When Steve 
King and I had gone over to talk with folks about--and they 
don't like the term ``illegal immigration'' in England. They 
told it is ``irregular migration.'' It sounds like something 
else. But anyway, whether it is irregular migration or illegal 
immigration, they said they have a law that provides if you 
come into England, you have to swear that you will not accept 
any government benefits for a period of 5 years. As they said, 
since it is all about the best interest of our country, we need 
to make sure people coming in contribute before they take out.
    Would anybody have a problem if we had such a prohibition? 
We welcome you in, whatever comprehensive agreement gets worked 
out to have an agreement, you don't get benefits until you are 
here at least 5 years contributing to the system. Anybody have 
a problem with that?
    Mr. Wadhwa. We have to provide medical benefits regardless 
of who we bring in. That is a must for every human being.
    Mr. Gohmert. Okay, so whoever we bring in, we are going to 
give free healthcare.
    Mr. Wadhwa. They have to pay for health care. They pay 
insurance.
    Mr. Gohmert. So if somebody coming in pays for it, they 
aren't getting free health care.
    Mr. Wadhwa. It can't be free. It should be paid for.
    Mr. Gohmert. All right. Thank you.
    Mr. Castro. I would also just say, Mr. Representative, as 
you know, legal, permanent residents right now, as I 
understand, don't qualify for traditional welfare or health 
care. So I believe that a lot of that has been resolved by the 
law that is in place.
    Mr. Gohmert. You are probably aware that we do have 
government agencies that actually go out and recruit people for 
government benefits, whether they are here legally or 
illegally, which is something else we need to look at.
    But I really appreciate your time. I see my time is 
expired. Thank you.
    Mr. Goodlatte. Thank the gentleman.
    The gentlewoman from California, Ms. Chu, is recognized for 
5 minutes.
    Ms. Chu. First, let me just reiterate that point. There is 
a 5-year ban on benefits for legal, permanent residents, so 
they cannot just come in and get the health benefits. So that 
is totally a myth that is out there.
    But I would like to ask some questions pertaining to 
families and comprehensive immigration reform.
    Mayor Castro, one of the immigration priorities for the 
Congressional Asian Pacific American Caucus and the 
Congressional Hispanic Caucus is that comprehensive immigration 
reform protects the unity and sanctity of families by ensuring 
that families are reunited. Under the current immigration 
system, there is a significant backlog. Adult children of U.S. 
citizens who live in the Philippines have been waiting for 20 
years to be reunited with their parents, and adult children 
living in Mexico have been waiting 19 years to be reunited with 
families.
    Americans really, I believe, shouldn't have to choose 
between their country and building a life with their children.
    So, Mayor Castro, as the grandson of an immigrant and a 
public servant, how problematic is it that families are being 
split apart and why are families good for our economy and our 
Nation?
    Mr. Castro. Yeah, well, thank you for the question.
    This is always--this has long been the policy of the United 
States for good reason. Families make each individual stronger. 
That is the basis, I think, of much of the strength of our 
communities, the economic progress, the moral progress that we 
have made. You know, we hear stories every now and then of 
folks who have a dying relative in another country and someone 
they have been waiting to try and bring over for years or 
someone who is here undocumented, who is deathly afraid of 
going across the border to go visit a dying mother or a dying 
father, just can't do it because they know what the risk is.
    We are stronger because we have had this family-based 
system, and part of what we have to do for folks who are 
citizens, who are here legally as well, is to clear that 
backlog. We need to invest to clear that backlog and make sure 
that we can strengthen this.
    Ms. Chu. Thank you for that and I want to ask also about 
the families of H-1B workers.
    Mr. Vivek Wadhwa, you talked about the need for our highly-
skilled workers. And I totally agree. Even with unemployment at 
historically high levels, a large number of jobs are going 
unfulfilled because of a lack of qualified workers in science, 
technology, engineering, and math, and that is why I do support 
the creation of the STEM visas and improvements to the current 
employment-based green card system.
    But in your testimony, you talked about how the family 
members of H-1B workers or skilled workers live as second-class 
citizens, that they spouses are not allowed to work, and 
depending on the State in which they live, they might not be 
able to get driver's licenses, or open a bank account. And 
because of this, these workers are getting frustrated and 
returning home.
    So how does the fairness for the families and loved ones of 
highly-skilled workers impact our ability to bring engineers 
and scientists to the U.S.? Does it serve as a deterrent not to 
have something in place?
    Mr. Wadhwa. Yeah, you know, I hate to say this, but the 
women in Saudi Arabia have more rights than the spouses of the 
wives of H-1B workers. It is inhuman the way we treat them. 
They are highly skilled in many cases. In some States, they 
can't get driver's licenses, which means that they are confined 
to the home. What sort of a country is this which brings people 
in, highly-skilled immigrants, but doesn't give them equal 
rights? This is wrong. It has to be fixed. And what happens is 
that after being here 2 or 3 years, they get increasingly 
frustrated. This is one of the reasons why people leave here, 
and they have such marital problems because their wives are 
equally productive people, and they are not allowed to work 
because of the current laws. It must be fixed.
    Ms. Chu. Thank you for that.
    Mr. Arora, you had a very compelling story about coming 
here as one of the best and the brightest students, and then 
you became a leader in the biotech field, working for Amgen, 
and now for Genentech. But yet, it took you 15 years to get 
your permanent status, and yet, you had a wife and now you have 
two beautiful young children. You talk about certain solutions 
and that could continue family-based immigration and make sure 
that immigrant families are able to work together and, through 
their combined forces, pay taxes, buy homes and start job-
creating businesses.
    I was interested in one of your solutions, which is that 
spouses and children of employment-based immigrant visa 
recipients, that they are exempted from the employment-based 
caps. Could you talk more about that?
    Mr. Arora. Thank you. When you become a citizen, which of 
course, in my case, for example, after 15 years, I am now--my 
character is being checked for the next 5 years to see if I can 
be a citizen--during this period, and I know people who have 
been through this, if you get married, for example, and I had a 
colleague like this, you can't bring your spouse into the 
country for a period of 5 years because that is the backlog for 
immediate family. And my family is here with me, so I want to 
say that I understand the importance of your family being with 
you. It is really important.
    Now, during these very long waits, if you are on an H-1, as 
Mr. Wadhwa has just stated, there are certain States that will 
restrict the ability of your spouse to do so much that it 
becomes difficult as a family unit to continue your work or to 
continue to stay in a meaningful manner. I count myself as very 
fortunate. In 2007, for that 1 month when the State Department 
decided to allow everyone to file adjustment of status, I was 
able to get employment authorization, which means that my wife 
could get the same. But anyone on an H-1B status does not have 
that privilege. Not only that----
    Mr. Goodlatte. Dr. Arora, you are going to have to 
summarize. Her time has expired long ago.
    Mr. Arora. I agree with you completely. It is a big 
problem, and I want to echo what Vivek said, but it needs to be 
fixed.
    Mr. Goodlatte. I thank the gentleman.
    The time of the gentlewoman has expired. The Chair would 
ask the gentleman from Texas, when I recognize you, if you 
would yield 30 seconds to me. So I might--I recognize the 
gentleman from Texas. And if you would yield to me.
    Mr. Poe. Certainly, I will yield 30 seconds.
    Mr. Goodlatte. I appreciate that. I just want to clarify 
for the record a statement made earlier. Some disagreement 
here.
    We found in writing the STEM visa bill last year that when 
we extended an additional provision that allowed people who are 
on waiting lists for visas to come to the United States, we had 
to provide additional pay-fors, because we looked at Obamacare, 
the Patient Protection and Affordable Care Act, and found that 
it provides benefits to anyone who is lawfully present in the 
United States.
    So, even without permanent resident status, this is going 
to be a major issue we will have to deal with as we look at 
immigration reform because individuals on that will qualify for 
benefits, which could be, as you know, for as many as 10 
million people, very, very expensive.
    And I thank the gentleman and yield back to the gentleman 
from Texas.
    Mr. Poe. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here.
    The issue of immigration to me covers many questions, not 
just one or two. There are multifaceted questions to be 
answered across the board. And I want to focus on a couple of 
those in the next few minutes. We have the issue of skilled 
workers coming to the United States. We train them. They go 
home. They compete against the United States. Now, that is one 
of the issues that we have.
    Specifically, because of my location in the Houston area, 
Mayor, which you are familiar with, we also had the fact that 
the system to me is broken. It allows for abuse, and I am not 
talking about people who are coming here to better themselves. 
I am talking about the criminals who come in the United States, 
mainly the drug cartels and their operation, and how they are 
now become so sophisticated that they can cross the border into 
Texas; that they have engaged now in human trafficking, and 
unfortunately, Houston has become one of the hubs in the United 
States for the disbursement of traffickated people. We had the 
issue of 20 percent of the people in Federal penitentiaries 
when they committed the crime, they were unlawfully in the 
United States. Border security covers those particular issues.
    And we have the other issues as well. But I would like to 
concentrate specifically on trying to secure the border. I am 
one of those that doesn't believe the border is secure, 
otherwise we wouldn't have all of those organized crime 
problems that have now been created in the United States.
    At the border in Texas, as you know, there is the ability 
for a person--different subject--to come in and cross the 
border daily to go to school, to work; the 25-mile border visa 
system. And they use some type of card, similar to this, where 
they are allowed to cross into the United States daily.
    Do you think, Mayor, because of your location in San 
Antonio, that if we had a better legal entry visa, whether it 
is a card with the biometrics, fingerprint, photograph, the 
different electronic things that we can put when a person comes 
into the United States, slides and glides, so to speak, we know 
who that person is. They have permission to go to Oregon for 6 
months, if that would help the overall issue of specifically 
knowing who comes in lawfully or not? What do you think about 
that?
    Mr. Castro. Well, I certainly think there is room for that 
as a piece of it, sure. I think that the use of technology, the 
systems that we have been developing have been improving. I 
also would say, as you know, that in Texas included, the 
dedication of boots on the ground of manpower at the border has 
been accelerated over the last few years under President Bush, 
and President Obama like never before. And we have doubled the 
number of enforcement agents down there since 2004, 
apprehensions are at a 40-year low.
    So I would agree that as part of a comprehensive approach, 
that the kinds of things that you are talking about should be a 
part of the discussion, perhaps part of the legislation, but 
that doesn't get to the issue of the folks who are here 
already.
    Mr. Poe. Reclaiming my time. I understand that is one of 
the questions that has to be addressed. But it is not the only 
question that has to be addressed because there are many, many 
issues, even legal immigration. My office, because of where we 
are, our caseworkers spend more time on helping people get here 
the right way than anything else they do except maybe working 
with the military. And as has been pointed out by my friends on 
the other side, that is a big problem where people have to wait 
for years to just come in the right way. That has to be fixed 
as well.
    One comment I would make on the apprehensions. I know that 
apprehensions may be down. That doesn't mean that the border is 
more secure. It just means that apprehensions are down; less 
people are being apprehended. You can look at that in a couple 
of different ways. And in Texas, the Governor of the State, as 
you know, is doing more than ever before in the State to help 
border security as well.
    So anybody else want to weigh in on improving the legal 
visa system so that it is more secure because that is a 
concern; as pointed out, many people come into the United 
States the right way; they never go home. I mean, why would 
they? They are in Texas. Why would they leave, you know? And 
they are in San Antonio, or Houston.
    Mr. Castro. I certainly agree with you there.
    Mr. Poe. Anybody else want to weigh in on that? I am out of 
time.
    Mr. Wadhwa. We may well need a biometric ID system in the 
United States.
    Mr. Poe. I can't hear you.
    Mr. Wadhwa. I said, we may well need a biometric ID system 
in the United States. India is IDing its entire population of 1 
billion people, retina scans and fingerprints. We may need 
something like that in the United States. I mean, we have 
enough--right now, there is no such thing as privacy anymore 
anyway. We might as well face it and say, okay, if you are 
going to work here, you have to work legally. The Canadians do 
that. I asked a Canadian minister, how is it that they manage 
the immigration? He says, because even if the illegal 
immigrants come here, they can't work. Therefore, there is 
pressure on people to legalize and do those things by the book. 
We might have to bite the bullet over here.
    Mr. Poe. Thank you, Mr. Chairman, I yield back my time.
    Mr. Goodlatte. The Chair thanks the gentleman, and turns 
now to the gentlewoman from--you tell me--from California.
    The gentlewoman from California, with my apologies, is 
recognized for 5 minutes.
    Ms. Bass. Thank you, Mr. Chair.
    I wanted to ask a couple of questions, and this of Mayor 
Castro, and you may or may not know the answer, but maybe, you 
know, you can tell me. When we talk about a pathway to 
citizenship, and we talk about people who are undocumented 
being here and having to go at the end of the line and what 
they would have to do, pay their taxes, pay fines, whatever, 
sometimes I think when that conversation comes up, it is as 
though that would only take a couple of months. And I think--
well, first of all, I do support a pathway to citizenship. I 
don't want to be shy about that. But I wanted to know if you 
had some thought as to how long that would take? If somebody 
goes to the back of the line, it is, you know.
    Mr. Castro. Thank you for the question. First, I would just 
say that earlier the question was asked about, well, what is 
the compromise? The compromise is the fact that this is earned 
citizenship, that one would be fined. One would have to learn 
English, pay back taxes, go to the back of the line, and that 
line is a long line.
    Ms. Bass. Right.
    Mr. Castro. The fact is, as Dr. Arora said, that for folks 
who were legally applying, that that takes too long right now. 
It takes sometimes over a decade or longer, and so for anyone 
who thinks that this would be some sort of automatic 
application that somebody would be in in a couple of months, 
that is not the case at all. This is a years-long process, and 
it is also earned. That is an important point to be made.
    Ms. Bass. Thank you. I appreciate that. You know, another 
area that I am concerned about, and I would like to know how 
this might be impacting your city, a lot of research, an issue 
that I work on is foster care. And because of the deportations 
that have taken place over the last few years, there are 
anywhere from 5,000 to 6,000 children who have been placed in 
foster care because their parents have been deported. The 
children were citizens. And I wanted to know if that is 
affecting your city, and what your thoughts might be on how we 
would include a resolution for that situation as we do 
comprehensive immigration reform.
    Mr. Castro. Sure. In any community the size of San Antonio, 
you do have examples of families that have been torn apart, and 
certainly, I hope that in this legislation, we can find a way 
in addressing immigration reform comprehensively to deal with 
those types of situations.
    I remember that George Bush, when he was Governor of Texas, 
used to say that family values don't end at the Rio Grande, and 
that is certainly true, still; that keeping the family together 
has been so much a part of the progress of America, and so my 
hope is that can be addressed.
    Ms. Bass. Absolutely, and I think when we talk about family 
values, we really have to consider this, and so one of the 
issues that I would be concerned about is those people that 
have been deported. How do we reunite them with their children? 
We did a listening tour in Miami, and I went to a residential 
facility for foster youth, and there were a group of children 
that were arriving that day, in Miami, from California, who 
were being sent to live in Miami. So not only are they 
completely disconnected from their parents but any environment 
that they might have known. And what is to happen to those 
kids? So when we are thinking about resources of our country, 
our government could wind up supporting those children all of 
their lives because we have disconnected them from their 
families. So I think it is an important issue that we factor in 
when we do comprehensive immigration reform.
    Thank you, I appreciate that.
    Mr. Teitelbaum, I wanted to ask you a question because you 
made reference to--one of the previous Members had asked you 
about the agricultural industry, and coming from California, 
clearly, that is a major industry. And you said something about 
how if unskilled workers were not allowed in the country or 
were removed, that maybe growers would make different decisions 
about what they would grow?
    And I was wondering if you could give a couple of examples, 
because I can't think of--I can't think of crops that would not 
require farm workers, and how would a State like California, 
that feeds a good percentage of the country, then make 
decisions about certain crops?
    Mr. Teitelbaum. I can give you a very memorable example 
visiting a farm or ranch that had a very large number of 
apricot trees that had to be hand picked. And I was talking 
with the farmer and asking him what his situation was on labor. 
He said, well, all of these people are undocumented, and I 
don't pay them very much so I can afford to hand pick these 
apricots. You have to hand pick apricots. They are a very 
fragile fruit.
    So I said, well, what would you do if you didn't have that 
labor force or the price went up substantially? He said, well, 
we are already losing money on our apricots to apricots coming 
into the port of San Francisco from Turkey that are 
undercutting what we can sell them for. I am probably going to 
do this anyway, but if it happened the way you describe, I 
would certainly do it. I would cut down all of these apricot 
trees, and I would plant walnuts, walnut trees. They would grow 
great on this land, and with the walnut tree, you put a tarp 
under the tree, you bring up a mechanical shaker, you shake the 
tree, all of the walnuts fall on the tarp and you have 
harvested the tree in about 10 minutes. You still need some 
labor, but a lot less labor. That is typical, I think.
    Ms. Bass. Okay, so I would just suggest that you would 
devastate the economy of California if California then only 
switched over to crops that did not require the labor of farm 
workers.
    Mr. Teitelbaum. Well, they will require some farm workers 
always, but the question is, how intensive is the labor needed 
for a given crop?
    Ms. Bass. So walnuts, do you have any other examples of 
crops that do not require farm workers?
    Mr. Teitelbaum. There are many crops that are labor 
intensive and many crops that are not. I mean, wheat is not 
labor intensive.
    Ms. Bass. Okay, well, thank you. I yield back the balance 
of my time.
    Mr. Goodlatte. I thank the gentlewoman.
    And the Chair is pleased to recognize the Chairman of the 
Immigration and Border Security Subcommittee, the gentleman 
from South Carolina, Mr. Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Mr. Mayor, I want to make sure I understand you correctly 
and fully. Can you support a path to legal status that does not 
end in citizenship?
    Mr. Castro. No, I support a pathway to citizenship. I 
believe that is----
    Mr. Gowdy. So there is no form of legal status that you 
would support short of full-fledged citizenship?
    Mr. Castro. I just don't believe that is in the Nation's 
best interest.
    Mr. Gowdy. So the answer is no.
    Mr. Castro. I believe that a pathway to full citizenship is 
what the Congress ought to enact, so sure.
    Mr. Gowdy. And I think you earlier referenced that as a 
compromise, and I am curious. A compromise between what? 
Because I don't hear anyone advocating for full-fledged 
citizenship without background checks or full-fledged 
citizenship without back taxes or full-fledged citizenship 
without fines. So it is a compromise between what?
    Mr. Castro. Well, I think you would agree with me, Mr. 
Chairman, that this point that you are at right now that you 
are talking about, these, you know, the fact that they would 
have to pay a fine, that they would go to the back of the line, 
that they would have to learn English, that has been worked up 
as a compromise between Senators from different parties, and 
perhaps House Members.
    Mr. Gowdy. But my question to you is, that represents a 
compromise between what? Because I don't know anyone who is 
advocating against that. So you represent that as being a 
compromise. A compromise strikes me as a balance between two 
competing principles. I don't hear anyone advocating for full-
fledged citizenship with no conditions precedent at all. So how 
is that a compromise?
    Mr. Castro. It is a compromise in my mind because Senators 
from different parties, as Americans want folks to do from 
different parties, came together, and put together a framework. 
I am sure they had their divergent views, so if we went to the 
beginning of the process, then I am sure there was more 
divergence in their views. What was put on the table, including 
the planks that you just stated, represents a compromise 
position.
    Mr. Gowdy. What about those who are currently here who do 
not desire citizenship? Would it be forced upon them or could 
they opt out?
    Mr. Castro. Well, I believe that throughout our history, it 
you know, has been left up to the individual.
    Mr. Gowdy. So you don't have----
    Mr. Castro. Nobody is talking about forcing folks to become 
citizens.
    Mr. Gowdy. So you do not. Because the polls I have seen, 
there is a large percentage that just want to work legally. 
They don't desire to be full-fledged citizens. So you would not 
force that upon them.
    Mr. Castro. What I hear are an enormous number of people 
who want to be full American citizens. They are patriotic 
people. They want to serve in the military. They want to be 
productive for the country. They want to be full-fledged 
citizens, and I believe that that is in the best interest of 
the Nation. I don't believe that we should--I guess the 
alternative would be that we----
    Mr. Gowdy. And there is not a legal status short of 
citizenship that you could accept under any compromise. Because 
the compromise you made reference to is a Senate compromise. 
There is no compromise short of full-fledged citizenship that 
you could endorse.
    Mr. Castro. Well, of course, at the end of the day, this is 
in your hands, but----
    Mr. Gowdy. But I am asking you.
    Mr. Castro. I know, and I believe that the compromise that 
has been worked out by the Senators, and maybe worked on by the 
House Members, that represents a great compromise and that 
Americans can support that.
    Mr. Gowdy. What are some of the elements of the background 
check that you would be most interested in? Because the word 
background check means different things to different people. I 
assume it is more than just an NCIC check to see whether or not 
someone suffered a felony conviction. What do you mean by 
background check?
    Mr. Castro. Well, and I readily acknowledge, you know, I am 
not a technical expert, not in law enforcement, and so I 
understand you all are going to have a panel that is going to 
deal with enforcement.
    Mr. Gowdy. But you are an attorney. You are an attorney, 
very well-trained attorney, so----
    Mr. Castro. Not very good at law school, though.
    Mr. Gowdy. Better than most of the Members of Judiciary, I 
suspect your grades were. So what would you include in that 
background check? Because Mr. Forbes asked you, I thought it 
was a very good question. If you set the bar at felony 
convictions, that is a pretty high standard. For those who are 
under investigation by the bureau, or someone else, and you 
could maybe meet the level of probable cause, but not beyond a 
reasonable doubt, would you be willing to exclude them from 
this path?
    Mr. Castro. Well, I think that what has been discussed does 
go beyond just folks who have been convicted of a felony. I 
understand that there may be some instances, but that is going 
to be case specific. I think that kind of thing needs to be 
adjudicated. You know, it is, you know, somewhere between 
assuming that somebody has committed a crime and recognizing 
that there are circumstances where someone does present a 
danger to the United States and should not be in the country. I 
do think that there is leeway there. I would grant you that. 
And these are the kinds of things that--I don't disagree with 
the general point that, you know, this is not easy. This is 
detailed. It is important work, but I believe, at the end of 
the day, that the compromise, the general principles of the 
compromise that have been worked out in the Senate are the ones 
that are the best option for the United States.
    Mr. Gowdy. My very last question to you because I am out of 
time is this: This is not our country's first foray into 
amnesty. And you talked about citizenship and all of the 
benefits that that confers on folks. One of the benefits it 
confers is that you have the protection of the law. So how 
would you explain to folks, in my district or Congressman 
Labrador's, who really do place a high value on respect for the 
rule of law, why we are doing this again if it hasn't worked in 
the past?
    Mr. Castro. Well, I think you and I would agree that, as 
many folks have said, we are a Nation of laws. We draw our 
strength from the fact that we are a Nation of laws. At the 
same time, we are also a Nation of immigrants, and we have 
progressed as a Nation because we are pragmatic, and we 
understand that these 11 million folks that are here, that this 
has to be addressed. It is in our national security interest. 
It is in our national economic interest. So I do think that we 
can find a way to punish these folks for not coming in here 
legally but, at the same time, address the pragmatic issue that 
is in front of us.
    Mr. Goodlatte. I thank the gentleman.
    The Chair recognizes the gentleman from Louisiana, Mr. 
Richmond, for 5 minutes.
    Mr. Richmond. Thank you, Mr. Chairman.
    Earlier the question was posed to each of you, and you all 
were given the ability to just say yes or no, and I thought it 
was unfair. But the question was, should America do what is in 
America's best interest when talking about immigration. And I 
guess the question that, the part that was left out is, do you 
consider a cost-benefit analysis on each person as the only 
factor in what is in America's best interest?
    So if they are only going to come and be very successful 
business owners and create jobs, is that the only factor we 
should look at when determining what is in America's best 
interest? And we can start with you, Mr. Wadhwa.
    Mr. Wadhwa. There needs to be a balance over here because 
if we just bring people in and there are no jobs for them, we 
are going to create a complete mess. They lose and we lose.
    What I have been arguing for is bringing in a crop of 
highly-skilled immigrants who can help this country become 
competitive, who can create new technologies, who can create 
jobs, make the pie bigger so we can bring the other people in.
    Mr. Richmond. But that shouldn't be the only factor, is my 
question.
    Mr. Wadhwa. That should not be the only thing because they 
are going to bring their families in as well.
    Mr. Richmond. And I will have a follow-up for you, Mr. 
Teitelbaum. Should it be the only factor?
    Mr. Teitelbaum. No, it shouldn't be. Can I say more than 
no?
    Mr. Richmond. If it is quick.
    Mr. Teitelbaum. The family category doesn't have that 
criteria, and it is the dominant category in legal immigration. 
So if you focus in on the skills-based or the employment-based, 
that is a different, that is a small category.
    Mr. Richmond. No, and I agree with that.
    Mr. Arora. No, I agree with what both of them said. The 
balance is important. The balance has always been true in this 
immigration system.
    Mr. Richmond. And Mr. Mayor?
    Mr. Castro. We need a balanced approach.
    Mr. Richmond. And the reason why I posed the question was 
because, and Mr. Wadhwa, you brought it up first, why don't we 
just get the skilled labor part done first? Well, politically, 
and just being very practical about it, if we got the skilled 
labor part done first, do you think we would ever come behind 
it and finish the job?
    I think it has to be a comprehensive approach, or we will 
never get to the hard part. So that was probably my biggest 
concern, especially when I hear the conversation about the 
category for diversity being maybe reduced or eliminated 
completely, when diversity adds something to this country, and 
we should never forget it. And if we go back to the Declaration 
of Independence, you know, one of the facts that was used to 
talk about the king was the fact that he was preventing people 
from coming to the country and being able to migrate here. And 
then if we look at the Statue of Liberty, when it says, give me 
your tired, and your poor. What I don't want people to take 
away from this hearing is that all of a sudden we forgot about 
the tired and the poor and the people who are striving for a 
better life.
    So those are probably my biggest concerns when we look at 
just the precedent we are setting. And we have economic 
problems, and we are getting out of them like we always do. And 
we will always prosper because we are resilient. But the 
question becomes, what about the moral ground that we would see 
if we just say we are going to forget about 11 million people? 
We are only going to focus on skilled workers. We are not going 
to take care of spouses and equal protection under the laws, 
and all those things. Do you worry about that?
    Mr. Wadhwa. I do, and the thing is, right now, the country 
is in a mess. Our economy is in horrible shape. We have a brain 
drain going on for the first time in its history. This has 
never, ever happened before. We have never, America has always 
been a land of immigrants, not emigrants. It is happening right 
now. If we wait 3 years to fix the skill problem, we lose a 
couple of hundred thousand more great people who could be 
healing our economy. And unless and until the economy heals, 
the American public will not be receptive to the unskilled 
workers.
    So it is a mess right now, and all I am talking about is 
let's agree on what we agree on, get that over and done with. 
Let's agree on the skill. Let's agree on the DREAM Act. Let's 
give some kind of a green card to the undocumented workers 
while we decide on the citizenship. That is so toxic right now 
that I am not optimistic we can solve that problem. Maybe we 
will. Maybe I will be wrong, but in the meantime, let's agree 
on what we agree on and make things easier for everyone.
    I am saying give these undocumented workers green cards. My 
father has a green card, for example. He hasn't gotten his 
citizenship. He has lived here for 30 years happily without 
having that problem. You don't have to have citizenship to, you 
know, do what is right for people. Let's solve the problem 
where it can be solved.
    Mr. Richmond. Mr. Teitelbaum?
    Mr. Teitelbaum. Yes, my wife lived here for 25 years on a 
green card until she decided to naturalize. And the only 
difference was she couldn't vote in the school board elections, 
which annoyed her. The Statue of Liberty is on the cover of all 
of the Commission on Immigration Reform reports, and on the 
diversity visas, I think if you look at the composition the 
national origin and other composition of current legal 
immigration to the U.S., it is very diverse. When that 
provision was passed, there was concern it was not diverse 
enough.
    Since then, it has become very diverse. And these are 
adding 55,000 visas that are getting 8 million applications 
each year, randomly allocated by computerized lottery. That is 
a somewhat odd way to set priorities. The commission said we 
should set priorities, and we should deliver on them. And the 
diversity visa program, it felt then, and I think would say 
now, it does not rise to that level of priority compared to the 
other priorities.
    Mr. Goodlatte. The time of the gentleman has expired.
    And the Chair recognizes the gentleman from Idaho Mr. 
Labrador for 5 minutes.
    Mr. Labrador. Thank you, Mr. Chairman.
    I am excited that we are having this hearing. I think it is 
important that we modernize our immigration system. I think we 
all agree that we have a broken immigration system, but we need 
to find a solution to the problems that we have by being fair. 
We need to be fair to the millions of Americans that want to 
follow the rule of law. We need to be fair to the millions of 
people that are waiting in line to come legally to the United 
States. And I do think we do have to be fair to the 11 million 
people or so that are here in the United States illegally.
    So I have a few questions about this, but first, I want to 
go to Mr. Teitelbaum. You spoke about the sibling category in 
your report. Can you explain? I actually agree with your 
conclusion in the report. I think we should get rid of the 
sibling category. Can you just explain a little bit and just 
short, why you think that is important?
    Mr. Teitelbaum. There aren't enough visas allocated for the 
huge volume of applications. You have got a 2.5 million person 
waiting list. And one of the Members has already mentioned what 
the wait times are, which vary from 12 to 20 years, depending 
on the country. So if you are not going to manage by backlog, 
which is what the commission said we should not be doing, that 
is a category that is being managed by unconscionable backlogs.
    Mr. Labrador. And we could actually use those visas and 
allocate them to spouses and----
    Mr. Teitelbaum. To the higher priorities.
    Mr. Labrador [continuing]. To the higher priorities.
    Mr. Teitelbaum. Yes, indeed.
    Mr. Labrador. But something that I disagree with you on the 
report is the guest worker issue. And I am a little bit 
dumbfounded by it, and I know this report came out a few years 
ago.
    Mr. Teitelbaum. Fifteen years ago.
    Mr. Labrador. Yes. You know, in my State, in Idaho, we have 
a large dairy industry, and at least two Idaho dairy farmers 
have experienced I-9 audits in the last couple of years. In 
one, 32 out of the 40 employees didn't qualify to work in the 
United States; and the other one, 47 out of 57 did not qualify.
    They went ahead, fired all of those employees, and they 
went ahead and asked for people to come work at the dairy. They 
couldn't find a single person who applied for that position who 
spoke English. Now, they don't know if the people are legal or 
illegal, because the people they hired have legal documents, 
and they haven't done another I-9 audit. But how can you say we 
don't have a need? I mean, that is a large number of employees 
that needed to be hired, and not a single person who spoke 
English applied for the position.
    Mr. Teitelbaum. I don't know the circumstances in Idaho, 
Congressman. I am sorry, but I would say that it is true that 
in some agricultural areas, employers, typically in rural 
areas, which is where agriculture normally is anyway----
    Mr. Labrador. Typically.
    Mr. Teitelbaum. Well, not always--but have become dependent 
on the assumption they can recruit from this undocumented 
workforce, and nobody----
    Mr. Labrador. But this is different. This is somebody who 
had to fire everybody who was working at their dairy, and they 
couldn't find anybody who could be, you know, who could speak 
English. I don't know what their status was.
    I was an immigration lawyer for 15 years and I found the 
same experience in some of the agricultural areas, in the dairy 
industry, agricultural industries. It is hard to find American 
workers who want to do the job. And then your solution is just 
they should do something else. They should pick almonds instead 
of something else. But the reality is that we should let the 
market decide that, shouldn't we?
    You know, it seems to me that even in the example that you 
gave us, the owner of the farm had already decided that he 
wasn't going to pick the apricots anymore because the market 
was not working. And I think we need to do something about our 
guest workers, so I disagree with you there.
    Mr. Teitelbaum. It is the commission.
    Mr. Labrador. With the commission, I apologize.
    Mayor Castro, I believe--I liked your words that we 
progress because we are pragmatic. But yet, it seems to me that 
your solution is not pragmatic. You say that it has to be a 
pathway to citizenship or nothing else. Also, in my 15 years of 
experience as an immigration lawyer, I talked with thousands 
and thousands of people who are here illegally. And what they 
want is, they want to come out of the shadows. They want to be 
able to be legal. They want to be able to work. They want to be 
able to travel. They want to feel like they are treated with 
dignity. Not many people told me I want to be a citizen. I have 
to be a citizen in order to feel like I am a dignified person.
    So if we can find a solution that is a short of pathway to 
citizenship, short of pathway to citizenship, but better than 
just kicking 12 million people out, why is that not a good 
solution?
    Mr. Castro. Well, I would say that that is not the solution 
that is in the Nation's best interest. I think that is what I 
said, and I think that would be the most pragmatic solution. 
And one of the reasons that I believe that, is that if we don't 
go down that route, then I am convinced that we are more likely 
to find ourselves here again in 10 years, 15 years, 20 years. 
So, you know, if you asked me, would that be better than zero, 
I wouldn't necessarily disagree with that. But is that 
sufficient? Does that actually address the issues that we have 
in front of us? No. It is not a sufficient solution.
    Mr. Labrador. And my time has run out, but the question 
that I have for you and for all advocates of immigration reform 
is whether you want a political solution or a policy solution? 
If we want to political solution, you guys are going to insist 
on pathway to citizenship. You are going to beat Republicans 
over the head on this issue. But if we want a policy solution, 
I think there is goodwill here in the House of Representatives 
for us to come together, actually have a pragmatic solution to 
the current problem that we have, and solve and modernize the 
immigration system for years to come. But thank you very much.
    Mr. Goodlatte. I thank the gentleman.
    The gentleman from Illinois, Mr. Gutierrez, is recognized 
for 5 minutes.
    Mr. Gutierrez. Thank you very much, Mr. Chairman. First, I 
would like to say that while we have been here, every minute, 
someone has been deported. Most of those deported have 
committed really no crime other than working in the United 
States, which is a misdemeanor the last time I checked. They 
are raising their families. They are contributing. There is 
always the question about paying taxes. Well, they pay taxes. 
You can check with the Social Security department. There is 
this large fund that goes unaccounted for. That means they 
really don't know who to attribute that money to because people 
have contributed. I think we need to do comprehensive 
immigration reform so when they pay taxes, it goes into the 
right account. And it helps fund and fuel our economy.
    I want the mayor and the States and the Federal Government 
to garner all of those tax dollars and not for it to be in the 
pocket of some unscrupulous employer that is taxing them, but 
then not sending the money on.
    Plus, given the 1986 legislation, we all know that there 
was an increase in the earning ability of the undocumented once 
they became. I mean, everybody keeps talking about, you know, 
innovation. Let me give you a little innovation. We talk a lot 
about the uncertainty of the market and what we do as a 
Congress. The uncertainty about what we do and what that causes 
for our financial markets.
    I just want everybody to think one moment. What do you 
think about the uncertainty in the life of 11 million 
undocumented workers when you give them certainty? I will tell 
you what I believe they are going to do. They are going to go 
buy that house that they have always been thinking about buying 
but, since they were undocumented, didn't. They are going to 
buy that car. We know that 75 percent of our economic activity 
in the United States is what, somebody going and purchasing 
something. I want you to think. I want you to think about 
people going to insurance agencies and to banks and opening 
accounts and to invest and to save. And most importantly, as I 
and other baby boomers, yes, I am 59 years old, and I am part 
of that group of people that is going to be hopefully soon 
going into the sunset.
    Mr. Issa. How soon? How soon?
    Mr. Gutierrez. And while we have a lot of people, we have 
the largest percentage of people ever before in the history of 
our Nation that are leaving our workforce in the next 15 years. 
We need to replace them, and we need to replace these assets. 
Let me take a moment to say the following: There are 
undocumented people in this room. There are dreamers in this 
room. I am happy that the President used his executive 
authority. Five hundred thousand of them are now safe from 
deportation; 150,000 of them. One of them is in my office. And 
I have got to tell you something. He is not a burden. He got 
legalized. He came to my office. We hired him. He is working. 
He is paying taxes. He has got health care. How did he get 
health care; the way most of us get health care. I don't think 
we should look at immigrants and say, how are they going to get 
health care?
    Well, the same way that Members of Congress get health 
care. We get health care at our place of employment. That is 
the same place they are probably going to get health care, and 
if not. So I want to say to everybody that is here. I want to 
quickly say to those that have come here, and I am sorry, I am 
going to butcher your name, Dr. Wadhwa.
    Mr. Wadhwa. Good enough.
    Mr. Gutierrez. Good enough. And I want to say to Mr. Arora, 
to both of you. We have a bill. It was introduced by the 
gentlelady from California. For 10 years, I insisted that 
nothing happen on STEM or any other particular part of 
comprehensive immigration reform unless we did it all. But last 
year, I think in good faith and to show that we wanted to work 
with everybody, we said 50,000, I will not object, but they 
needed to be clean.
    We didn't want you to get something while someone else lost 
something. We wanted to give it to you. And in our bill, 
50,000, you get to come from the very first day with your wife. 
You get to come from the very first day with your children. 
Because we believe we should welcome you and your talent and at 
the same time, not have to make a distinction between serving 
this country and bringing your talent and sacrificing the love 
and cherishing the fact that your family might not be there 
with you.
    So we think that that is important so I am going to 
continue to work. And I say to my colleagues on the other side 
of the aisle, we can resolve this and many other issues.
    Lastly, I want to say a special thank you to Mayor Castro. 
You just lit up our house. My wife, and my daughters, and my 
grandson, Luisito. You lit us up with your speech at the 
Democratic Convention, with your leadership as mayor, with your 
poise, with the way it is you just make us all so proud, and 
with your story. And I would like to say to you that I am so 
thankful that America gave your grandparents a chance and that 
you are here with us today, because I know that not only San 
Antonio, but Texas, the Nation is better because of your 
service. Thank you so much for your testimony here today.
    And thank you, Mr. Chairman.
    Mr. Goodlatte. I thank the gentleman.
    The gentleman from California, Mr. Issa, is recognized for 
5 minutes.
    The Committee will have order. This is not the way--this is 
not the way to make your point. All of those must leave. Just 
so you are not in doubt about the rules of the Committee.
    I want to make sure everybody knows that the House Rules 
provide that the Chairman of the Committee may punish breaches 
of order and decorum by censure and exclusion from the hearing.
    We just a moment ago did not have order in the hearing 
room. Members of the audience must behave in an orderly fashion 
or else they will be removed from the hearing room. And let me 
just say as an aside, that was not a good accent point to the 
excellent points made by the gentleman from Illinois.
    The way we resolve this is through discussion and careful 
deliberation about the issues, not by disrupting efforts to 
educate the Members of this Committee and the public.
    And we will resume the hearing. And the gentleman from 
California is recognized, without penalty to the loss of any of 
his 5 minutes for that disruption.
    Mr. Issa. Mr. Chairman, can I get an extra minute for this 
one?
    Mr. Goodlatte. Maybe.
    Mr. Issa. Well, first of all, in several ways I want to 
associate myself with my good friend from Illinois.
    Luis, I am 1 month, 9 days older than you, but that doesn't 
mean that there is any real difference in us as Baby Boomers. 
We are going to exit the scene, and I don't want to exit the 
scene without resolving an immigration problem that predated my 
entrance and the gentleman's entrance into Congress.
    That group of disruptions really didn't understand my 
politics. I do believe we can get to a substantial, if not 
complete, immigration reform bill, and I hope, after 12 years 
on this Committee of trying to get there, it is my fervent hope 
that this is that window of opportunity.
    I do have some concerns from earlier.
    Mr. Teitelbaum, I want to associate myself with Ms. 
Lofgren. I heard you say basically that we should grow 
different crops in California as a resolution to needing labor 
that we can't seem to find. Is that pretty well correct?
    Mr. Teitelbaum. No. What I am saying is that farmers and 
employers in general make decisions incrementally over time 
based upon the availability of labor at what price.
    Mr. Issa. Absolutely.
    Mr. Teitelbaum. And so we have allowed, we have allowed a 
system to evolve in which those farmers who have made those 
decisions based on that assumption are dependent on that 
continuing flow of labor. That is the nature of both temporary 
worker programs and undocumented.
    Mr. Issa. I want to challenge that for a moment. As a 
Californian, I was there in 1986 when the law changed. And I 
have seen my farmers, some that I represented in the past, some 
that I still represent, flowers, tomatoes, strawberries, and 
then my wife's home up in Salinas County, Monterey County, 
literally, the lettuce, the majority of all lettuce comes from 
that one county. The majority of all lettuce in America comes 
from that one county. If we simply say that we can't have labor 
to pick that and that we need to make other decisions, it is 
fertile land. You are absolutely right. We will grow something 
else, and we will import our lettuce from another country.
    If the real question is do we have an effective program 
that gives opportunity to people outside the U.S. to come to 
the United States, work for a period of time, and periodically 
return home in a nonimmigrant, in a migrant way, if we have an 
ineffective program and we could have an effective program, and 
I think that is the real question.
    In the 1990's, when you were studying this, you were 
studying it at a time in which the problem had been fixed, and 
it was getting rebroken as we spoke. You had migrant labor who 
had become under the 1986 law permanent, and they were 
beginning to either be in the management ranks of agriculture, 
or they were leaving agriculture, and that is pretty 
understandable. But isn't it true--true in the 1990's, true 
today--that there are tens of millions of people outside the 
U.S. who would stand in line to get good-paying--by their 
standards--migrant jobs here in America and would do so under a 
set of rules that were fair to them and fair to us?
    Mr. Teitelbaum. If they were fair, that is a big ``if,'' of 
course, because temporary worker programs generally have not 
had that character. And then I would suggest----
    Mr. Issa. Well, let me challenge that, because, you know, I 
want a successful resolution, and I believe a successful 
resolution is, one, deal with people already here and in an 
appropriate and comprehensive way; two, obviously empower us to 
bring in the people who add to our economy; and three, deal 
with low-skill jobs that in many cases if people come to this 
country, they do them for a short period of time.
    Is our standard today supposed to be an American wage for 
an American job--and I want to go to Mr. Wadhwa--or should it 
be a wage which is completely fair and greater than the wage 
someone would find in their home country for coming here, and 
sufficient for them to not only earn a living, but also go home 
with more money? And if that is the standard, then isn't that 
an achievable standard where it is a win-win? We can get our 
crops dealt with in a decent way; they can be better off for 
it; and we can have a flow of labor for that one portion that, 
in fact, would not be subject to chain migration.
    Mr. Teitelbaum. The Commission recommendation said that 
that was an attractive goal, but not possible to achieve, 
number one. Number two----
    Mr. Issa. Not possible to achieve. I will go back to my 
premise, and I want to be quick. My premise was that we pay 
more than they would find in their home country, but not 
necessarily what we are paying today with all the rules under 
the AG program of H-2A.
    Mr. Teitelbaum. The other thing, Congressman, you might 
want to look at is the backlogs that have been generated that 
have lots of people who are not particularly skilled waiting. 
They are entitled in some sense to a visa, but they are in the 
backlog.
    Mr. Issa. Okay. Well, I hear that you say it couldn't be 
done then, and it wasn't going to work. But I have worked with 
Mr. Berman on this Committee believing that it could. Is anyone 
that has a different opinion there that would like to comment 
on the ability to take care of that one portion in a way in 
which Ms. Lofgren and I could see crops that, in fact, people 
want to eat be grown?
    Mr. Wadhwa. If you look at Canada, Canada has made their 
guest worker program work very well. For low-skilled labor, 
that is not a bad solution. It is actually a good solution. For 
high-skilled labor, you can't do that because you want the 
high-skilled labor----
    Mr. Issa. We want them here permanently. Absolutely. Thank 
you. Anyone else?
    Thank you, Mr. Chairman. I appreciate your indulgence.
    Mr. Goodlatte. I thank the gentleman.
    The gentlewoman from Washington Ms. DelBene is recognized 
for 5 minutes.
    Ms. DelBene. Thank you, Mr. Chair.
    I come from a district that has lots of technology in the 
southern part of the district, home of Microsoft and many other 
technology companies, a lot of biomedical device companies, and 
also a very rich agricultural industry of dairies and berries 
and specialty crops. So immigration is very, very important 
from many different aspects.
    I wanted to start with you, Mr. Wadhwa. And we talked a lot 
about H-1B, but you also talk about a startup visa program, and 
I wondered if you could elaborate what you think needs to be in 
such a program and how that would work in conjunction with the 
H-1B program.
    Mr. Wadhwa. A startup visa would do wonders for Seattle. It 
would do wonders for New York and even more for Silicon Valley. 
There are literally tens of thousands of companies that would 
be started almost overnight if we gave these entrepreneurs or 
would-be entrepreneurs the ability to do that. Right now they 
can start companies. If you are on an H-1B visa, you can start 
a company, but you can't work for it. It is brain dead. Right? 
So we would suddenly have a boom in entrepreneurship like we 
haven't conceived before.
    There is no reason not to do it. It should be done 
independently of everything else we are doing. Just get that 
done so we can fix the immediate problem.
    Then there is the issue of H-1Bs. The big companies are 
lobbying very hard for it. They need it. I mean, there are 
debates about whether they take jobs away. In some parts of 
America, you don't need H-1Bs; in parts where the skilled 
immigrants are, you do need H-1Bs. The Brookings Institution 
did a great study on that, so we need those also.
    But the more urgent thing there is to give green cards to 
the million already here on H-1B visas who are stuck in limbo. 
Let them start their companies. Let them buy houses. Let them 
enjoy the rights that Americans enjoy.
    Ms. DelBene. We talk a lot about starting up companies, but 
also a lot of research and a lot of startups and entrepreneurs 
come from great basic research that is happening at our 
universities. And so how do you think the relationship of our 
immigration program has an impact on the education we are able 
to deliver both in the medical area as well as in the 
technology area?
    Mr. Wadhwa. I think we are completely in sync on that. We 
need these researchers coming in and doing great research at 
our universities, and then we need people leaving universities 
and starting companies. That is the one thing we need to fix in 
the United States system is to commercialize more research 
because that would, again, lead to a big boom in startups.
    Right now the system doesn't work because the researchers 
can't get permanent resident visas. It is the same problem that 
everyone has, that we have basically slowed down American 
innovations for no reason whatsoever.
    Ms. DelBene. Dr. Arora, we are talking about health care. 
And obviously we talk a lot about kind of technology, and we 
forget that there are many needs not just in research and 
health care, but across the healthcare system. I wondered if 
you wanted to elaborate on that a little bit.
    Dr. Arora. Yes. It is clear from a number of workforce 
reports that with the baby boomer generation retiring and with 
a new healthcare environment, there is a serious shortage of 
healthcare workers at various levels, physicians, and certainly 
there is a mal-distribution--aside from everything else, there 
are a number of areas that are simply not medically served 
appropriately. There are certain specialties that are 
underserved. There are issues for getting nurses to the right 
hospitals. So there are a number of issues.
    It is also hard when you come in from a pathway like mine--
I was on a J-1 exchange visitor visa--to go into a research 
field, if that is your desire. And it took me several years to 
make my way out to that because of the kinds of restrictions 
that I have faced. So we have always advocated that when you go 
through the immigration pathways, especially the skilled 
immigration pathways, there should be a great deal of 
portability and market-based characteristics to this so that 
people gravitate--people with skills gravitate toward where the 
demands are, and where their skills are appropriately needed, 
and where they can contribute best. And health care is no 
exception to that.
    I have had the privilege of working with Senator Conrad's 
office in the past on his Conrad 30 program, of which I am a 
graduate, I should say, and they are looking for permanent 
authorizations. They are looking for physicians who go to 
underserved areas and provide service not to have to stand in 
these backlogs at the end of service. And those are all great 
ideas, and they should be a part of----
    Ms. DelBene. Thank you.
    And then we talk about agriculture. We have been talking a 
lot about seasonal workers. But I know in the example that my 
colleague from Idaho brought up earlier in the dairy world--and 
we have many dairy farmers in my district. These aren't 
seasonal workers, these are year-round workers--that folks are 
struggling to make sure they have a strong workforce.
    So do you feel differently about the ability to address 
those issues, Mr. Teitelbaum, versus the seasonal workers? I 
mean, there is an economic driver to this, too.
    Mr. Teitelbaum. If they are year-round, then they are not 
really temporary workers. Seasonal is more temporary. So I 
think, again, it is----
    Ms. DelBene. But there is still a gap. There is still an 
employment gap.
    Mr. Teitelbaum. Yes. And you have got to consider whether 
the jobs are attractive enough for the underemployed U.S. 
workforce, who could be attracted if they were attractive. But 
I don't know what the conditions are in the farms and dairies 
that you are describing, so I can't comment on that.
    Ms. DelBene. But you think it is merely a financial issue 
in terms of how much folks are paid versus the types of jobs 
and the skill involved in those jobs? As Mayor Castro said, 
these aren't necessarily low-skilled, they are different-
skilled.
    Mr. Teitelbaum. Congresswoman, I did pick strawberries in 
the summer in Oregon not so far from your district.
    Ms. DelBene. I think we went to the same school, actually.
    Mr. Teitelbaum. Did we? I didn't know that.
    It was an interesting, difficult, well-paid job for a 
college student in the summer. I don't think there are any jobs 
like that anymore. It is a different workforce that does the 
strawberry picking in Oregon now. So I think you can see that 
there has been a kind of shift in the origin of the workforce.
    Did we really go to the same college?
    Ms. DelBene. We did, in Portland.
    But I think I have used all my time. Thank you.
    Mr. Teitelbaum. Thank you.
    Mr. Goodlatte. I thank the gentlewoman.
    And the gentleman from Texas Mr. Farenthold is recognized 
for 5 minutes.
    Mr. Farenthold. Thank you very much, Mr. Chairman.
    And it is good to have Mayor Castro here from San Antonio. 
San Antonio is a lot like my hometown, Corpus Christi. They 
just don't have the bay or the beach. But you do have a pretty 
good basketball team.
    And I wanted to visit with you a little bit because I 
really do sympathize. We have got a big problem here, and I 
think we all agree that our immigration system is broken. We 
have done a lot of casework at our office, especially when we 
still had Brownsville as part of the district that I represent, 
and my heart is just broken by some of the family issues that I 
see.
    And also my heart is broken by the fact that many people 
who are in this country without proper documentation are 
basically an underclass that aren't afforded the full 
protection of the law. If you are here illegally, and you see a 
crime on the street, you are afraid to call the police for fear 
of you getting involved in it. And you are open to exploitation 
by unscrupulous employers. And it is a real problem, and I 
think it needs to be addressed.
    I have spoken with a lot of my Republican colleagues, some 
of my Democrat colleagues, and a lot of folks back home about 
the issue, and it seems like the stumbling block for almost 
everybody is the pathway to citizenship that you have been 
talking about for such a long time. We look at the promises of 
the 1986 immigration reform when it granted citizenship to so 
many people, that we were going to seal the border and make 
sure this--this was a one-time deal is the way. And we see that 
that has failed.
    My question to you is how do we not end up in the same 
situation 10, 20 years down the road if we do this again? My 
fear is that what we are saying by a pathway to citizenship is 
that, all right, you come over here illegally. Let us say we 
seal the borders 100 percent. Nobody can cross the border 
illegally. You are still going to have people overstaying their 
tourist visas. You will still have people overstaying their 
student visas. And the natural belief is, all right, they have 
done it twice. I will just wait them out, and they will do it 
again. And we create this underclass of people who can't have a 
real job that are selling bootleg DVDs in the flea markets or 
are working whatever underground economy. How do we craft this 
so we don't fall into this same trap?
    Mr. Castro. Thank you very much for the question, 
Representative Farenthold. It is good to see a fellow Texan 
here, south Texas.
    First, I believe that as a Nation we are stronger because 
we ask folks to take an oath, take an allegiance to the United 
States of America.
    Mr. Farenthold. No question about it.
    Mr. Castro. And that involves full participation in the 
democracy and citizenship. I just cannot imagine an America 
where we consign these folks to an underclass status. In other 
words, we would be telling them, you will never, ever, ever 
become a citizen of the United States.
    Mr. Farenthold. So what do we put in the law to not invite 
people to where we are back doing the same thing again? That is 
my concern.
    Mr. Castro. Sure. First of all, I do think that the only 
way you are going to accomplish that is with a comprehensive 
approach. The one thing I know is that if you try and piecemeal 
it, the chances are that you will find yourself here 10, 15, 20 
years from now.
    But more specifically, I believe that this legislation 
should include enhanced border security, enhanced interior 
security, the ability to----
    Mr. Farenthold. Would you support the proposal for a 
national biometric ID?
    Mr. Castro. Sure, I would support using some technology to 
help ensure that people are here who say they are going to--who 
are here are here legally.
    Mr. Farenthold. I am not sure I am there on that. But go 
ahead.
    Mr. Castro. You know, whether it is that or something like 
it, there are people more qualified to speak than me on that. 
But I would say that including an ability for employers to 
verify the legal status that is better, that is more 
comprehensive----
    Mr. Farenthold. Again, we tried to do that and failed. And 
you are still going to have the underground employers if you 
have got people who are overstaying their student visas. And 
you have answered different variations of this question time 
and time again. How do, by granting a very generous pathway to 
citizenship--and maybe we tighten it up; maybe we find the 
compromise there--but how do we avoid creating an incentive for 
people to continue to come here? That is what my constituents 
and most of the people that I am talking about, that is the big 
stumbling point here.
    Mr. Castro. I think what you do is that you solve the issue 
that you have in front of you, that you improve the ability to 
keep folks out who shouldn't be here, and to--you know, to 
ensure that people don't overstay their visas. There are ways 
to work on that.
    Mr. Farenthold. I see I am out of time. I just don't see 
how do you that without chipping everybody who comes over here 
to see the Statue of Liberty to track them. I am really 
concerned about this.
    Mr. Castro. Throwing our hands up is not an option.
    Mr. Farenthold. All right. Thank you very much. I yield 
back.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Florida Mr. Garcia for 5 minutes.
    Mr. Garcia. Thank you, Mr. Chairman.
    Mayor Castro, I wanted to ask you, what type of computer 
repair did your grandparents engage in?
    Mr. Castro. My grandmother actually ended up working as a 
maid, a cook, and babysitter.
    Mr. Garcia. There we go. High skill then.
    I wonder what this hearing would be like if we were like 
Canadians, desperately seeking people to come to our country 
because we simply have no one who wants to be there. It is not 
like Texas where people just want to be in Texas, or Miami. I 
worry about it.
    You know, I have heard your testimony, Mr. Wadhwa, and I 
worry about it, because you seem to create a crisis. After 
saying that our country is a mess, I hope you were just talking 
about our immigration system because what brings people to our 
country is precisely that opportunity. You would agree with me, 
correct?
    Mr. Wadhwa. I agree. For the moment, we are the only----
    Mr. Garcia. And you agreed with me that that suffering that 
you are talking about is also being visited on immigrants that 
are already in this country that don't have documentation, 
families being separated, people being deported. You would 
agree that that is a bad situation?
    Mr. Wadhwa. Agreed.
    Mr. Garcia. Why do you think we should make that decision? 
Why should we decide on highly technical people which are 
boring down the door to come into our country and not decide 
for those who have invested and been here for such a long time?
    Mr. Wadhwa. We should decide both, but right now the issue 
of undocumented is toxic. America is divided.
    Mr. Garcia. It is toxic because we give up on it; don't you 
think? I mean, if you had been given the choice to be fortunate 
enough to pick strawberries in the paradise of Oregon, would 
you have taken that choice?
    Mr. Wadhwa. I might have, depending on my circumstances.
    Mr. Garcia. No, but under your circumstances would you have 
taken that choice? And the answer is no, correct?
    Mr. Wadhwa. What I am saying is give them green cards. 
Legalize them. The green card is a wonderful way of being here. 
The only difference between the green card and citizenship is 
the right to vote.
    Mr. Garcia. It is called taxation without representation. 
It was an essential element of our country's founding.
    Mr. Wadhwa. That is why this battle is being fought, 
because the Republicans know that they are going to lose that 
battle if we legalize another 11 million people. Let us call a 
spade a spade over here.
    Mr. Garcia. The problem, Mr. Wadhwa, I think, is that you 
make a choice----
    Mr. Wadhwa [continuing]. Choice of a green card now or 
citizenship 5 years from now, everyone would accept a green 
card immediately.
    Mr. Garcia. Absolutely, people would choose that, just like 
people would choose every day.
    The other question I would ask for you, do you think there 
is some kind of paradise about the folks who have been here 10, 
15 years picking strawberries, or potatoes, or corn or 
apricots, that heavenly paradise of being an illegal worker? Do 
you think that is a particularly good circumstance for the last 
10 or 15 years that people do this?
    I will ask you, Mr. Teitelbaum. Do you think that that is a 
good thing? I mean, are they happy to do this? They want to be 
in this permanent underclass?
    Mr. Teitelbaum. I do not think they----
    Mr. Garcia. Right. And is there a history of any great 
country in the world that didn't have immigration headed toward 
its borders?
    Mr. Teitelbaum. Say it again, sir.
    Mr. Garcia. Is there a history ever in human history of a 
country that was successful and didn't have immigration? I 
mean, I believe that from the Babylonian empire through the 
Roman, through the British, and to today, every nation that is 
a winner nation has immigration, correct?
    Mr. Teitelbaum. The Commission was a strong supporter of a 
substantial legal immigration system.
    Mr. Garcia. Do you remember what the Statue of Liberty, 
which is on the cover of your report, says?
    Mr. Teitelbaum. Well, the statue doesn't say it. It is on 
the pediment. I know the poem by Emma Lazarus. And my first 
daughter's name is Emma.
    Mr. Garcia. I think we make a mistake here if we engage in 
this debate and think that there is some paradise.
    Mr. Arora, you have spent how many years trying to make 
your status permanent?
    Dr. Arora. More than 15.
    Mr. Garcia. And you would agree that that is not a 
particularly favorable place to be.
    Dr. Arora. Right.
    Mr. Garcia. And you would agree that those, even like 
yourself, who are highly technical, making a good salary, but 
finding all these impediments is not a good thing for America's 
productivity.
    Dr. Arora. No, it is not.
    Mr. Garcia. And I would assume that because you want this 
status for yourself, you would want it for all others who find 
themselves in a similar situation?
    Dr. Arora. Yes.
    Mr. Garcia. Look, I think that the issue here is that we 
have mistaken--and the folks on the other side might be 
missing--is that this is no paradise, that people work awfully 
hard on the American dream, and all they want is an 
opportunity. And I want to be clear here: A pathway to 
citizenship doesn't mean that we are going to sign these guys 
up to be citizens. That is a choice that is made. I am sure in 
your city, Mayor, you would love more people to be registered 
to vote, but yet they are not. And that is a choice people 
make, just like citizenship, correct?
    Mr. Castro. Sure. That is correct.
    Mr. Garcia. Thank you, Mr. Chairman. I yield back the 
remainder of my time.
    Mr. Goodlatte. I thank the gentleman.
    And the gentleman from North Carolina Mr. Holding is 
recognized for 5 minutes.
    Mr. Holding. Mr. Castro, I recognize your resistance to 
finding a middle ground or something short of full citizenship. 
But I would ask you, if you were an illegal immigrant, and the 
United States was actually in the business of enforcing our 
immigration laws, and your choice was convicted criminal or 
almost citizen, you would choose almost citizen, wouldn't you?
    Mr. Castro. As I said before, do I believe that something 
is better than zero? Sure. I don't believe it is sufficient. I 
also don't believe that that addresses the entirety of the 
problem here.
    Mr. Holding. Redirecting your attention back to Mr. Forbes' 
question, which you thought was hypothetical in that if you 
were given the opportunity to write the law and ensure that it 
passed, and we found ourselves 10 years later with a large 
population of illegal immigrants in the country, would you 
enforce the law, or would you come back and find another 
pathway to citizenship? I would suggest to you that it is not a 
hypothetical question, because it is precisely the question 
that we are dealing with right now.
    Twenty-five years ago we passed a comprehensive bill, and 
here we have a low estimate of 11 million illegals in the 
country. Some estimates are many millions more.
    What is the mistake that we made in 1986 that we do not 
need to make this time around to ensure that we don't have to 
do this again?
    Mr. Castro. Well, I think one of the things that we can do, 
as was mentioned earlier, is to continue to enhance border 
security and also to work on interior security. Technology has 
benefited us during that time. So we have an opportunity here, 
you have an opportunity here, the Congress has an opportunity 
to pass a comprehensive, very well-thought-out bill. And, of 
course, nobody can guarantee, and you are right, there probably 
will be some folks who fall into that category in the years to 
come.
    Mr. Holding. So the mistake that we made was that we didn't 
enforce the law.
    Mr. Castro. Well, I think somebody else will have to speak 
to that. We can't just throw up our hands because we think we 
are going to have some challenges later. That is not an option. 
Doing nothing is not an option.
    Mr. Holding. I agree doing nothing is not an option, but I 
also think enforcing the law should have been done and has to 
be part of the future.
    Mr. Wadhwa, my father-in-law is British. He is an engineer, 
and in the course of his career, he has managed worldwide 
construction for two pharmaceutical companies, one based in the 
United Kingdom and one based in Switzerland. And through all 
the years that I have known him, he has complained the most 
about the immigration laws in the United States and the 
difficulty it has been not only for him at times to work in the 
United States, but for getting team members in from other 
countries to work on large construction projects, 
pharmaceutical manufacturing and research facilities here.
    You have experience in Australia. Give us just a little 
snapshot of if one was a U.S. citizen, engineer, and wanted to 
go to Australia and manage a billion-dollar construction 
project, how much of a hassle would it be?
    Mr. Wadhwa. Australia right now makes it very easy to come 
there. Canada is doing the same. If you are a skilled 
immigrant, they are welcoming, you know, people as immigrants 
to come over there. It is harder to get green cards in many 
other countries.
    But the Australia I knew is different than the Australia 
today. I had to fight to get an Australian permanent residence 
because there is a White Australia policy. Today they welcome 
anyone who graduates from their universities. They welcome 
foreigners to come and start companies.
    Your father-in-law is like everyone else in Silicon Valley. 
They are starved for talent. The companies are starved for 
talent. They want to hire the best and brightest from all over 
the world, but we won't let them.
    My colleague at Stanford, Dan Siciliano, talks about if the 
country was a game, if you are playing football in a country, 
we said, the only people you can hire are people from within 
the company. We are basically locking out the world's best 
talent needlessly.
    Mr. Holding. My district borders on the Research Triangle 
Park in North Carolina. And there are numerous high-tech 
companies there, and a number of very large software companies. 
And I have heard from them that when they have difficulty 
getting someone in the United States, often what they are able 
to do is just have them located in Canada and Skype in their 
input. And they pay the taxes in Canada. They don't pay the 
taxes in the United States.
    Mr. Wadhwa. In Silicon Valley that is commonly happening. 
They are setting up offshoring centers in India, China, in 
Vancouver, everywhere else in the world except Silicon Valley. 
We want those people here so they can pay taxes here, they can 
interact, and they can start more companies after they have 
finished their projects.
    Mr. Holding. Thank you very much. I yield back.
    Mr. Goodlatte. The gentleman from New York Mr. Jeffries is 
recognized for 5 minutes.
    Mr. Jeffries. Thank you, Mr. Chair.
    Dr. Wadhwa, you have indicated throughout your testimony 
the need, perhaps for reasons of policy or for practical 
reasons, to emphasize as we tackle this immigration issue 
highly skilled visas.
    Certainly you have distinguished yourself during your time 
here in America. You have founded a company, 1,000-plus 
employees. You have contributed to the academy. You have 
written a book. You have taught at some of our most significant 
and distinguished universities. You have contributed much to 
America.
    Now, as it relates to our immigration policy, of course, 
there is an appropriate place to deal with the highly skilled 
immigrant issue. We also have a history of dealing with 
refugees with compassion that makes sense for who we are and 
what we represent, our democratic values. We have a history of 
making sure we grant visas in recognition of the fact that we 
need to draw from people from all across the world. That is the 
premise of the diversity visa program, that that makes us 
stronger. And, of course, inherently the need to emphasize and 
promote family unification for reasons of fairness, for reasons 
of efficiency, for reasons that clearly make sense for the 
integrity of our democracy as well as the well-being of our 
economy.
    The gentlelady from California already has made the point 
that some of the most significant startup companies, the 
Silicon Valley success stories, were started by immigrants--
whether that is Yahoo! or whether that is Google, whether that 
is eBay, Intel--who did not come into this country through the 
highly skilled immigrant visa program, but through other means 
of immigration.
    Now, I think you gave an interview on November 20, 2012, to 
a publication at the Wharton School of Business, a very 
distinguished school in Pennsylvania, where you stated, ``I was 
in New York in the 1960's as a child, and being in America is 
quite an experience. I left in the late '60's, but I had always 
wanted to come back. The first chance I got was in 1980, when 
my father got transferred to the consulate in New York City.''
    Would you agree, based on your own experiences here in 
America, that the notion of family unification, of the unit 
being together has been and should continue to be an integral 
part of what we do as it relates to comprehensive immigration 
reform?
    Mr. Wadhwa. Without a doubt I agree with that. There is no 
dispute on that. The only thing I have been arguing is that 
rather than 120,000, 140,000 visas for skilled immigrants, 
double it or even triple it for a few years, because we want to 
bring in an additional pool of skilled talent that can heal the 
economy and help us take advantage of all these technology 
advances I talked about.
    Mr. Jeffries. Am I correct that your own experiences 
demonstrate the importance of family unification as an 
immigration value?
    Mr. Wadhwa. And you are absolutely right that the children 
of immigrants go much further than their parents do. All of 
this is absolutely correct. A little bit of balance.
    Mr. Jeffries. Thank you.
    There has been this dichotomy that has been presented as to 
how we find common ground in terms of the immigration reform 
debate. On the one hand you have got mass deportation that was 
presented as an alternative; on the other you have got a 
pathway to citizenship. But I believe, Mayor Castro, you have 
indicated you agree that that seems to be a false dichotomy; 
that the most appropriate construct is, on the one hand, mass 
deportation; on the other hand, open and unsecured borders. And 
I believe that on both extremes, the overwhelming majority of 
Americans believe that neither is appropriate for reasons of 
humanity or practicality.
    And so if that really is the appropriate construct--mass 
deportation on one hand and, on the other, open, unsecured 
borders--then the question is how do we find common ground? How 
do we compromise based on those two wide-ranging extreme 
alternatives? And would you agree that in that scenario that a 
pathway to citizenship is one alternative, compromise, tough 
but possible and ultimately obtainable, firm but humane, and 
that the only other possible compromise, which was raised by 
others on this panel, is permanent second-class status, 
notwithstanding the fact that those permanent second-class 
residents would have passed a background check, paid back 
taxes, paid a fine, perhaps gotten an education, perhaps served 
in the military and gotten to the back of a very long line? 
Could you just comment, Mayor Castro, on those possible 
compromise alternatives and what seems to be most consistent 
with who we are as Americans?
    Mr. Castro. I believe that you have laid it out well that 
on the extremes you have mass deportation of 11 million people. 
That is not going to happen. We are not going to, on the other 
end, open up our borders. That is not in the national interest 
by any means. That the bipartisan proposal and the President's 
proposal represents an effective compromise, remembering that 
this is earned citizenship, the alternative truly is a recipe 
for creating a class of second-class noncitizens in the United 
States.
    Mr. Jeffries. Thank you.
    Mr. Goodlatte. And last but not least, we have the 
gentleman from Georgia Mr. Collins recognized for 5 minutes.
    Mr. Collins. Thank you, Mr. Chairman.
    I think one of the good things about being last is that you 
get to listen. You get to hear a lot of questions. And in this 
case you get to hear a lot of hyperbole on both ends. And 
really, that is the question that I am sitting here with right 
now. I have heard a lot of discussion and a lot of, well, if we 
don't do this, you know, if we don't pass this, it is horrific, 
and these kinds of questions.
    But just for a brief moment, I come from northeast Georgia, 
a very agricultural district, but it is also on the border of 
Atlanta, so we get a lot of what I call the mixed blessing of 
both the need of immigration, the need for workers, and the 
need for those industries, dairy, poultry, other things. But we 
also deal with those of the hard-working taxpayers who have 
been there--it is a transitional area--who are concerned about 
their way of life and are also concerned about being fair and 
honest and open with them. They have a deep faith. I believe 
contrary to some that have said that the only way you can show 
your true faith--I am a pastor--is by just opening up your arms 
and forgiving and not having any rule. I believe you can hold 
both. I am a lawyer as well. I hold both grace and law. I think 
we have got to look at that.
    The question that comes to mind here is I come from also a 
State of Georgia who has dealt with this issue. For some in 
this room, it may not have been a very good way, but we have 
dealt with it, and we have dealt with it in a way that is still 
in progress. And I think it took a step from a State 
perspective to say, what can we do because the Federal 
Government has not?
    Now, what concerns me here is is I keep hearing, it is 
definitional. And I am a little bit retentive on some things, 
and I am the last one, so I will just make these points. 
Comprehensive immigration reform, what I have become concerned 
about--and I will start with you, Mayor--is when I hear 
``comprehensive'' in this hearing today, what I hear is is it 
is comprehensive if it has a specific outcome I like. It is not 
comprehensive if it doesn't lead to a specific end. And I just 
have heard, and just in recent testimony, in questions here, 
really that compromise between two untenable paths is not 
compromise. Compromise between two things that would never take 
place is not compromise. You are taking two extremes and 
basically saying there is a compromise in the middle, and the 
reality is you are not compromising because those two would 
never exist. It is a fantasy.
    You also have stated in this that you felt it was in the 
Nation's best interests for a pathway to citizenship; that is 
correct?
    Mr. Castro. Sure.
    Mr. Collins. Okay. The question I have here is do you 
believe that all immigrants come to America across the border 
legally or illegally for the same reason? Yes or no.
    Mr. Castro. I believe that the vast majority of them come 
for the same reason, but I can't say that every single one of 
them comes here for the same reason, no.
    Mr. Collins. Okay. So at least in the process of what we 
are looking at here, is there at least room for discussion? 
And, look, even in the diversity of my district, which is very 
conservative, there is a need for us to deal with all aspects 
of this, okay, from the security aspect to the legal aspect 
that we have talked about and where our needs are, but also for 
the ones who are already here.
    The question is, though, if we only insist on 
comprehensive, and we sort of--I won't say demonize the process 
or say that we are not accomplishing what we are here for, if 
the only way is to have a citizenship ending, then are we not 
doing a disservice for those who have come here to work and our 
liberty and have a deep love for the country they came for, but 
they come here for economic reasons. And to give them something 
that has been said here, they have lived here for 30 years on a 
green card. They lived here in a different way. My concern is 
is compromise, in your mind only, or comprehensive, is the 
definitional we are using here is comprehensive will only take 
place with a desired outcome at the end?
    Mr. Castro. And I use the word ``sufficient'' or 
``effective.'' I think the only ``effective'' way to address 
this is to make it create a pathway to citizenship. Remember 
also, you are talking about 8 to 10 years before any one of 
these----
    Mr. Collins. That was not my question, Mayor. I am dealing 
with definitional, because this is what is going to get 
interesting over the next few months and even as we go forward. 
If we only view comprehensive immigration reform under the 
guise of an outstanding outcome or an intended outcome, then I 
have trouble with that, because what we are setting ourselves 
up for here is one side may be coming to the table with honest, 
open ideas for reform, but if in the end all we are hit with 
is, you didn't do comprehensive because we didn't get a desired 
result----
    Mr. Castro. I would disagree with the characterization.
    Mr. Collins. Well, I think that is what has been testified 
here to, and especially when you basically state that you 
believe in this Nation's best interest there is only one path 
that that should be, and that should be citizenship, when 
really there are also other alternatives that are out there. It 
is a best interest, but I don't think from a comprehensive 
standpoint you can tag the two. And that is what I have heard.
    Look, I do not believe circumstances are easy here, as was 
testified to earlier, for anyone who is here in a status that 
is not legal or a status in where they are hiding, as has been 
said, in the shadows. And I think this is whether it is from 
the high-tech industry or not. But also, the one thing I never 
want to lose sight of is there are hard-working taxpayers who 
have been here, who are also having--they do hard work as well. 
They get up and go to work every day. We have got to find a 
balance for the two, never forgetting what we are looking at. 
And that is my concern.
    Mr. Chairman, I yield back.
    Mr. Wadhwa. You know, I believe that if we provided green 
cards to all the undocumented workers immediately, if we gave 
their children citizenship, and if we fixed the skilled 
immigrant problem, there would be consensus nationwide. And we 
don't have to get into these toxic battles about citizenship or 
not citizenship. That can be decided a decade from now when the 
economy has healed, things are different, and America has 
evolved. It doesn't have to be all or none immediately. It can 
be done over time.
    Right now, these people just want to be legalized. They 
just want the right to be able to live here with dignity. Let 
us give it to them immediately without wasting time. We are 
making this country suffer through needless debates when it can 
be resolved right now.
    Mr. Collins. I think we are definitely looking at it from a 
perspective of overall look, and I appreciate you coming here 
and testifying from your different point of views. I think, 
like I said, the main concern we have got to have here is let 
us not trap ourselves into definitional reasons of 
comprehensive or other things that exclude or include, and then 
in the end we say, well, we didn't get it because it didn't fit 
my definition of what ``comprehensive'' means.
    Mr. Chairman, I yield back.
    Mr. Goodlatte. I thank the gentleman for his questions. And 
I thank all the Members of the Committee for the questions to 
this first panel. And I especially thank the members of the 
panel. You have endured more than 3 hours of questions, and it 
has been a very enlightening discussion. So thank you for 
making the trip to Washington to participate, and we will 
excuse you now and turn to our second panel.
    And now if the first panel would make their way to the 
hallway, they can speak with folks out there. And that way our 
second panel can take their seats.
    Mr. Goodlatte. Now I will turn to our second group of 
witnesses. The hearing room will be in order.
    Our first witness is Julie Myers Wood, President of 
Guidepost Solutions LLC, an immigration investigation and 
compliance firm. Prior to her tenure at Guidepost, she served 
as the Assistant Secretary for the Department of Homeland 
Security for Immigration and Customs Enforcement, or ICE, for 
nearly 3 years. Under her leadership, the agency set new 
enforcement records with respect to immigration enforcement, 
export enforcement, and intellectual property rights.
    Ms. Wood earned a Bachelor's degree at Baylor University 
and a J.D. cum laude from Cornell Law School. She is a native 
of Shawnee, Kansas.
    Thank you, Ms. Wood, for taking the time to be with us 
today.
    Our next witness is Mr. Chris Crane, who currently serves 
as the President of the National Immigration and Customs 
Enforcement Council 118, American Federation of Government 
Employees. He has worked as an Immigration Enforcement Agent 
for U.S. Immigration and Customs Enforcement at the U.S. 
Department of Homeland Security since 2003. Prior to his 
service at ICE, Mr. Crane served for 11 years in the United 
States Marine Corps.
    Chris, we thank you for your service and being with us 
today.
    Our third witness of this second panel is Jessica M. 
Vaughan, Director of Policy Studies for the Center for 
Immigration Studies. She has been with the Center since 1992, 
where her expertise is in immigration policy and operations 
topics such as visa programs, immigration benefits, and 
immigration law enforcement. In addition, Ms. Vaughan is an 
instructor for senior law enforcement officer training seminars 
at Northwestern University's Center for Public Safety in 
Illinois.
    Ms. Vaughan has a Master's degree from Georgetown 
University and earned her Bachelor's degree in international 
studies at Washington College in Maryland.
    Ms. Vaughan, thank you for your participation today.
    And our fourth and final witness of this second panel is 
Muzaffar Chishti, Director of the Migration Policy Institute's 
office at the New York University School of Law. His work 
focuses on U.S. immigration policy, the intersection of labor 
and immigration law, civil liberties, and immigration 
integration. Prior to joining MPI, Mr. Chishti was Director of 
the Immigration Project of the Union of Needletrades, 
Industrial and Textile Employees (UNITE). Mr. Chishti has 
served on the Board of Directors of the National Immigration 
Law Center, the New York Immigration Coalition, and the Asian 
American Federation of New York. He has served as Chair of the 
Board of Directors of the National Immigration Forum and as a 
member of the American Bar Association's Coordinating Committee 
on Immigration.
    He holds degrees from St. Stephen's College in Delhi, 
India, the University of Delhi, Cornell Law School, and the 
Columbia School of International Affairs. And we are grateful 
that he has come to testify before the Committee today. All of 
you are welcome.
    We now have votes, and I think rather than start in the 
midst of a relatively empty hearing room, we are going to 
recess the Committee. I will encourage Members on both sides of 
the aisle to come back to hear your wise testimony. And the 
Committee will stand in recess until the conclusion of those 
votes.
    The Committee will reconvene. We are working on encouraging 
other Members to return for the second panel, but since the day 
is moving on, we think the hearing needs to move on as well. So 
having introduced all the members of this panel, we will start 
with Ms. Wood. Welcome.

           TESTIMONY OF JULIE MYERS WOOD, PRESIDENT, 
                    GUIDEPOST SOLUTIONS LLC

    Ms. Wood. Thank you so much, Mr. Chairman and Members of 
the Committee. I appreciate the opportunity to testify before 
you today about the enforcement of laws against illegal 
immigration.
    Like many Americans, I believe that our immigration system 
is broken and needs reform. But like others, I served as the 
former head of Immigration and Customs Enforcement, the 
principal agency charged to enforce immigration laws, and so I 
have an insider's perspective of the challenges that face us 
and what we must do to make sure that we are not in the same 
position 20 years from now that we are right now, looking at a 
broken system put together with Band-Aids and trying to make 
do.
    Since the 1986 amnesty, inconsistent enforcement coupled 
with an inefficient and restrictive pathway for legal access to 
the country have left us with this broken system. Many people 
concluded that it was just far simpler to come here illegally, 
get a job, and hope that the law would change to let them stay, 
rather than wait in unreasonably long lines to come here 
legally. And, of course, for some there was no option to come 
legally.
    Many employers grew very frustrated with the nearly decade-
long wait for some petitions for workers with essential skills 
and just took their chances that enforcement would not target 
their business.
    When considering legislative reform, we must consider how 
to avoid the mistakes of previous efforts. And these are not 
new problems. When I first arrived at ICE in 2006, it was 
apparent to me that there were many areas where the promise of 
IRCA was not being realized, including managing illegal border 
crossings, identifying and deporting the illegal criminal alien 
population, reducing illegal employment, enforcing immigration 
court orders, and effectively conducting national security 
enforcement.
    And I want to take illegal employment as an example. I know 
the Chairman talked about this in his opening remarks, and I 
think this is an area where law enforcement has not effectively 
addressed the problem. And, you know, when I first started at 
ICE in 2006, there was virtually no workplace enforcement, 
although it was common knowledge, everyone knew, that the big 
magnet to come into the United States was jobs. INS was not 
focusing on that issue, and ICE also had not focused on it. 
Fines, if any, were assessed under an outdated structure. They 
were subject to substantial legal wrangling and ended up being 
nothing more than just a slap on the wrist. For example, in 
2002, the INS' last full year, it brought only 25 criminal 
cases in worksite investigations and only collected about 
$72,000 through the administrative fine process.
    So we tried to look at things differently. And we thought, 
how can we focus renewed effort on it? And we focused on 
employers, looking at could we bring criminal cases against 
employers? We also worked to revise the criminal fine structure 
and requested funding for civil auditors. And so for several 
years we pursued a path of criminal cases, which led to civil 
forfeitures in excess of $30 million each year and prison terms 
for some egregious employers.
    While these investigations were complex and time-intensive, 
the approach resulted in renewed awareness and cooperation from 
some high-risk industries. However, many companies in low-risk 
industries didn't think it was necessary to focus on I-9 or 
immigration compliance with this targeted approach.
    This approach also included the apprehensions and removals 
of unauthorized workers, who in many cases were using the names 
and Social Security numbers of U.S. citizens.
    The arrest and deportation of unauthorized workers consumed 
a lot of our time in trying to target employers and pursue this 
approach. The current Administration has shifted gears. They 
have focused on a civil fined approach, really kind of adopting 
an IRS-type model. Under this approach more companies are 
subject to audits, about 4,000, and the general awareness of 
immigration compliance has increased significantly.
    But this approach is also imperfect. The median cost of a 
penalty against a business is very small, under $11,000 per 
company in fiscal year 2012, and the total civil fines for 
fiscal year 2011 were about $10 million.
    On occasion, the focus on civil audits has led to some 
perverse consequences. Some employers with no unauthorized 
workers at all were fined, while others that had a very high 
percentage of unauthorized workers didn't even receive a 
warning notice. Under this new approach the government 
essentially ignored the illegal workers, allowing them to stay 
and work in the United States.
    While some employers take the civil fine system very 
seriously, for others it is just a rounding error in their 
accounting systems.
    To address the problem of unauthorized workers more 
successfully, new legislation shouldn't rely on what we have 
just done in the past. We have got to look anew at how we can 
stop illegal employment, and legislation should shift the 
burden from employers to the government and provide employers 
with clear guidance on who is work-authorized and who is not.
    Of course, E-Verify should be made mandatory for all 
employees, but we shouldn't stop there. Although E-Verify has 
improved significantly in the past few years, gaps in the 
current program have still shifted much of the burden to 
employers. They have become de facto document detectives. And 
conscientious employers are effectively faced with a silent tax 
to pay for immigration compliance services, diverting money 
that would be far better spent hiring new employees.
    More generally, successful reform must also think about the 
systemic problems that got us into this situation. For too long 
our agencies have been underequipped to fight the challenge. We 
haven't had enough people, resources, or technology. We have 
also had inefficiencies in the removal system. An average case 
takes over 2 years to get through the courts in California. And 
we also have not addressed things regarding fundamental 
fairness, including protecting the rights of unaccompanied 
aliens and those with mental competency issues that may need 
counsel in order to pursue a fair treatment in immigration 
court.
    I appreciate the Committee's interest in these issues and 
look forward to working with you.
    Mr. Goodlatte. Thank you, Ms. Wood.
    [The prepared statement of Ms. Wood follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Goodlatte. Mr. Crane, welcome.

 TESTIMONY OF CHRIS CRANE, PRESIDENT, NATIONAL IMMIGRATION AND 
    CUSTOMS ENFORCEMENT COUNCIL 118, AMERICAN FEDERATION OF 
                      GOVERNMENT EMPLOYEES

    Mr. Crane. Thank you, sir. Good afternoon, Chairman, and 
Members of the Committee.
    In 2009, I reported supervisor misconduct directly to DHS 
Secretary Janet Napolitano and ICE Director John Morton. Almost 
immediately after I filed that report, I applied for a 
promotion. ICE managers retaliated for my earlier reports to 
Napolitano by claiming that I had lied about my military 
training on my resume. The investigation that followed required 
that I provide military documents to prove that I had not lied 
on my resume. I provided the documents, and I was cleared of 
all charges. So as an officer who had already been through 
stringent background investigations, ICE and DHS still 
investigated me and still made me provide documentation to 
substantiate claims I had made on my resume.
    But as ICE agents go into jails every day and encounter 
illegal aliens arrested by local police, agents are under 
orders from DHS and ICE--the same DHS and ICE that investigated 
me--to simply take the word of the illegal alien that he 
graduated from college or high school, or that he has a GED. 
And without investigation, without requiring the alien to 
provide a diploma or a transcript, the alien will simply be 
released under DACA without first proving he even qualifies for 
it.
    Since ICE doesn't investigate these claims or require proof 
from the alien, is it any big surprise that many ICE agents 
report that everyone they encounter in jails claims they are 
somehow qualified under DACA, and that most are released 
because ICE agents are powerless to make the aliens prove they 
actually qualify? One agent recently told me a story of how he 
overheard one alien coaching another on how to get released by 
lying to ICE agents about having status under DACA.
    Is this our answer, our big immigration reform, to make law 
enforcement a joke and let everyone lie to us and then release 
them? ICE Director John Morton, DHS Secretary Janet Napolitano, 
as leaders of law enforcement agencies, should be demanding 
that this stop and that the agency get back to sound law 
enforcement principles, but they won't because this is not 
about effective law enforcement, it is not about fixing our 
immigration system. Clearly letting people lie to us and then 
allowing them to remain in the U.S. based on those lies doesn't 
fix the system. This is about politics.
    We currently have 11- to 20 million illegal aliens in the 
United States. They got here one of two ways: They entered the 
United States illegally, or they came here legally with a visa 
and never left.
    So what is ICE doing about visa overstays and illegal entry 
as both lie at the very heart of our broken immigration system? 
ICE has essentially prohibited its agents from enforcing these 
laws. ICE agents can't arrest aliens solely because they 
entered the United States illegally or because they overstayed 
their visa. It is basically not illegal anymore, generally 
speaking, not unless the alien has been convicted of a criminal 
offense.
    Messaging is critical to any effort aimed at curbing 
illegal immigration. So what message do ICE practices send to 
the world? The message is, we don't enforce our laws. Come on 
over, and if you do get caught, just lie to us. Lie about the 
day and year you entered. Lie about going to high school. You 
won't be required to prove anything.
    While there is certainly much more to be said on these and 
other issues, in closing I would like to provide a few bullet 
points on the state of ICE as an agency. Internally the agency, 
in my opinion, is falling apart. Morale is at an all-time low 
according to recent Federal surveys. The agency refuses to 
train our officers on these new policies, resulting in mass 
confusion and frustration. Everybody is doing something 
different. Nobody really knows what is going on. As our 
officers are investigated by ICE for enforcing U.S. immigration 
law, as they see other officers threatened with suspensions for 
making lawful arrests, increasingly officers feel that they 
have become the enemy of this Administration, which certainly 
is not a healthy sign for any law enforcement organization.
    That concludes my testimony. Thank you.
    Mr. Goodlatte. Thank you, Mr. Crane, for that compelling 
testimony.
    [The prepared statement of Mr. Crane follows:]
Prepared Statement of Chris Crane, President, National Immigration and 
 Customs Enforcement Council of the American Federation of Government 
                               Employees
    The results from the most recent morale survey for Federal agencies 
were released in December 2012. ICE dropped in the rankings to 279 out 
of 291 Federal agencies surveyed leaving only 12 agencies that ranked 
lower in employee morale and job satisfaction than ICE. By comparison, 
the U.S. Marshals Service was ranked 82 in the survey, and the FBI 
ranked 107. The ICE employee morale survey included ICE managers as 
well as officers, agents and administrative personnel.
    As agency morale falls each year, each year ICE leadership finds 
new excuses to justify the low morale, never taking responsibility and 
never making reasonable efforts to identify and address causative 
issues. This, even after the tragic shooting in a Los Angeles ICE 
office last year, in which an ICE Agent shot his own supervisor and was 
himself shot and killed by another ICE employee.
    To prevent incidents like the one in Los Angeles, ICE must begin 
efforts to address problems within the agency. While both internal and 
external factors contribute to the morale problems within ICE, proper 
leadership from ICE headquarters could make sweeping and effective 
changes throughout the agency. It is the responsibility of ICE 
leadership to maintain the highest possible morale within the agency 
regardless of the situation and regardless of the factors involved; 
whether it is addressing gross mismanagement and overall corruption 
within the agency, or addressing the impact of internal or external 
politics.
    While ICE employees are frequently demonized by special interest 
groups and media outlets, it should be known that many ICE employees 
are themselves the sons and daughters of immigrants, or grandsons and 
granddaughters of immigrants; or are married to immigrants, or are the 
proud parents of adopted babies born outside the U.S. For many of our 
officers and agents, English was not their first language, or they grew 
up in a bilingual household. ICE employees represent the full spectrum 
of races and religions that make up our great country. They are moms 
and dads, public servants, and many are veterans of the United States 
Armed Forces. ICE agents are not monsters as some would portray them.
    However, ICE agents do believe in law enforcement and the rule of 
law. Most Americans going about their daily lives believe that ICE 
agents and officers are permitted to enforce the laws of the United 
States. However, ICE agents and officers would tell America a much 
different story.
    The day-to-day duties of ICE agents and officers often seem in 
conflict with the law as ICE officers are prohibited from enforcing 
many laws enacted by Congress; laws they took an oath to enforce. ICE 
is now guided in large part by the influences of powerful special 
interest groups that advocate on behalf of illegal aliens. These 
influences have in large part eroded the order, stability and 
effectiveness of the agency, creating confusion among all ICE 
employees. For the last four years it has been a roller coaster for ICE 
officers with regard to who they can or cannot arrest, and which 
Federal laws they will be permitted to enforce. Most of these 
directives restricting enforcement are given only verbally to prevent 
written evidence from reaching the public.
    Most Americans would be surprised to know that immigration agents 
are regularly prohibited from enforcing the two most fundamental 
sections of United States immigration law. According to ICE policy, in 
most cases immigration agents can no longer arrest persons solely for 
entering the United States illegally. Additionally, in most cases 
immigration agents cannot arrest persons solely because they have 
entered the United States with a visa and then overstayed that visa and 
failed to return to their country. Essentially, only individuals 
charged or convicted of very serious criminal offenses by other law 
enforcement agencies may be arrested or charged by ICE agents and 
officers for illegal entry or overstay.
    In fact, under current policy individuals illegally in the United 
States must now be convicted of three or more criminal misdemeanors 
before ICE agents are permitted to charge or arrest the illegal alien 
for illegal entry or overstaying a visa, unless the misdemeanors 
involve the most serious types of offenses such as assault, sexual 
abuse or drug trafficking. With regard to traffic violations, other 
than DUI and fleeing the scene of an accident, ICE agents are also 
prohibited from making an immigration arrest of illegal aliens who have 
multiple convictions for traffic related misdemeanors.
    Thus far, ICE's new arrest methodology of prohibiting the arrest of 
illegal aliens convicted of certain unspecified misdemeanors has simply 
created more confusion among those tasked with enforcing immigration 
law. During conversations with ICE officers, agents and prosecuting 
attorneys, none were able to identify the criminal misdemeanor offenses 
that ICE leadership has identified as ``insignificant.'' Important to 
note, no training or list of ``insignificant'' misdemeanor offenses was 
ever provided to ICE employees.
    DACA, or Deferred Action for Childhood Arrivals, which prevents the 
deportation of many aliens brought to the U.S. as children, is for the 
most part applied by ICE immigration agents to adults held in state 
correctional facilities and jails pending criminal charges. News has 
spread quickly through illegal alien populations within jails and 
communities that immigration agents have been instructed by the agency 
not to investigate illegal aliens who claim protections from 
immigration arrest under DACA. ICE immigration agents have been 
instructed to accept the illegal alien's claim as to whether he or she 
graduated or is attending high school or college or otherwise qualifies 
under DACA. Illegal aliens are not required to provide officers with 
any type of proof such as a diploma or transcripts to prove that they 
qualify before being released. Even though the immigration officer 
generally has no proof that the alien qualifies under DACA, officers 
may not arrest these aliens unless a qualifying criminal conviction or 
other disqualifier exists. As one immigration agent stated last week, 
``every person we encounter in the jails now claims to qualify for 
release under DACA.''
    With all of the restrictions placed on ICE immigration agents in 
enforcing U.S. immigration laws, it is also important to understand the 
broader law enforcement practices of the Agency and the associated 
impact on immigration enforcement. With approximately 20,000 employees 
at ICE, approximately 5,000 officers and agents handle the majority of 
immigration work within the agency, to include the arrests, case 
processing, detention, and removal of approximately 400,000 aliens each 
year. Within this group of 5,000 officers, two separate officer 
positions exist. While all officers have exactly the same training, the 
two officer positions have different arrest authorities, one position 
with a more limited arrest authority than the other. For obvious 
reasons, this antiquated separation of arrest authorities among 
officers is unnecessary, especially as no additional training is 
necessary, and clearly prevents the best use of the limited resources 
available for immigration enforcement. Requests for ICE Director John 
Morton to issue a memorandum providing full arrest authority to all 
officers as a force multiplier within the agency have been refused by 
the Director without explanation. As the Administration states publicly 
that it is pushing for stronger enforcement and optimal utilization of 
limited enforcement resources, these actions appear to indicate 
otherwise.
    Also important to understand, pressures from special interest 
groups have resulted in the majority of ICE agents and officers being 
prohibited from making street arrests. Most officers are only allowed 
to work inside of jails hidden from public view, and may only arrest 
certain individuals who have already been arrested by police 
departments and other Federal agencies. As a general rule, if ICE 
agents or officers are on duty in a public place and witness a 
violation of immigration law, they are prohibited from making arrests 
and from asking questions under threat of disciplinary action.
    Several hundred officers and agents assigned to special teams 
across the nation do have a limited ability on a day-to-day basis to 
make public arrests outside of jails. For the most part, these officers 
and agents are restricted to arresting specific targets only after each 
case goes through a lengthy authorization process that must eventually 
be approved by a supervisor in writing.
    As stated previously, new ICE arrest policies clearly appear to 
conflict with not only the law but also with the legal training 
provided new officers and agents in the academy and on the job at their 
offices in the field. Years of training and experience are not easily 
undone, especially as ICE refuses to provide training to officers 
regarding its new enforcement policies. As a result, officers are 
confused and unsure about the new policies, and often find themselves 
facing disciplinary action for following the law and their academy 
training instead of the confusing and highly misunderstood and ever 
changing new policies.
    In Salt Lake City, Utah, three ICE agents witnessed an individual 
admit in open court to a Federal Immigration Judge that he was in the 
United States illegally. ICE agents waited until the alien left the 
hearing and then politely asked him to accompany them, never using 
handcuffs in the course of the arrest. An immigration attorney and 
activist called the ICE Field Office Director in Salt Lake City 
verbally complaining that ICE officers had arrested an illegal alien. 
The ICE Field Office Director responded by ordering that all charges 
against the illegal alien be dropped and that the alien be released 
immediately. While the ICE Director ordered the immigration violator be 
set free, the Director also ordered that all three ICE agents be placed 
under investigation for no other reason than arresting an illegal 
alien.
    In Dover, Delaware, ICE agents conducted surveillance of a vehicle 
registered to an ICE criminal fugitive. When a man attempted to enter 
the vehicle and depart, ICE agents discovered that while not their 
arrest target, the man was an illegal alien with multiple convictions 
for driving without a license. Still without a license and attempting 
to drive, ICE agents considered the man a threat to public safety and 
arrested him. ICE supervisors ordered that the illegal alien be 
released without charges. When one agent attempted to bring immigration 
charges against the alien as the law and his oath requires, the agent's 
managers released the illegal alien and instead brought formal charges 
against the agent proposing the agent be suspended for 3 days. If the 
suspension was sustained, a second ``offense'' by the agent would 
likely result in the agent losing his job. The officer has been an 
immigration agent for 18 years and is a 5 year military veteran.
    In El Paso, TX, ICE agents arrested an illegal alien at a local 
jail who was arrested by sheriff's deputies earlier that same morning 
and charged with assault causing bodily injury to a family member and 
interfering with a person attempting to make an emergency phone call 
for assistance. When ICE agents attempted to transport the 245 lbs. 
subject he resisted and attempted escape, injuring one agent before 
being taken back into custody. When agents returned to their office in 
El Paso they were ordered by ICE managers to release the alien as a 
``Dreamer.'' ICE managers did not question the criminal alien and 
conducted no investigation to ensure that charges for assaulting an 
officer were not warranted. Instead ICE managers ordered that the 
illegal alien immediately be released without investigation in 
accordance with the President's new immigration policies, reportedly 
stating to employees that ``ICE's mission now is to identify aliens and 
release them.''
    With regard to assaults in general, assaults against ICE officers 
and agents continue to rise as ICE arrestees become increasing more 
violent and criminal in nature. Of the approximately 400,000 aliens 
removed by ICE each year, over 90% come from jails and prisons 
according to agency officials at ICE Headquarters. However, unlike 
almost every state and Federal law enforcement agency in the nation, 
ICE agents and officers are prohibited from carrying life saving 
protective equipment such as tasers. ICE will not approve this 
equipment for its agents and officers for political reasons. Death or 
serious injury to ICE officers and agents appears more acceptable to 
ICE, DHS and Administration leadership, than the public complaints that 
would be lodged by special interest groups representing illegal aliens. 
While unthinkable for most American's that the Federal government would 
approve the use of tasers on criminals who are U.S citizens, but deny 
tasers to law enforcement officers who arrest criminal aliens, it 
appears to be the case. As we have reported in the past, ICE, DHS and 
the Administration work exclusively with special interest groups to 
establish security and arrest protocols throughout the agency while 
excluding input from employees and operational managers in the field. 
As a result, many special considerations exist exclusively for criminal 
aliens in ICE custody compromising operations and costing the agency 
millions each year.
    In closing, while deeply concerned by the actions of our agency, as 
well as the current state and future of immigration enforcement, we are 
optimistic and confident that all of these matters can be successfully 
resolved with the assistance of members of Congress. Please do not 
hesitate to contact us at any time with any request as we are always 
ready and willing to assist you.
                               __________

    Mr. Goodlatte. Ms. Vaughan, we are glad to have your 
testimony.

         TESTIMONY OF JESSICA M. VAUGHAN, DIRECTOR OF 
         POLICY STUDIES, CENTER FOR IMMIGRATION STUDIES

    Ms. Vaughan. Thank you for the opportunity to speak today 
on the enforcement of laws against illegal immigration. My 
remarks are going to focus on the extent of illegal immigration 
law enforcement today and also on enforcement at the workplace.
    There is no more important responsibility of our Federal 
Government than to secure our borders, and this includes 
enforcing laws against illegal immigration, which imposes 
enormous economic, fiscal, and security burdens on American 
communities. In addition to displacing American and legal 
immigrants from jobs and depressing their wages, illegal 
immigration costs taxpayers about $10 billion a year at the 
Federal level and even more at the State and local level. So 
every dollar invested in border security and immigration 
enforcement has both a public safety benefit and a fiscal 
benefit.
    We don't know exactly how much the Federal Government 
spends on immigration enforcement. DHS and its predecessor, 
INS, have never tracked immigration enforcement separately from 
the other responsibilities. We do know that in 2012, DHS 
received about $20 million to fund CBP, ICE and US-VISIT. This 
allocation is about half of the amount that is spent on all 
other nonmilitary Federal law enforcement activities. But only 
a small share of the $20 million was spent on immigration law 
enforcement. Much of what CBP and ICE do is customs 
enforcement. At many of the ports and field offices, most of 
what they do is customs-related, whether it is cargo 
inspections or admission of visitors. So it is difficult to 
analyze how much immigration law enforcement is occurring 
simply by looking at what we spend on the agencies that perform 
that function.
    And I would like to just touch on some of the other 
metrics. The Border Patrol has traditionally used the volume of 
Southwest border apprehensions as a key indicator. It is 
interesting. For a while we did see a sustained decline in the 
number of Southwest border apprehensions, which some have held 
as a proxy for the number of illegal crossing attempts. But if 
that is the case, then we have reason for concern again. 
According to statistics just released by CBP, last year 
Southwest border apprehensions went up by 9 percent.
    For ICE, we can look at prosecutions to gauge the volume of 
their work. Here again, according to various Federal sources, 
after years of increases the numbers of immigration court 
filings have declined 25 percent since last year and 30 percent 
since 2009.
    The main metric used by the Obama administration to measure 
enforcement activities is the number of deportations, but as 
the President has said, these numbers are deceptive. First of 
all, it is not clear that 400,000 is actually a record since 
the methodology has changed so much over the years. And it must 
be noted that the truly dramatic recent increases actually 
occurred between 2005 and 2009. Since then the numbers have 
flattened out noticeably; and ICE arrests, as opposed to 
deportations, have been declining since 2008.
    When it comes right down to it, though, the only metric 
that really counts is not how many are coming and going, but 
how many are actually staying. And according to our research, 
that number has remained stubbornly high. In my view, one 
reason for that is because one key type of immigration law 
enforcement has been conspicuously lacking, and that is 
workplace enforcement.
    In 1986, workplace enforcement was a key part of the grand 
bargain of IRCA. The American people were promised that after 
the amnesty, future illegal flows would be prevented by the 
implementation of employer sanctions. As we know, the Federal 
Government was quick to implement the amnesty program, but 
never followed through with enforcement. Instead it 
deliberately created a system that was built to fail.
    Many blamed Congress, but executive branch officials were 
equally complicit. The regulations and policies they 
established essentially sandbagged the enforcement process from 
the beginning in favor of the unscrupulous employers who hired 
the illegal aliens. The result was that employers failed to 
take the sanctions seriously and were able to absorb any meager 
penalties as a cost of doing business.
    Under the Clinton administration, it got worse. The number 
of special agents in the Investigations Division was cut from 
750 to about 500. By 2004, worksite enforcement actions dropped 
from few to almost none. That year only three employers were 
fined over the entire year in the entire country.
    Finally, Congress stepped in to provide an infusion of 
funding to revive the program, and activity gradually increased 
over the next several years, peaking in 2008. It didn't last 
long. Soon after President Obama took office, new policies were 
adopted, and worksite enforcement went the way of fugitive 
operations and local partnerships. New policies focused on 
conducting paperwork audits at more companies, while 
deliberately avoiding contact with the illegal workers.
    By almost every measure, arrests, indictments, convictions, 
and investigative hours, worksite enforcement for substantive 
violations of the law have dropped dramatically. The number of 
audits and fines have gone up a lot, but most of these 
sanctions are for paperwork violations to the extent we can 
tell because little information is actually released by ICE.
    By failing to rigorously enforce the laws against hiring 
illegal aliens, the Obama administration, like others before 
it, is tacitly encouraging more illegal immigration that 
displaces U.S. workers, causes their wages to decline, and 
erodes their quality of life. Judging by their record, we can 
expect a similar result if lawmakers sign on to another so-
called comprehensive immigration reform plan that gives amnesty 
first in exchange for promises of enforcement that will not be 
kept.
    Mr. Bachus. Thank you.
    [The prepared statement of Ms. Vaughan follows:]
 Prepared Statement of Jessica M. Vaughan, Director of Policy Studies, 
                     Center for Immigration Studies
    Chairman Goodlatte, Ranking Member Conyers, I thank you for the 
opportunity to testify today on the enforcement of laws against illegal 
immigration.
    There is no more important responsibility of our federal government 
than to secure our borders. It is critical that we provide the agencies 
that are tasked with this mission with the resources they need to keep 
us safe, to prevent the entry of terrorists and criminals, to manage 
the entry of legitimate trade and travel, and to keep illegal 
immigration in check.
    Illegal immigration imposes enormous economic, fiscal and security 
burdens on American communities. In addition to displacing American and 
legal immigrants from jobs and depressing their wages, illegal 
immigration costs taxpayers about $10 billion a year at the federal 
level \1\, and even more at the state and local level. For this reason, 
every dollar invested in border security and immigration enforcement 
has a public safety benefit and a fiscal benefit.
---------------------------------------------------------------------------
    \1\ Steven A. Camarota, The High Cost of Cheap Labor: Illegal 
Immigration and the Federal Budget, Center for Immigration Studies, 
August, 2004, http://www.cis.org/High-Cost-of-Cheap-Labor.
---------------------------------------------------------------------------
       immigration agencies' footprint in federal law enforcement
    The federal government, appropriately, allocates a significant 
share of taxpayer dollars to the immigration agencies that carry out 
this important work. It is impossible to determine exactly how much the 
federal government has spent on immigration enforcement over the years, 
because the Department of Homeland Security and its predecessor, INS, 
have never tracked these activities. In 2012, the Department of 
Homeland Security (DHS) received about $20 million to fund Customs and 
Border Protection (CBP), Immigration and Customs Enforcement (ICE), and 
US-VISIT for the missions of immigration and customs enforcement and 
foreign visitor data collection and analysis. This represents about 
half of overall federal law enforcement expenditures (not counting most 
military and intelligence service law enforcement nor Coast Guard), 
which totaled about $39 billion in 2012.\2\
---------------------------------------------------------------------------
    \2\ Figures are taken from official agency budget summaries from 
the last two years. Other federal law enforcement agency budgets 
tallied include: FBI, DEA, ATF, US Marshals, Secret Service, Bureau of 
Prisons, US Attorneys Offices, Transportation Security Administration, 
Diplomatic Security Service, IRS Criminal Investigation Division, 
Treasury Inspector General for Tax Administration, US Mint Police, 
Pentagon Force Protection, DoD OIG, Bureau of Indian Affairs Police, 
Bureau of Land Management Office of Enforcement and Security, National 
Park Service Police, Fish & Wildlife Office of Law Enforcement, Forest 
Service Law Enforcement and Investigations, USDA OIG, NOAA Fisheries 
Office of Law Enforcement, FDA Office of Criminal Investigations, 
Education OIG, Veterans Affairs Police, US Capitol Police.
---------------------------------------------------------------------------
    That might sound like we are spending an enormous sum on 
immigration law enforcement. But the immigration agencies' work 
encompasses far more than immigration law enforcement. Customs 
enforcement represents a huge share of these agencies' budgets, 
especially at the ports of entry, along with intellectual property 
enforcement; transnational gang suppression; child pornography 
investigations; fighting human trafficking; returning stolen 
antiquities; doing cargo inspections; and interdicting drugs, weapons, 
bulk cash, and other contraband that is smuggled across our borders.
    Immigration and customs enforcement overlaps with the mission of 
many other federal law enforcement agencies, and sometimes even 
surpasses them in productivity. For example, in 2012, CBP agents seized 
4.2 million pounds of illegal drugs--more than three times the amount 
seized by the Drug Enforcement Administration in the previous year. In 
the last eight years, under the auspices of Operation Community Shield, 
ICE has arrested 27,600 gang members; no comparable statistics could be 
found for the FBI, but there is no doubt that ICE plays a leading role 
in addressing this serious public safety problem. In addition, both ICE 
and CBP routinely make significant seizures of illegal weapons and 
currency from criminal organizations trying to enter or already 
operating in the United States.\3\
---------------------------------------------------------------------------
    \3\ All data is available on these agencies' web sites.
---------------------------------------------------------------------------
    In addition, a major part of CBP's effort and resources are used to 
facilitate the entry of legitimate visitors and goods, for example, 
through routine inspections of people and goods and through trusted 
traveler programs.
    While outlays for border security and immigration enforcement have 
reached historic highs, it is important to remember that the 
immigration enforcement mission was woefully underfunded for decades; 
meanwhile, the threat from international terrorism and transnational 
criminal organizations is also greater than ever before. Illegal 
immigration has risen steadily since the 1980s. While our research 
shows that new illegal entries have slackened somewhat since 2007, 
there are signs that the tide could be shifting again. According to 
numbers just released by CBP, in 2012 southwest border apprehensions, 
which the agency has used as an indicator of the number of illegal 
crossings, went up by nine percent.
    Transactional data collected by a project at Syracuse University 
reportedly shows that CBP and ICE together refer more cases for 
prosecution than other federal law enforcement agencies, which some 
have interpreted to mean that these agencies have been hyperactive and 
overzealous in their work. But another reliable source, the U.S. 
Sentencing Commission, reports that immigration cases represent a much 
smaller share of the federal criminal justice docket. The Commission's 
2011 annual report says that immigration offenders were 35% of all 
those sentenced in federal court that year, meaning there were twice as 
many sentenced offenders from non-immigration agency prosecutions than 
from CBP and ICE.\4\ However, this same report notes that 10% of 
murderers, 31% of drug traffickers, 34% of money launderers, 64% of 
kidnappers, and 28% of food and drug offenders sentenced that year were 
non-citizens, so it's easy to see why immigration enforcement should be 
such a high priority in federal law enforcement. Obviously these two 
sets of data are measuring different things--referrals for prosecution 
and sentenced offenders--but they are equally valid measures of the 
immigration agencies' footprint in the federal criminal justice system.
---------------------------------------------------------------------------
    \4\ U.S. Sentencing Commission, 2011 Sourcebook of Federal 
Sentencing Statistics, http://www.ussc.gov/Data_and_Statistics/
Annual_Reports_and_Sourcebooks/2. . . .
---------------------------------------------------------------------------
    Some observers also have raised concerns about the number of 
individuals in immigration detention (429,000 in 2011). However, 
immigration detention is of relatively short duration (average 29 days) 
compared to the federal prison system, where only two percent stay less 
than one year. There are far fewer immigration detainees than federal 
prisoners at any one time; the average daily immigration detainee 
population is about 33,000, compared to about 218,000 inmates in the 
Bureau of Prisons system.\5\ Immigration offenders make up only 12 
percent of the federal prison population, although 26.5 percent of 
federal prisoners are non-citizens. But the immigration detention 
system is not at all like the federal prison system in purpose or 
nature. Immigration detention is more comparable to the local jail 
system, which has an average daily population of about 750,000 inmates.
---------------------------------------------------------------------------
    \5\ The total federal prisoner population is comparable to an 
average daily population, because nearly all of the federal prisoners 
are serving long sentences of more than one year.
---------------------------------------------------------------------------
    Obama administration officials have pointed to what they claim is a 
record number of removals and returns--409,000 in 2012, out of more 
than 11 million illegal residents--as evidence that the government is 
doing as much as it can, perhaps even more than enough, immigration 
enforcement. But as the president has said, these numbers are 
``actually a little deceptive:''

    <bullet>  The 2012 deportation numbers are not a record, using the 
current methodology of counting both removals and returns. According to 
the annual yearbook of immigration statistics, in 1996 removals and 
returns numbered more than 1.6 million, up from more than 1.3 million 
in 1995.

    <bullet>  The ``dramatic'' recent increases in deportations, 
removals and returns actually occurred between 2005 and 2009; since 
then, the numbers have flattened out noticeably.\6\
---------------------------------------------------------------------------
    \6\ DHS Immigration Enforcement Actions, 201, http://www.dhs.gov/
immigration-enforcement-actions-2011.

    <bullet>  It has been established that recent deportation 
statistics are heavily padded with cases that were not previously 
counted as such.\7\
---------------------------------------------------------------------------
    \7\ Rep. Lamar Smith, http://www.washingtontimes.com/news/2012/sep/
26/obama-puts-illegals-ahea. . . .

    <bullet>  ICE arrests have been trending downward since 2008, after 
a sharp rise that year. It's hard to understand how deportations can be 
rising when apprehensions are falling.\8\
---------------------------------------------------------------------------
    \8\ DHS Immigration Enforcement Actions, 2011.
---------------------------------------------------------------------------
           the meager history of enforcement at the workplace
    But the most conspicuous void in immigration law enforcement has 
been in the area of workplace enforcement. Enforcement of immigration 
laws at the workplace is essential to gaining control of illegal 
immigration and to addressing the most significant negative effects of 
immigration, namely the displacement of legal workers and the 
deterioration in wages for those U.S. workers who must compete with 
illegal workers.
    Workplace enforcement is as important as securing the border 
itself, for several reasons. Illegal immigration occurs in many ways, 
including illicit border crossing, overstaying a legal visa, and using 
false documents. Any strategy that relies solely on securing the border 
is doomed to fail, because it will miss as many as half the illegal 
entrants. Secondly, border security is limited by the physical 
challenges of the terrain and by the government's financial resources. 
And, as long as there are employers willing and able to hire illegal 
workers, the workers will try to come.
    An effective workplace strategy provides employers with the tools 
to enable them to comply voluntarily and also holds them accountable 
for their violations and their role in sending the message that illegal 
workers are welcome. Routine, frequent and thorough enforcement 
discourages illegal workers by creating an expectation that they could 
be subject to arrest and removal at any time. Such policies of strict 
enforcement of the laws against illegal employment have been shown to 
be effective, both in reducing the flow of new illegal immigrants and 
in reducing the size of the settled illegal immigrant population.
    In 1986, Congress attempted to address the illegal immigration 
problem with a grand bargain: a large share of the resident illegal 
population would receive amnesty, and future illegal flows would be 
prevented by the implementation of employer sanctions, to be enforced 
by the Immigration and Naturalization Service (INS). For the first 
time, it became expressly illegal to knowingly hire, recruit, or refer 
for a fee someone who was not authorized to work in the United States. 
Employers were required to check documents presented by new hires to 
establish that they were authorized to work, and record the information 
on form now known as the I-9. The sanctions included fines and possible 
prison time for the act of illegal hiring and for not properly checking 
the status of new employees.
    The federal government was quick to implement the amnesty program, 
but never followed through with the enforcement of employer sanctions. 
In fact, it seems that they were never intended to be allowed to work 
at all.
    Many have blamed Congressional drafters for deliberately creating a 
clumsy system in which employers were required to ask new hires for 
documentation, but not expected or required to verify the information 
(and there was no easy way for them to do so anyway). The law allowed 
for more than a dozen different forms of identification to establish 
work authorization. As a result, many workers simply began providing 
false documents, and a booming trade in false identification for 
employment purposes was born.
    But executive branch officials, under the influence of political 
appointees with ties to major business, agricultural, and industrial 
special interests, were equally complicit in creating a workplace 
enforcement system that was built to fail.
    First, it was decided that a significant share of the INS 
enforcement resources would be directed toward an ``employer sanctions 
education mandate.'' It was essentially an outreach program to inform 
the nation's employers of the new law and their new responsibilities. 
This outreach was to be performed primarily by the agency's corps of 
special agents--and had the effect of taking the sworn law enforcement 
officers who were trained and empowered to investigate violations off 
their beat.
    Next, the agency leadership crafted the regulations in such a way 
as to ensure that very few employers would actually be subjected to 
sanctions that were painful enough to deter illegal hiring. The 
regulations included the following provisions:

    <bullet>  Employers were to be notified three days in advance of 
agents arriving to audit the personnel forms (I-9s), providing 
employers with a chance to create the appearance of compliance;

    <bullet>  Before sanctioning an employer, whether for knowingly 
hiring illegal workers or for improper paperwork, agents had to obtain 
advance clearance from both the operational supervisors and the general 
counsel's office in headquarters. These two offices put every single 
notice of intent to fine through a such a wringer of review that very 
few sanctions were ever approved;

    <bullet>  In the event that an employer fine was approved, the case 
was handed off to the agency lawyers in the field, who typically 
preferred to negotiate settlements with the employers that knocked down 
the fines to literally pennies on the dollar. Agents were not allowed 
to participate in the settlement negotiations to provide input on the 
seriousness of the illegal hiring practices, or make the case for tough 
sanctions.

    The result was that employers failed to take the sanctions 
seriously and were able to absorb any meager penalties as a cost of 
doing business. Nevertheless, each year the INS completed thousands of 
employer investigations. According to the agency's statistical 
yearbooks, each year between 1992 and 1998, agents completed 5,000 to 
7,000 employer investigations resulting in between 7,500 and 17,500 
arrests. But even these efforts were a drop in the bucket relative to 
the scale of illegal hiring at the time.
    These policies remained in place until the demise of the INS. Under 
the Clinton administration, the situation worsened. During the tenure 
of Commissioner Doris Meissner, the size of the corps of special agents 
in the Investigations division (comparable to today's Homeland Security 
Investigations division, without the customs, intellectual property, 
and counterfeit goods responsibilities) shrank to about 500 (compared 
to about 7,000 today). Worksite enforcement and employer sanctions 
ranked as no more than a footnote in the agency's priorities, and most 
agent productive hours were directed toward casework such as drugs, 
gangs, and alien smuggling.\9\
---------------------------------------------------------------------------
    \9\ Andorra Bruno, ``Immigration-Related Worksite Enforcement: 
Performance Measures,'' Congressional Research Service, 7-5700, June 
24, 2010.
---------------------------------------------------------------------------
    Under the Bush administration, initially, INS priorities were 
focused on primarily on streamlining the processing of immigration 
benefits applications, until the events of 9/11, when the focus became 
national security, and the agency was dismantled and its enforcement 
functions assigned to CBP and ICE. Given the national security focus 
that pre-occupied the agency at that time, in the early years of ICE, 
worksite investigations were at first focused mainly on critical 
infrastructure work places such as airports.
    In 2005, the GAO issued a report noting that competing priorities 
at ICE had brought worksite enforcement to a near stand-still.\10\ The 
auditors found that between 1999 and 2004, the number of employers 
fined either for substantive or paperwork violations had declined from 
417 to 3.
---------------------------------------------------------------------------
    \10\ Government Accountability Office, ``Immigration Enforcement: 
Weaknesses Hinder Employment Verification and Worksite Enforcement 
Efforts,'' GAO-08-813, August, 2005.
---------------------------------------------------------------------------
    Following this report, ICE received an infusion of funding to hire 
additional compliance officers, agents, and managers to devote to this 
program. Activity gradually increased over the next several years. 
Field offices planned and carried out carefully-executed raids and made 
a record number of arrests of illegal workers at meatpacking plants, 
factories, and even smaller employers such as restaurants and retail 
establishments. The number of administrative and criminal arrests in 
worksite operations seems to have peaked in 2008, when there were more 
than 5,000 administrative arrests and more than 1,000 criminal 
arrests.\11\
---------------------------------------------------------------------------
    \11\ Bruno.
---------------------------------------------------------------------------
    In early 2009, the Obama administration adopted new policies on 
worksite enforcement, placing the focus on conducting paperwork audits 
of more companies while deliberately avoiding contact with illegal 
workers. It is difficult to evaluate the productivity of this new 
approach, because ICE no longer publishes detailed worksite enforcement 
statistics, and the few statistics that are released are not comparable 
with earlier years. But judging from various limited records I have 
reviewed that were released through the FOIA process, there is a great 
deal of inconsistency among ICE investigative field offices in how they 
go about worksite enforcement. Some offices target employers that are 
suspected of egregiously hiring large numbers of workers; others tend 
to select employers where few suspected illegal workers are found in 
the paperwork, but they can still claim to have completed many audits. 
Some offices push hard to impose large fines, others prefer to issue 
mainly warnings, even in cases where large numbers of suspected illegal 
workers were found on the payroll.
    In addition, I have found some inconsistencies in the way ICE 
apparently is classifying its investigations, which leads me to wonder 
if they might be manipulating case reporting statistics in order to 
give an inflated impression of the level of worksite enforcement. 
Listed under the ``Worksite'' section of the ICE Newsroom page, I found 
several press releases about investigations that were clearly criminal 
in nature, and could not reasonably be classified as ``worksite 
enforcement.'' So-called ``worksite'' cases I found included 
prosecutions of the leaders of a prostitution ring in Florida and the 
owner of a motel in El Paso used as a drophouse for 5,000 smuggled 
aliens.
    On the other hand, some of my sources report of another multi-state 
prostitution ring investigation (reportedly involving underage girls) 
that was initiated by the Border Patrol and later turned over to ICE 
was reportedly dropped because it would have led to discoveries of 
widespread illegal hiring practices at dairy farms in northern Vermont.
    The one consistent theme of worksite investigations in recent years 
seems to be that arrests of workers are to be avoided at all costs. 
This raises legitimate questions as to the value of an audits-only 
approach.
    Our research shows that there are advantages, disadvantages and 
trade-offs to raids and audits, and the most effective approach is 
probably a blend of both. Raids are very effective for the purposes of 
penalizing both workers and employers. Both employers and workers can 
be caught red-handed, making it easier both to apprehend and remove the 
workers and to prosecute the employers, in large part because the 
workers can testify against the employer. In addition, the negative 
publicity associated with a raid can be a deterrent to illegal hiring. 
On the other hand, some consider the raids to be excessively 
intimidating to both workers and employers, as ICE agents will use 
customary law enforcement procedures in order to maintain order and 
prevent escape or violence. The raids are costly to the U.S. government 
as, depending on the size of the operation, they may require hundreds 
of agents, months of preparation, and complex logistics.
    Audits, on the other hand, are largely a paperwork exercise and 
enable ICE to examine the practices of a much larger number of 
employers than is possible through raids. Audits might be part of a 
full investigation that culminates in a raid, but it is also possible 
to perform an audit without the business disruption of a raid. The 
auditors can, for the most part, easily determine which employees lack 
authorization using the standard verification tools. On the other hand, 
the audits may not detect employees working under the table. The audits 
offer no opportunity for ICE to apprehend the illegal workers. The 
employer is required to terminate an unauthorized worker discovered by 
the audit, but the worker is free to find employment elsewhere. In 
general, the audits result in lesser sanctions on employers who are 
found to be violating the law. Without the testimony of the workers, it 
can be very difficult for ICE to make a case or press charges on an 
employer for knowingly hiring illegal workers.
    Conclusion. Enforcement of immigration laws at the workplace is not 
a substitute for border enforcement, but is ultimately a more effective 
approach. Since a significant number of illegal aliens enter legally on 
visas as well as illegally over the land borders, any strategy to 
control illegal immigration must operate beyond the border and disrupt 
the magnet of employment, which is what causes most illegal immigrants 
to settle here. Workplace enforcement accomplishes that by targeting 
and deterring the employers of illegal workers and by penalizing the 
workers who are apprehended at the workplace. Workplace enforcement is 
flexible, with a variety of layers including both voluntary compliance 
on the part of employers and sanctions against egregious or knowing 
violators. Finally workplace enforcement provides a direct benefit to 
U.S. workers by opening up job opportunities and improving wages and 
working conditions as a direct result of the enforcement action.
                               __________

    Mr. Bachus [presiding]. Mr. Chishti.

 TESTIMONY OF MUZAFFAR A. CHISHTI, DIRECTOR, MIGRATION POLICY 
      INSTITUTE'S OFFICE AT NEW YORK UNIVERSITY LAW SCHOOL

    Mr. Chishti. Thank you, very much, Mr. Chairman and other 
Members of the Committee who are here this afternoon. I will do 
my testimony in two parts, first about immigration enforcement. 
We at the Migration Policy Institute recently issue a 
comprehensive report on immigration enforcement in the United 
States. I would urge that this be admitted into the record.
    Mr. Bachus. Without objection.*
---------------------------------------------------------------------------
    *The Migration Policy Institute (MPI) report submitted by Mr. 
Chishti titled Immigration Enforcement in the United States, the Rise 
of a Formidable Machinery, by Dorris Meissner, Donald M. Kerwin, 
Muzaffar Chishti, and Claire Bergeron, is not reprinted in this hearing 
record but is on file with the Committee. The report can also be 
accessed at:

    http://www.migrationpolicy.org/pubs/enforcementpillars.pdf.
    Mr. Chishti. Based on that report, by almost any metric 
that is publicly available, from staffing all the way to 
apprehensions and worksite enforcement, the level of 
immigration enforcement in the United States now stands at a 
record high. Nearly $18 billion was spent in fiscal 2012 in the 
Federal Government's two main immigration enforcement agencies, 
ICE and CBP, and the US-VISIT program. It is exactly $17.9 
billion, i.e. 24 percent greater than the combined fiscal 2012 
budgets for all other principal criminal Federal law 
enforcement agencies--from the FBI, DEA, ATF, Secret Service 
and U.S. Marshals. These major resource enforcements have lead 
to notable results.
    Perhaps, most significantly, Mr. Chairman, Border Patrol 
apprehensions fell by 78 percent between fiscal 2000 and 2012. 
That is from about 1.6 million to 365,000 people.
    There has been a dramatic increase in the number of non-
citizens deported from the United States. The DHS removed just 
under 392,000 people in 2011, more than double the number 
carried out by the INS in fiscal 2002.
    Since 1990, more than 4.4 million non-citizens have been 
deported from the United States; 42 percent of which, i.e. 1.9 
million, have occurred since 2008. Increased deportation has 
been accompanied by a paralleled trend in increased 
prosecutions for criminal immigration offenses, and these are 
mostly illegal entries and illegal reentries.
    Today, immigration prosecutions make up more than half of 
all the Federal criminal prosecutions initiated. CBP alone 
refers today more cases for prosecution than the FBI, and CBP 
and ICE together refer more cases for prosecution than all the 
Department of Justice's law enforcement agencies combined.
    The number of employers enrolled in the E-Verify program 
has gone up from 6,000 in 2005 to more than 353,000 today.
    Finally, and equally important, yet less visible change has 
been the development of new technology and databases that link 
immigration enforcement agencies' programs and systems. The 
system, called IDENT, administered by US-VISIT, has now become 
the world's largest biometric law enforcement database.
    It contains more than 148 million individual fingerprint 
records, grows at 10 million new entries per year and reflects 
more than 2 billion individual entry events. The new databases 
and their interoperability have been critical in the 
government's enforcement mission.
    Quickly let me turn to three key weaknesses associated with 
the Immigration Reform and Control Act of 1986, the last time 
Congress dealt with a comprehensive immigration reform.
    A key drawback of IRCA'slegalization component was the law 
disqualified those who had arrived in the U.S. after January 1, 
1982, and did not provide an opportunity for immediate family 
members of newly legalized population to obtain status. This 
combination left a large number of people in mixed-status 
families and created the nucleus of the sizeable post-1986 
unauthorized population.
    For any new legalization program to be successful, Mr. 
Chairman, it should be as inclusive as possible. The law should 
not disqualify large sections of unauthorized population, as 
doing so both invites fraud and fails to address the full scope 
of the problem.
    IRCA's ultimate failure was its narrow focus. The law did 
not anticipate or make provisions for future labor needs, 
especially in the low-skilled labor markets. A mechanism for 
including flexibility and establishing the types and numbers of 
admission for future flaws does not exist.
    To meet that need, we have recommended the creation of a 
provisional worker program which sort of bridges temporary and 
permanent immigration, and the creation of an independent 
commission on immigration, which would set the level of people 
we need on a regular basis.
    Lastly, IRCA failed to have a good defensible 
implementation program for the worksite. In the absence of a 
reliable mechanism, employers honored verification documents as 
presented, but those were frequently fraudulent. The 
development of E-Verify, along with declines in the system's 
error rate, I think provides us today a real opportunity of 
improving E-Verify. But for us to make it mandatory, I think is 
a big step. Today only 350,000 employers are currently enrolled 
in E-Verify. That covers only a small percentage of the 
Nation's 7 million employers and more than 140 million workers. 
Extending it to all workplaces should be done in stages to show 
that it is not unduly burdensome to employers and provides 
protection to lawful workers.
    In conclusion, Mr. Chairman, the Nation has built a 
formidable immigration enforcement machinery in recent years. 
The enforcement-first policy that has been advanced by many 
inside and outside the Congress as a condition for looking at 
larger reform has de facto become the Nation's dominant 
immigration policy.
    Important as this enforcement is, enforcement alone is not 
sufficient to answer the broad challenges that both legal and 
illegal immigration pose for our society, our economy, and for 
America's future. Looking forward, answering these challenges 
depends not only on effective enforcement but also on enforcing 
the laws that address both inherent weaknesses in the 
immigration system and better align our immigration policy with 
the Nation's economic and labor market needs and future growth.
    Thank you for allowing me to testify. I will be willing to 
answer any questions.
    [The prepared statement of Mr. Chishti follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Bachus. Thank you.
    Ms. Wood, I think your testimony, could I summarize part of 
it, is that our enforcement mechanism is failing?
    Ms. Wood. Yes, I think that--I think that we have not done 
all we need to do, and I think the long period of inconsistent 
enforcement has caused people to build up, who are here 
illegally, to build up very sympathetic equities and put us in 
a bad position. So if we are going to do this again, we have 
got to get enforcement right and get it right from the get go; 
otherwise, we will be in the same position.
    Mr. Bachus. You know,I have talked to people in the 
construction industry that have bid against companies that were 
using or companies that were hiring large numbers of illegal 
workers, and sometimes bidding jobs for half million dollars 
less because of their savings on their wages alone. And of 
course, that undermines what our own citizens who work in the 
trades can make.
    And you mentioned $10,000 as a fine, and I can tell you 
that I actually saw that about 2 years ago, in Alabama, a firm 
that had a several million dollar construction contract was, 
about a third of their employees were illegal, and they were 
fined $10,000; although the profit from that job was probably 
close to a million dollars. So that, obviously, so many of the 
fines are sort of a slap on the wrist and just a part of doing 
business. Would that be correct?
    Ms. Wood. Yeah, I think that is the case. I think what the 
civil fines have done is broaden awareness, and so I think 
early on, in the Administration, you know, we did see increased 
awareness from companies across a broad spectrum of industries. 
And construction, you know, historically, has had a lot of 
problems in this area, but I think now, as a number of 
employers have gone through the audit process and end up with 
very low fines, they think, well gee, it is just easier to keep 
going as is versus getting on to E-Verify, paying attention, 
fully training our workers and so on.
    You know, but I do think shifting the burden back to the 
government would make a big difference because you are asking 
these, your document clerks, who are often earning $10, or $11 
an hour to, you know, look at, does this driver's license and 
Social Security card look good? It went through E-Verify okay, 
but do I think it is good? You know, that is a lot to ask, and 
the government should be doing this versus the employers.
    Mr. Bachus. I see where it says, one of the reasons that 
ICE increased worksite enforcement efforts under your 
leadership to give the American people the confidence that 
enforcement component of any proposed comprehensive immigration 
reform would in fact be implemented. What can Congress do to 
best assure that that continues, or that that is the case?
    Ms. Wood. It is so that we have confidence in our 
enforcement system.
    Mr. Bachus. Uh-huh.
    Ms. Wood. I think to look at our system overall and see 
kind of, how is it funded? Is it funded appropriately? Do we 
have the tools and technology we need, not only at the border 
but in the interior? You know, do things like an exit system, 
you know, things like that. What are we doing to make sure that 
we have the tools that we need?
    ICE has about 7,000 agents. That is fewer than many city 
police departments. And so with all respect to the great work 
done with MPI, we have a huge, huge, ICE has a huge, huge task. 
And so, you know, how can we give them the tools that they 
need?
    And then I think looking at, are there inefficiencies in 
the removal system? It shouldn't take 2 years to get, you know, 
a hearing date in California to determine whether or not I am 
in the country illegally. You know, the system should move more 
quickly.
    There are things that we can do including, you know, 
potentially expanding the use of voluntary returns. Expanding 
the use of expedited removal in other cases, you know, I think 
would also make a difference and, you know, build confidence.
    Mr. Bachus. All right.
    Mr. Crane, your testimony was fascinating, and part of it 
was that you actually have been given instructions and you are 
a member of--you are a representative of an enforcement 
officers union, and is that a widespread practice for them to 
verbally tell you just to assume that everyone has a high 
school diploma or qualifies to be here?
    Mr. Crane. Yes, sir, I mean, to some degree especially, and 
I have testified about this before, over the last 4 years it 
has been a day-to-day roller coaster for us about who we can 
and cannot arrest. And for the most part, those instructions do 
come verbally because they know that what they are doing isn't 
right, and they don't want the American public to know what 
they are doing.
    Mr. Bachus. And those instructions are basically, don't 
make arrests?
    Mr. Crane. Absolutely. And you know, a lot of people don't 
know this, but ICE agents, at least in the group that I work 
with, that handle the immigration issues, we are not allowed to 
go out and make arrests on the street. If I am on duty and I 
walk into a restaurant or something and I see an immigration 
violation in front of me, I can't do anything about that. If I 
do, I will be disciplined for it, and I will be disciplined for 
it again, until I lose my job. And that is how it works.
    And people don't understand that if we are ever going to 
fix this immigration problem, we have to empower these officers 
to do their jobs. It is all about politics. They don't want 
something to be in the newspapers.
    Mr. Bachus. Tell me a little about your lawsuit again, 
that--the basis of the lawsuit that you and other ICE agents 
filed against Homeland Security in the Federal District Court 
in Texas?
    Mr. Crane. Well, just basically, it is a lawsuit that says 
the Federal Government won't let us do our jobs. They won't let 
us enforce the laws that are on the books, and they have put us 
in this, you know, between a rock and a hard spot, basically, 
to where we can either enforce the law and be disciplined and 
lose our jobs, or we can ignore the law.
    So we tried to work with the Administration on this. We 
tried to work at the folks up at ICE and DHS, and they wouldn't 
work with us, and we had no other choice but to file a lawsuit.
    Mr. Bachus. Okay, thank you.
    Ms. Lofgren.
    Ms. Lofgren. Thanks to this panel.
    I agree that the workplace fines ought to be increased 
after we reform the law, so it works. And I think it has been 
stated that people who cheat, you know, end up getting an 
advantage--excuse me--over people who don't cheat, and that is 
not right. So--excuse me--I think that is something that we 
ought to come together to solve on a bipartisan basis.
    I would note, however, that the amount of fines are way up. 
Ten million may not be a lot, but in 2006, the amount of fines 
was zero. So it is better than it was and needs to be improved.
    I am also interested, Mr. Chishti, on--your institute has 
done scholarly work on that, on this whole issue.
    Mr. Chishti. Thank you.
    Ms. Lofgren. And that is hard to get information that isn't 
politicized, in a way, because you just get the numbers. And 
one of the questions that we have had here today, is why didn't 
the IRCA work? And I think the assumption is that it was lack 
of enforcement, and in fact, sometimes enforcement was lacking, 
but that is not currently something we are seeing. And many of 
us think part of the problem, just as Dr. Land said, was that 
we didn't have any way for people who wanted to legitimately 
work to come in. I mean, people say, get to the back of the 
line. There is no line to get into. And so that I think is one 
of the major defects.
    Some say, however, that the H-2A program was in and of 
itself sufficient to deal with all of the future flow issues. 
Do you think that is correct?
    Mr. Chishti. I mean, I cut my teeth in the 1986 law, and I 
know for sure that no one that I know of talked that the H-2A 
program or the replenishment agricultural worker program that 
was going to follow it was supposed to be the comprehensive 
response to our future labor market needs. That was confined to 
the needs of the agricultural sector. And as you know full 
well, Congresswoman, not a single person was admitted under the 
law's program.
    The real weakness of IRCA was that it was too narrow. It 
just focused on the issues of illegal immigration, and we were 
in a bit of a recession at the time in 1986. But soon after 
IRCA was signed by President Reagan, there was a post-recession 
period, when there was significant demand for all sectors of 
employment in the United States, and there were no legal 
channels for people to come. But the supply and demand matched 
post-1986, but instead of using legal channels, the workers 
that we needed here were increasingly using illegal channels to 
meet the demand, and that is precisely the nucleus of our 
present 11 million unauthorized population.
    Ms. Lofgren. So now we have a mess on our hands, and the 
question is, I really think, how do we clean up the mess we 
have found ourselves in and then create a system so no future 
mess is created for some future Congress to have to deal with? 
And I think that is the challenge that we face.
    Part of that is how we treat employment-based immigration. 
I think there is broad agreement that somebody that has just 
gotten their Ph.D. in electrical engineering is going to go out 
and create companies and the like, but there are plenty of 
parts of the employment sector where we know, because there 
have been tests, because of enforcement, that Americans are not 
lining up to do the work. I mean, for example, the easiest 
example is migrant farm work. I mean, when you do enforcement 
actions, farmers end up plowing over their fields.
    I think what we have learned is that after IRCA was 
enacted, with its reliance on employer sanctions, there were 
evasive tactics taken. For example, employers created so-called 
contract employers, where they used labor contractors, or other 
middle men. Do you have advice for us, as we craft future flow 
requirements, to avoid, you know, tricks to avoid employers 
going to those evasions so that we have a system that works for 
America and that is enforceable and will not lead to evasion?
    Mr. Chishti. Yeah, thank you so much. And I think it is 
also the kind of question that we saw on the first panel today, 
Congressman Labrador's point about what did we do wrong in 1986 
and why can't we be in the same place? I mean, part of the 
reason is exactly the response to your question, is that we 
didn't have laws that matched reality. And we know one thing 
about law making: If you have laws that do not correspond to 
reality, they do not work. We enacted laws in 1986 to clean up 
the slate. We thought about the people who wanted to be 
legalized, but we created no mechanism for future flows. We 
created an employment verification system but put huge amounts 
of loopholes in it, including the loopholes that the 
Congresswoman just talked about, where people, employers, were 
able to circumvent the requirement of E-Verify by hiring 
contractors, contract workers, by hiring, you know, people off 
the books.
    Now, if we are going to tackle the same problem this year, 
we have to learn from 1986. First, we have to build robust new 
streams of people to come exactly to meet the real labor market 
needs of the United States, which I think, you know, is the 
whole spectrum of our occupations, from high end to the low 
end. And they should be measured on the basis of real labor 
market needs and America's needs for economic growth.
    On the E-Verify, clearly, there are good employers and bad 
employers. The good employers are following E-Verify. The bad 
employers, I would suggest to you, Congresswoman, are exactly 
the same who violate the sanctions, but also those who violate 
our tax laws, who violate the labor protection laws. The 
important thing is to go after those employers, and one of the 
things I would recommend is that you build certain amount of 
labor protections in your next round of legislation.
    It has sort of been the stepchild in this debate so far: 
about labor protections. And I would suggest that the least we 
have to do is that an employer should not be able to invoke the 
defense of employer sanction when they are violating labor laws 
of the country. We all know the Supreme Court issued a major 
decision on that case in Sure-Tan, whereby undocumented workers 
were not found eligible for back pay. All that does is provide 
incentive for employers to hire undocumented workers. That kind 
of incentive has to be taken away in our legal mechanism, and I 
would say Congress should legislatively try to remedy Sure-
Tan.*
---------------------------------------------------------------------------
    *Mr. Chisti revised his testimony as follows:

        It has sort of been the stepchild in this debate so far: 
      about labor protections. And I would suggest that the least 
      we have to do is that an employer should not be able to 
      invoke the defense of employer sanction when they are 
      violating labor laws of the country. We all know the 
      Supreme Court issued a major decision on that case in 
      Hoffman Plastic, whereby undocumented workers were not 
      found eligible for back pay. All that does is provide 
      incentive for employers to hire undocumented workers. That 
      kind of incentive has to be taken away in our legal 
      mechanism, and I would say Congress should legislatively 
      try to remedy Hoffman Plastic.
    Mr. Bachus. Thank you.
    Mr. King.
    Mr. King. Thank you, Mr. Chairman.
    I thank the witnesses for your testimony. It raises a 
series of questions for me, and listening to Mr. Chishti and 
your testimony, I would be curious if you talked about the 
violation of our tax laws and our labor laws. And I am curious 
if you believe that employers should be able to deduct as a 
business expense wages and benefits that they pay to people 
that cannot lawfully work in the United States.
    Mr. Chishti. Well, I think with respect to taxation, all 
laws should be uniformly applied. If they are hiring people, 
whether they are hiring unauthorized or whether they are hiring 
people who are lawfully here, they should be subjected to the 
same tax regime.
    Mr. King. Okay, so the same tax regime?
    Mr. Chishti. Otherwise, all you are doing, Congressman, is 
creating incentives to hire unauthorized.
    Mr. King. So, Congress should clarify current law that it 
is unlawful to knowingly and willfully hire people that can't 
lawfully work in the United States, and that those expenses 
paid as wages and benefits would not be deductible. If we did 
that and brought the IRS into this equation to help enforce the 
rule of law, wouldn't that be constructive, even to your 
testimony?
    Mr. Chishti. If it does not create a further incentive for 
employers to hire unauthorized people, I think we should look 
at those alternatives.
    Mr. King. And if we gave the employers safe harbor if they 
used E-Verify, then we wouldn't have it mandatory, as I think 
you have suggested we should not, that would allow it to be 
voluntary and the employer could determine whether he wanted to 
take the IRS risk, could he not?
    Mr. Chishti. Congressman, I am sorry.
    Mr. King. I wanted to give you an opportunity to examine 
this more thoroughly, but I imagine you will now at this point.
    And I wanted to point out, or ask the question of Mr. 
Crane, and that being, I just listened to the gentlelady from 
California. She said, after we reform the law so it that it 
works. That causes me to ask you this question: If we had 
enforced the laws that exist, would it work?
    Mr. Crane. You are actually kind reading my mind right now. 
I was sitting here pondering that idea that I don't think we 
really even know that the laws that we have on the books right 
now weren't good laws. We just never enforce them. Until we 
decide that we are going to enforce whatever laws we have or 
make in the future, it is never going to work.
    Mr. King. Thank you.
    And Ms. Wood, welcome back. I appreciate your testimony. 
And I heard Mr. Chishti talk about accumulated data of millions 
of people who were deported. When you hear that testimony, do 
you think of people that were--that left the United States and 
actually left the United States, or are they just adjudicated 
for deportation? Did you break down that data in your own mind 
as to what really happens with the population that he 
references in his testimony?
    Ms. Wood. Well, I can't speak specifically to the numbers 
he provided in his testimony, but a big problem is, a lot of 
times people are deported, and they don't go home and so the 
number of absconders, you know, as you know, went up to over 
500,000 in 2006. And, you know, the question is, are we then 
looking for those individuals? Are we arresting them, and are 
we ordering them to leave the country?
    And in some cases, they may have very substantial equity so 
there may be very sad stories, or are we telling those people 
now they have a pass? And that is where I can't break down his 
numbers to address which situations are involved there.
    Mr. King. But we might hear the term ``deportation'' and 
think of it in terms of it is always something that is 
physically forced, when actually, it is an adjudication process 
that might not cause a person to go anywhere except outside the 
courtroom. Is that true?
    Ms. Wood. Yeah, and someone can be ordered deported and 
then stay in the United States, yes. And I don't know from his 
statistics which he is talking about.
    Mr. King. I just remembered. I hate to go back on this, but 
I got my curiosity answered on that, and I just recall some 
data at one of the ports of entry where they asked them to go 
back and run the fingerprint data to see, and there was one 
individual that had reentered--or had reentered 27 times back 
into the United States. So it isn't always a situation that 
something gets solved here either.
    Ms. Wood. That is exactly right. And you know, sometimes 
the Border Patrol would deport, you know, somebody or apprehend 
somebody 10 or 11 times in one night. It would all count toward 
apprehensions. So a lot of the numbers and statistics that the 
agencies use, you have to take that into account.
    Mr. King. It might be more frustrating to be a Border 
Patrol agent than an ICE agent then, rhetorically.
    Ms. Wood. I don't know about that. I think ICE agents have 
an incredibly hard job.
    Mr. King. I agree. And I appreciate the work of all of our 
agents. But I wanted to turn in the seconds I have to Ms. 
Vaughn and ask you that, we have an E-Verify program now and a 
proposal to make it permanent that would not allow an employer 
to use E-Verify to check their current or legacy employees. And 
would you care to comment on that philosophy? And mine is, I 
think an employer should be able to at least voluntarily use E-
Verify to verify their current employees as well as new hires. 
And I believe they also should be able to use E-Verify on 
prospective hires with a legitimate job offer.
    Ms. Vaughn. From what I have heard about from a number of 
employers who are interested in using E-Verify, they would very 
much like--especially staffing agencies. They say that it, you 
know, it creates some difficulties for them to not be able to 
be sure if they can send someone out to a workplace while 
waiting for the E-Verify process to play out. So they would 
like to be able to use it prospectively.
    And I think, yes, ultimately, we should build a system that 
it is phased in so that, at some point, employers are able to 
go through their entire payroll and vet all of their existing 
employees.
    But there is already a system in place that allows them to 
do that, and that is SSNVS. A number of government agencies 
around the country have mandated use of that program, and they 
have, frankly, been quite surprised at what they have found of 
the number of people already on the payroll who shouldn't be.
    Mr. King. I appreciate you putting that into the record, 
thank you.
    Mr. Chairman, I yield back.
    Mr. Bachus. Thank you, Mr. King.
    Ms. Jackson. Sheila Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    First of all, I want to thank Mr. Crane for his service, 
and I want to thank also all of you for being here today. And I 
want to again ask the Chairman if I might put into the record 
the entire article, ``Janet Napolitano, DHS Secretary, Touts 
Immigration Enforcement at Mexican Border.''
    Mr. Bachus. Without objection.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Ms. Jackson Lee. And again, those numbers indicate 356,873 
apprehensions on the Mexican border in 2012, up almost 9 
percent. And I thank the Chairman for that.
    I just wanted to hear from Mr. Crane. I did not hear, you 
said you had to sue the Federal Government for what reason?
    Mr. Crane. I am sorry, ma'am, I didn't hear what you said.
    Ms. Jackson Lee. You had to sue the Federal Government for 
what reason, I am sorry?
    Mr. Crane. Essentially because the agency has told us that 
you can't enforce U.S. immigration law, and if you attempt to 
enforce that law, we will discipline you, basically repeatedly, 
until you lose your job, until you are terminated.
    Ms. Jackson Lee. And is that dealing with the deferred 
adjudication for DREAM Act children, that order that came out?
    Mr. Crane. Adjudication for what, ma'am?
    Ms. Jackson Lee. Did that deal specifically with the 
deferred adjudication for the DREAM Act children? Is that the 
particular order you are speaking of.
    Mr. Crane. We are speaking in the lawsuit about the 
prosecutorial discretion memorandum as well as DACA.
    Ms. Jackson Lee. And that is a prioritization that you 
focus more on those who would do us harm in deportation as 
opposed to separating families. That was the intent of that 
order, as I recollect, but that is the order that you speak of, 
where you were asked to prioritize the deportations?
    Mr. Crane. I guess if you want to put it that way, like I 
gave in my testimony earlier, we are actually going into jails 
and applying it to adult males. We don't go to schools. ICE 
agents can't go to schools. We don't mess with kids. We are 
going into jails, and we are applying this rule, or this new 
policy to criminals, and we are taking their word for it and 
not even requiring them to provide proof that they even qualify 
for the policy itself.
    Ms. Jackson Lee. If we pass comprehensive immigration 
reform and we established once and for all the parameters of 
the law, and it was the law, that would be more helpful to law 
enforcement such as yourself, is that not correct?
    Mr. Crane. I guess in theory it would be, ma'am. I guess it 
would, again, like everyone has testified today, what does 
comprehensive immigration reform really mean?
    Ms. Jackson Lee. It means that you would know the 
distinction between those who were here in the country legally, 
and those who were not. Those who complied had green cards, had 
status, and so you would know the difference and you wouldn't 
have to speculate.
    Mr. Crane. Well, I don't speculate, ma'am. I am trained. I 
know who is here legally and who isn't here legally.
    Ms. Jackson Lee. But you know that, sir, by the laws that 
the Congress of the United States passed.
    Mr. Crane. Yes, ma'am.
    Ms. Jackson Lee. So if we were to pass a comprehensive 
immigration reform that included border security, had 
enforcement aspects delineated, so that as a trained ICE 
officer, you would know the distinction, that would be better 
for you?
    Mr. Crane. The more distinction that we have under the law 
is always going to be better for us. But at the same time, we 
have to have political leaders stay out of our business, 
essentially, and let us enforce the laws that are on the books, 
which is what is not happening right now.
    Ms. Jackson Lee. Well, political leaders dictate what the 
laws are on the books, and I appreciate that. As I said, I am 
grateful for your service, work very well with ICE officers and 
CBP. I am Ranking Member on the Border Security Committee and 
Homeland Security and look forward to working with you 
extensively. But my question again, and I just need a yes or 
no, if we have laws on the books that are clear to you as a law 
enforcement officer and help distinguish between those who were 
here not to do us harm, families that need to be reunited, and 
make it clear so you understand the distinction of enforcement 
and what your laws are, that would help you do your job, is 
that not correct?
    Mr. Crane. If I understand the question correctly, yes, it 
would, ma'am.
    Ms. Jackson Lee. Thank you.
    Mr. Chishti, let me pose a question to you very quickly. I 
have legislation that introduces something called the visa 
family visa appeals board. As you well know, on the enforcement 
end, when we separate families, we don't give any option other 
than possibly through the court system, as opposed to giving an 
option for an appeal where they can actually deliberate and not 
be deported, provide the facts before they get into court. You 
have already mentioned that our courts are literally at a 
stranglehold. Would an interim visa appeal board on family 
reunification be a helpful process?
    Mr. Chishti. Well, you know, I think some review of 
decisions made by administrative agencies is always important. 
I think, right now, I think most of those cases actually do not 
go to immigration courts. I don't think that is where the 
backlog is. I think we probably would do well with a review at 
an interim level within the agency, which would look at denials 
of that kind. I think more important probably, and this is 
actually the decisions that are made by counselor posts abroad 
because we don't right now have any counselor review which is 
meaningful. I think those changes of the law also need to take 
place.
    Ms. Jackson Lee. And then the thrust of the board of these 
appeals would relate to that process as well because that is 
where they are denied.
    Mr. Chishti. I think that would be helpful.
    Ms. Jackson Lee. Thank you very much.
    With that, Mr. Chairman, I would just like to put these 
facts into the record, please, if I might. Just want to 
indicate from Texas, there are 1,022,000 undocumented workers; 
7.2 percent of the workforce of Texas, which is 24 million. 
They generate 14.5 billion in tax revenue from undocumented 
workers and 77.7 billion gross State product of undocumented 
workers. It indicates that if we work with enforcement and work 
with a comprehensive approach, we can find ways for these 
individuals to invest in America and to add to America's 
growing economy. I think we cannot separate one from the other, 
and we cannot suggest that we must do one or the other. I thank 
you.
    Mr. Bachus. All right, without objection.
    Ms. Jackson Lee. I yield back.
    Mr. Bachus. And I think you want to introduce into the 
record the testimony that 7 percent of the workforce in Texas 
is----
    Ms. Jackson Lee. Yes, sir. The document is the effects of 
mass deportation versus legalization, and it is produced by 
the----
    Mr. Bachus. Thank you.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Bachus. Mr. Labrador.
    Ms. Jackson Lee [continuing]. Immigration development 
center, UCLA. I ask unanimous consent, thank you.
    Mr. Bachus. Thank you. Mr. Labrador.
    Mr. Labrador. Thank you, Mr. Chairman.
    Thank you panel for being here today. I want to see some 
immigration reform happen, but I want to make sure that we 
prevent having the problems that we had with the last 
immigration reform, and that is my main concern. You know, we 
spent a lot of time here talking about the 12 million and that 
is not the only issue that we are facing. We need to have a 
robust, modern immigration system that works and speaking 
especially to the people working in the law enforcement.
    As I have spoken to the ICE agents in my district, they are 
concerned that any kind of immigration reform will actually 
lead to more fraud, lead to more document fraud, all of those 
different things. So I am a big supporter of E-Verify. I am a 
big supporter of making sure that we have a robust, you know, 
document system.
    How can we prevent the fraud in the future if we are going 
to allow some immigration reform to happen here in Congress? 
What steps can we take to make sure that we don't have the 
problems? And I will ask all of the panelists: What do you 
think we can do to make sure that we don't have the document 
fraud that we had in the past? I still dealt, as an immigration 
lawyer--for the 15 years I was an immigration lawyer, I was 
dealing with cases that were 20 years old, 25 years old. They 
were still dealing with the documents that they submitted when 
they initially applied for, you know, for the initial amnesty 
in 1986. So could you all address that?
    Ms. Wood. Well, I think a couple of things could make a big 
difference. First, you know, a biometric identification, you 
know, considering that for all individuals certainly could help 
reduce, you know, the fraud. Even without that, you could 
improve E-Verify and really, again, put the burden on the 
government and not on the employer to wait out and review the 
driver's license and the Social Security card. That could also 
reduce fraud.
    Mr. Labrador. Can you stop there? How do you put the burden 
on the government more than----
    Ms. Wood. Right now the burden is on the employer to do the 
I-9.
    Mr. Labrador. Correct.
    Ms. Wood. And so they submit the documents through E-
Verify. E-Verify can come back. If I submit my driver's license 
from Kansas and my Social Security number, it can come back and 
say I am work authorized, even if I am using Chris Crane's, you 
know, driver's license information, and Social Security. So, in 
certain States, E-Verify now has that information, not in every 
State, and so a big problem for employers with high-risk 
workforces is that people pretend to be other people. And so 
the burden is on the document clerk----
    Mr. Labrador. Correct.
    Ms. Wood. So then when it comes back employment authorized, 
it doesn't really mean that. It means maybe. The government 
thinks that, but you, document clerk, you need to look and see, 
what does the font look like on the Social Security number? You 
know, on the card, does that card look bad? Should I, you know, 
so that is a lot of burden that is unfair to do. And so I think 
improving E-Verify and some of the proposals in Congressman 
Smith's and other bills, it really makes a difference, getting 
rid of the I-9 system and moving to where the government 
provides the verification.
    A second I think really critical thing would be, when we 
move to a mass adjustment or legalization, is making sure for 
people who commit fraud in the system, that ICE has access to 
that information. One of the big problems in the prior amnesty 
is that, as you know, is that the enforcement agents didn't 
have access to that information. That is a big, big problem. 
And you want to make sure, as Agent Crane has noted, that also 
that people have to prove things up, too. So you are not kind 
of enabling fraud. So you want to make sure that the 
verification for people who go through the legalization process 
is legitimate verification.
    And then finally, resources. You know, you probably know 
better than I do how many ICE agents are in Iowa. I used to 
know Kansas because it was my home State, and it is two major 
alien smuggling routes are in Kansas, I-70 and I-35, and we had 
less than, you know, 20 ICE agents in the whole state. That is 
a problem. You know, that means they are not going to be 
effective. So I think looking at, do we have resources we need 
to prevent fraud, to go out and enforce the law? So those are 
the four core things I would focus on.
    Mr. Labrador. Thank you. And it is Idaho, but that is okay. 
I am from Idaho.
    Ms. Wood. I don't know. I am sorry, I don't know your 
number, but thank you, Congressman.
    Mr. Labrador. Mr. Crane.
    Mr. Crane. Yes, sir. Well, the first thing I would say is 
that, you know, virtually, almost probably 90 percent of the 
illegal aliens that we apprehend actually have fraudulent 
documents with them, Social Security cards----
    Mr. Labrador. You might want to turn on your microphone.
    Mr. Crane. Phony Social Security cards, phony lawful 
permanent residence cards, et cetera. They are oftentimes 
engaged in some type of identity theft to some degree, and we 
do nothing about it. We stack them up like they are decks of 
cards. We get so many fraud docs, and we do absolutely nothing 
about it, and the agency won't let us prosecute it 99.9 percent 
of the time.
    I think that one of the things that is absolutely within 
our power to do here, is take something like fraud and identify 
it as being a lifetime bar, you know, and removal so that 
everybody knows that if I get caught doing this, if I get 
caught with fraud docs, I am going to be removed from the 
United States. There is no two ways about it, and I have a 
lifetime bar.
    And as you know as a former immigration attorney, we 
already have laws like that, and I think it would be extremely 
effective in our struggle to stop immigration fraud.
    Mr. Labrador. Mr. Chairman, my time has expired. Could the 
two other witnesses answer the question?
    Mr. Bachus. Yes.
    Mr. Labrador. Ms. Vaughn.
    Ms. Vaughn. Thank you for addressing this problem. IRCA was 
called one of the biggest frauds ever perpetrated on the United 
States Government. And I know they are still cleaning up a lot 
of the fraud from some of the other amnesty-like programs that 
were passed in the 1990's. We actually know a fair amount about 
the benefits fraud that occurs from programs that were built 
into USCIS, quality control programs, site verification 
programs, benefits fraud assessments, they call it. And they 
found--there is double-digit fraud in some of our legal 
immigration programs now.
    And we have to have a system that has integrity to have the 
confidence to go forward. And I agree with a lot of what my 
colleagues on the panel said. I would just also add that there 
needs to be an interview process at a certain point in the 
system. We can talk about where that best fits in, but we can't 
have a system that is an honor system where people are just 
taken at their word.
    We can--and putting the burden of proof on the applicants 
is important; using technology to verify claims that people 
make. I agree wholeheartedly that there cannot be a strict 
confidentiality provision in this. That is a deal breaker.
    And we can't prosecute all benefits fraud, so we have to 
have the ability to let an administrative process play out with 
those cases that are not going to go to a U.S. attorney or be 
prosecuted by ICE. We have to let USCIS use its authority and 
tools like administrative removal to make sure that the people 
who are denied are not allowed to stay here anyway.
    That is a huge weakness in our benefits programs right now. 
And these are not small numbers of people that are benefiting 
from the fact that we tolerate so much fraud in this process.
    Mr. Labrador. Thank you, Mr. Chishti.
    Mr. Chishti. In deference to the little time you have, let 
me just be very brief. I mean, in the report that we published 
about immigration enforcement, we did identify big gaps. And 
one of the biggest gaps, I think, is frankly in the E-Verify 
program about the fraudulent identity issue; that we do not 
have a mechanism where we can say to the employer the person 
who is in front of him or her is the person that the 
identification document says it is. We need to drastically 
improve that identification variable. It can be done by 
biometric scanning. It can be done by doing better and more 
secure documents. And that is high on the agenda.
    Let me--a lesson from IRCA about fraud was that when you 
provide incentive for people to commit fraud, they commit 
fraud. And when you remove the incentive, people behave. As I 
said in my earlier statement, that one of the drawbacks about 
IRCA was that we had left the eligibility date about 5 years 
earlier than the date of enactment. Now, what is that? That 
creates incentive for people to say they were here 3 years 
earlier.
    If we had just made it very inclusive and drawn the line at 
the date of enactment, that incentive would have gone down. 
Those are the kind of realities I think we need to leave in 
mind as we write the next generation of legalization.
    Mr. Goodlatte [presiding]. The time of the gentleman has 
expired.
    The gentlewoman from California, Ms. Chu, is recognized for 
5 minutes.
    Ms. Chu. Thank you, Mr. Chair.
    First, I would like to recognize that there are quite a few 
groups that are very interested in making sure that 
comprehensive immigration reform happens, and they would like 
to have their positions submitted into the record. So I ask 
unanimous consent to submit for the record the position papers 
of the Asian American Justice Center, the Coalition for Humane 
Immigrant Rights of Los Angeles, and the Congressional Asian 
Pacific American Caucus.
    Mr. Goodlatte. Without objection, they will be made a part 
of record.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________

    Ms. Chu. Thank you very much.
    I would like to address a couple of questions to Mr. 
Chishti, one is on border security, and the other is on the 
exploitation of workers. First, on border security, I took a 
congressional bipartisan trip to the border because I wanted to 
see for myself what was going on down there, and we actually 
traveled along miles of the border. We looked at tunnels. We 
looked at the Coast Guard boats. We talked to border security, 
and we looked at the detention centers.
    And to my stunned amazement, there was capacity for 
hundreds, but there were only maybe five or six people there 
that were being detained. And the border security agent said 
that this had been going on for months. And it became apparent 
to me from that trip that we have poured billions of dollars 
into immigration enforcement along the border. We spend more 
money per year on immigration enforcement than all other 
Federal law enforcement agencies combined. The Border Patrol 
has nearly doubled the number of its agents from 2004 to 2012, 
and apprehensions at the border at 2012 were at the lowest in 
40 years, yet many lawmakers continue to call for achieving 
operational control of the border, which would mean effectively 
sealing the border.
    The GAO and CBP have said that such a standard is 
unrealistic and outdated. So, at this point, is there even more 
to do to make the border more secure, or are we really just 
talking about keeping it secure?
    Mr. Chishti. Again, reflecting on the findings that we made 
in our report, I think we have done a lot and much better at 
the border than we have done in a long time. I think most 
people recognize that. And the level of staffing, the 
technology that is being employed and the declined 
apprehensions all speak to that.
    We did note that in our findings, that there is one area in 
the border enforcement that still is a weakness, and that is 
ports of entry. That the ports of entry actually have not kept 
up in the infrastructure development at par with the needs of 
the ports of entry. And I think if you were to focus on 
improving anything on the border security, then obviously, that 
is one place to look at.
    And did you have--was there a follow-up question?
    Ms. Chu. Yes, I--well, is that--another topic, but is that 
it on border security?
    Mr. Chishti. Yes.
    Ms. Chu. Okay, so I also wanted to ask you about the 
exploitation of workers. Immigrant workers in my district 
regularly face exploitation at the hands of their employers. 
They are threatened with deportation when they stand up for 
their labor rights. For example, day laborers, like Jose Diaz, 
who worked to rebuild our Nation after a hurricane and when 
asked about--when he asked for proper safety equipment, he 
faced deportation. Or Abi Raju, who was a guest worker under 
the H-2B program, who bravely exposed the labor trafficking 
occurring at his workplace, and when he asserted his rights, he 
was experiencing intimidation, surveillance, and monitoring.
    And when their employers make them work overtime without 
pay or save money by not buying them needed safety equipment, 
this undercuts American workers by driving down wages and 
allowing firms to break the law by outbidding their 
competitors. If unscrupulous employers are getting away with 
this, then this can of course undermine our whole system here. 
How can we protect workers so that they don't fear standing up 
against such exploitation?
    Mr. Chishti. Well, as I said, I think earlier, the issues 
of labor protection are one of the less looked at provisions 
with respect to the immigration debate. I think whatever new 
regime of labor flows we are going to have, labor protection 
has to be central to that, both with respect to the protection 
of U.S. workers and the protection of foreign workers.
    In many of our temporary worker programs today, which is 
why they have gotten the bad name they have, they are lacking 
in very basic fundamental protections. Like, in the H-2B 
program, you cannot sue an employer. The worse you can do is go 
to the Department of Labor, which is already highly 
understaffed, to deal with those kind of complaints. So I would 
recommend strongly that when you look at any regime of future 
flows, that labor protections have to be at par with U.S. 
workers.
    And the important elements of that, A, is that no matter 
what kind of program we pick, workers should have the right to 
move from one employer to the other, what some people in the 
parlance call portability, because then you are not tied to an 
abusive employer. Two, is that you should get exactly the same 
wages, same projections under the labor law that a U.S. worker 
does. You should have the same access to courts as U.S. workers 
do. And ultimately, you should have the right to become 
permanent resident, because otherwise you will constantly be in 
an exploitable situation.
    Ms. Chu. Thank you, I yield back.
    Mr. Goodlatte. I thank the gentlewoman.
    I am going to recognize myself for a few questions.
    I apologize to the panel for not being here the entire 
time, but I have a number of questions that I want to ask you. 
And as I do that, I would ask that you be brief, so I can get 
all of them in.
    First of all, to you, Ms. Wood, former Immigration and 
Naturalization Service Commissioner Meissner has stated that 
prosecutorial discretion should be exercised on a case-by-case 
basis and should not be used to immunize entire categories of 
non-citizens from immigration enforcement, which appears to be 
what is being done with the discretion that the President has 
given under current circumstances.
    Do you believe that prosecutorial discretion is properly 
utilized when it exempts entire classes of individuals from 
enforcement of the immigration laws, and how did you exercise 
that discretion when you were director of ICE?
    Ms. Wood. Yeah, I think it is really tough to say that you 
are exercising true prosecutorial discretion when you exempt 
whole classes and categories of people. I certainly understand 
the frustration. A lot of people have been waiting for the 
immigration laws to change. You know, a lot of equities, a lot 
of care, but it is not really prosecutorial discretion if you 
exempt whole classes out without going through a case-by-case 
basis.
    You know, when I was at ICE, we did use prosecutorial 
discretion, and we did it on a case-by-case basis. It is 
important in my view, institutionally, that ICE retain that 
ability to have prosecutorial discretion because there are some 
cases that you can't legislate for ahead of time. And so ICE 
has to have the ability to exercise discretion in appropriate 
circumstances.
    Mr. Goodlatte. In your testimony, you state that a number 
of ICE officers have been put under investigation or are 
subject to formal charges for enforcing the immigration laws as 
written but apparently in a manner inconsistent with current 
Administration policy. In fact, the Federal judge in your 
lawsuit, Mr. Crane, has concluded that the plaintiffs' face the 
threat of disciplinary action if they violate the commands of 
the directive from Secretary Napolitano regarding deferred 
action by arresting or issuing a notice to appear to a 
directive eligible alien.
    Could you first explain that, and then ask what has been 
the department's stated basis for these investigations and 
charges?
    Mr. Crane. Well, first of all, I am not certain what you 
are asking me to explain, sir, I apologize, as far as the NTA 
part goes.
    Mr. Goodlatte. Yeah, the basis of the lawsuit that is 
pending against you.
    Mr. Crane. Well, I think you pretty accurately stated the 
basis of the lawsuit, Mr. Chairman. Our officers are prohibited 
from enforcing U.S. immigration law under threat of repeated 
disciplinary actions up and to including removal. If we don't 
enforce those laws--I want to be very clear in saying that it 
is definitely not prosecutorial discretion, most importantly, 
because we are under orders not to enforce certain laws. 
Prosecutorial discretion is something completely different, and 
what is happening right now are clear orders not to enforce the 
law.
    Mr. Goodlatte. And Ms. Vaughn, do you believe that the 
resources Congress currently gives ICE are sufficient to 
control the illegal immigration into the interior of the United 
States, if those funds were used with the maximum 
effectiveness?
    Ms. Vaughn. That is a hard question because so much of it 
depends on the second part of your question, which is the 
caveat, which is, if they were used as efficiently as possible. 
Yeah, I think that the agency could use some more funding for 
some specific purposes. For example, funding for detention 
space seems to be an issue, although I would also argue that we 
could do a better job at streamlining the removal process so 
people don't need to be in detention as long or perhaps not at 
all if we make more use of things like expedited removal, 
stipulated removal, judicial orders of removal.
    I mean, many of these cases simply shouldn't be in 
immigration court at all. But yes, I think even if--they could 
use an infusion of resources if Congress could be certain that 
they would be used effectively.
    Mr. Goodlatte. And Mr. Chishti, you state in your testimony 
that the combined budgets of the U.S. Immigration and Customs 
Enforcement, U.S. Customs and Border Protection and US-VISIT 
exceed by about one quarter the combined budgets of all other 
principal law enforcement agencies, Federal law enforcement 
agencies, and that most of the increased immigration funding 
has gone to the Border Patrol.
    Assuming that these figures are fair comparisons, do you 
believe that Border Patrol manpower should be cut, if so, by 
how much?
    Mr. Chishti. Mr. Chairman, we don't make any 
recommendations for cutting anything. We don't make a case that 
there is too much spending done on border. We don't make a case 
that too much stopping is done on border. All we present is how 
much we have done, a good part by congressional appropriations. 
And that may reflect why enforcement has been so effective.
    I think all we just want to point out is that, given the 
budgetary realities that at some point, there is not going to 
be an unlimited expansion of these programs; that Congress and 
you all will have to make a decision that it is a straight-line 
cutting on these things, where those cuts will have to take 
place. And we would suggest that if they have to take place, 
they take place in a very strategic way. That you don't cut 
things where people--where things are working very well, and 
really look at things where they are not working as well.
    Mr. Goodlatte. Well, let me do that with one last question 
here before we turn to our next Member for questioning.
    And that is this: I don't believe we should cut the funding 
for border enforcement at all. But I very much believe that we 
are not doing enough to address the enforcement of the law in 
the interior of the country. Forty percent, some say, maybe a 
little less, but whatever, of the people unlawfully here 
entered legally, and so the border is irrelevant to their 
status. They came in, probably mostly on airplanes, and they 
overstayed their student visas, or visitor visas, or business 
visas, and there is not, in my opinion, very much enforcement 
going on at all in the interior of the country. And I will ask 
each of you to tell me how you would solve that, but do it 
concisely.
    Mr. Chishti. Exactly. In our report, we actually did 
identify three areas where there is a gap in enforcement, and 
there is need for tremendous amount of improvement. Two of 
those do relate to interior enforcement. One is the E-Verify 
program. It has been improving, but it has a big drawback about 
identification issues. That has to be better because otherwise, 
there will always be a loophole in that system. We have to do 
better in terms of biometric scanning or secure documents to 
improve that identification.
    Second is that I think the US-VISIT program, which was 
given the mandate of both looking at people who enter but also 
who exit, which is how you would control the presence of 
overstay. That part has been lacking. That hasn't happened. So, 
clearly, there has to be much more effort on the overstays in 
the country.
    In fact, I think you are right. We may reach a situation 
where the number of overstays actually is larger than the 
number of people who cross illegally, which would be a reversal 
of the historical trend. And one of the ways to control that is 
to improve our exit-entry system in the US-VISIT program.
    Mr. Goodlatte. Thank you.
    Ms. Vaughn.
    Ms. Vaughn. Yes, I would definitely agree. We need to move 
forward in finishing the entry-exit system that Congress asked 
for back in 1996. One key part of that that many don't talk 
about is the lack of adequate entry screening at the land ports 
which, after all, is where the largest number of visitors 
enter. We need to make sure that land visitors get the same 
level of screening that visitors who are coming in on airplanes 
and on boats do.
    I think more attention to workplace enforcement would also 
help address the overstay problem. Because after all, if there 
is no incentive to stay over your visa, we are not going to 
have as large of a problem.
    Another cost-effective way to get more bang for our 
immigration enforcement buck is to increase the number of 
partnerships that ICE has with local law enforcement agencies, 
because there are many communities, law enforcement agencies 
and local and State governments that would like to assist ICE 
in its mission and need the opportunity to do so. And they are 
willing to put their own resources toward that. And we should 
be encouraging those partnerships, instead of shutting them 
down, as has been the case recently.
    Mr. Goodlatte. Mr. Crane, I know you are focused at the 
border, but what is your perspective on the interior of the 
country?
    Mr. Crane. I am not, sir. You are right in my ballpark 
here. I am an ICE agent on the interior. I work out of Salt 
Lake City, Utah. This is something very near and dear to my 
heart, so just two comments on Ms. Vaughn's comments. I 
strongly agree with her comments on the worksite enforcement.
    With regard to the partnerships, we have to be careful 
about those partnerships because what has happened in some 
situations is those partnerships result in sheriff's department 
not wanting to fulfill all of their obligations. And those 
things fall back on our folks, and that force multiplier 
quickly dissipates when things like that happen. So this has to 
be very carefully structured, and they have to be carefully 
monitored and managed.
    Mr. Goodlatte. But you don't object to the concept?
    Mr. Crane. No, sir, not at all. I think it is great. In 
fact, what we tried to do in Utah at one point was see if the 
agency would do the task force type situation, to where they 
would have people working directly with our officers and agents 
as a force multiplier, so we strongly support that.
    However, with regard to ICE, we have approximately 20,000 
employees at ICE. Of those 20,000, approximately 5,000 are the 
immigration agents that do the lion's share of the immigration 
work within 50 States, Puerto Rico, Guam, Saipan, I mean, it is 
a tremendous workload for those 5,000 people to be, you know, 
arresting, taking these folks through proceedings in the 
immigration courts, and actually removing them each year. So we 
definitely need more resources on the interior enforcement 
part.
    And when you compare us to the Border Patrol, we really 
haven't grown since 9/11; whereas the border patrol has 
basically almost tripled since 9/11.
    Another interesting fact about those 5,000 ICE agents that 
do the immigration work, they are actually split into two job 
positions. Both of them don't have the same arrest authority. 
We all have the same training, but we don't have the same 
arrest authority. So there is a quick force multiplier right 
there, and even that, you know, if we could make something like 
that happen even would be a great start to getting more 
increased interior enforcement.
    In addition to that, with those 5,000 people spread out all 
over the Nation, this handful of officers, we have got people 
working in facilities that have this full immigration arrest 
authority, and they are not doing immigration enforcement work. 
Why? You know, when we only have so many of those resources, 
and they are limited, and we desperately need them, why aren't 
we using them to be out on the streets or be inside of jails, 
making immigration arrests?
    Mr. Goodlatte. Thank you.
    Ms. Wood.
    Ms. Wood. I would second the points raised by my colleagues 
on an entry-exit, a more effective entry-exit program and 
enhancing worksite enforcement. But there are two other things 
I would do with overstays.
    First, I would increase the number of fugitive operation 
teams and have them target, kind of, recent overstays. And so 
really target those individuals to go out and find them.
    And the second thing I would do is to make sure that people 
who enter from visa waiver countries and non-visa waiver 
countries are treated the same. So if, you know, I come in on 
vacation from a visa waiver country, I have waived some of my 
rights for review. If I come in from a non-visa waiver country, 
I don't. And I can tie up the immigration court for years 
fighting my deportation when I stayed over on my vacation. And 
that makes no sense. So I would really move to kind of 
streamline and have that be the same in both instances, which I 
think would be helpful.
    Mr. Goodlatte. That is a very good suggestion. Thank you.
    The Chair now recognizes the gentleman from North Carolina, 
Mr. Holding, for 5 minutes.
    Mr. Holding. Thank you, Mr. Chairman.
    I had the very good fortune of being the United States 
Attorney for eastern North Carolina for a number of years.
    Ms. Wood, you were in the Department when I was in the 
Department as well.
    Eastern North Carolina has one of the fastest growing 
illegal immigrant populations in the country. Along with that 
comes the ever increasing gang violence, drug crimes, and 
violent crimes that you have when you have a community of 
people who are under the radar, so to speak. It is very easy 
for criminals to hide within that community, gang members to 
hide within that community, because no one is going to call the 
local sheriff and say, ``Hey, there is something suspicious 
going on next door,'' because they are illegal.
    We had a zero tolerance policy. We would prosecute every 
immigration crime that was brought to us. For the most part, 
those immigration crimes arose in the context of a drug crime 
or a violent crime, and they just happened to be illegals. We 
had very little enforcement of overstays, because, as you know, 
when you are the prosecutor, you can only prosecute the cases 
that are brought to you. And the problem we ran into is the ICE 
agents that we had, who were all very dedicated, did not have 
time to do the internal enforcement, because they were too 
busy. They were participating in task forces. They were 
cracking down on drug crimes or, as you say, ferrying people 
back and forth between our five different courthouses in 
eastern North Carolina.
    At the end of the day, if we are going to enforce our laws, 
how much of a magnitude increase of resources do you really 
think it would take to enforce the laws that are on the books 
right now?
    Ms. Wood. Are you saying that first we would address the 11 
million or so that are already here and we would start out with 
kind of zero individual----
    Mr. Holding. Well, that is the second part of the question, 
but if we didn't address the 11 million, we just addressed them 
with the laws that we have on the books now, I mean, how much 
resources do you think that would take?
    Ms. Wood. Well, you know, there are people who have done 
the math probably sitting on this panel who can--you know, if 
you look at kind of our current number of deportations and then 
the stream, obviously you have to look at the stream of kind of 
individuals coming in, but it would take a lot of years.
    And I think one of the things--one of the reasons that I 
support reforming the system is I have not seen commitment to 
really fund the agency like it needs to. And because there was 
not enforcement over such a long period of time, people do have 
these equities and very kind of sad stories, and it is not a 
great situation.
    So I think, you know, if you could start out being 
somewhere where people who were able to legalize legalized, and 
then you would say, now it is zero tolerance, now we really are 
sending everyone home, now we have enough resources, now we can 
streamline, that would make a lot of sense. But I don't know if 
someone on the panel may have, you know, the math that has been 
done a bunch of times on how many additional resources you 
would need, but it is a lot. And I think you could make some 
tweaks to the immigration laws that would help, even if you are 
dealing with the population that is currently here.
    Mr. Holding. But to your point of if we did do something 
about the 11 million illegals that are in the country now and 
started from zero, do we even have enough resources in place as 
is to enforce the laws going forward if we started from zero?
    Ms. Wood. I don't believe we do. I think that ICE and the 
Border Patrol are under-equipped and that we need to kind of 
look at resources. They may be more temporary resources, 
because you know there is going to be a large migration of 
people coming in, I mean, illegally trying to get kind of in 
right under the radar so they can adjust. And maybe that would 
change over time if we had like a strong verification, employer 
verification system, things would change over time, but I think 
immediately you would need to build up the agencies, build up 
the support at the agencies, all of the resources, the court 
resources. The fact that you have to wait for 2 years to get 
your case heard in some parts of the country is ridiculous to 
decide whether or not you are in the country legally.
    So I think we are under-equipped, and then there are too 
many inefficiencies. And I think legislation could fix a lot of 
them, expanding--mandating expanded expedite removal, maybe 
expanding the use of voluntary returns would also be helpful, 
and reducing the number of cases that kind of come into the 
system. I think those could all make a big difference.
    Mr. Holding. Thank you very much.
    I yield back.
    Mr. Bachus [presiding]. Mr. DeSantis.
    Mr. DeSantis. Thank you, Mr. Chairman.
    I thank you witnesses for your testimony.
    My first question is for Mr. Crane and Ms. Wood. A lot of 
this debate is centered around the idea of obviously focusing 
on 11 million people who are not legal and then legalizing 
them, and then we will provide these enforcement measures. Some 
people say we should have a trigger before the legality.
    And I guess just, based on your experience, I mean a guy 
like me who is considering this stuff, how much confidence 
should I have, based on your experience, that the enforcement 
mechanisms that are promised by people advocating this 
legislation and by Congress will actually end up coming to 
fruition? Because it just seems like, you know, we talk about 
certain enforcement since 1986, and now we are promising 
certain things. Obviously, the executive has a certain amount 
of discretion whether they can enforce the law. So what advice 
would you give me about whether I should believe that we are 
going to finally start enforcing the law?
    Ms. Wood. Well, I wouldn't be surprised if your confidence 
level is low, given kind of, you know, the history of problems. 
But I would say that the opposite of doing something is not 
that we will be in a perfect system. The opposite, you know, 
waiting around here, it is, you know, we are not fixing this 
problem magically now. And so I think that is the compelling 
reason to look, can we get a meaningful trigger? Can we do 
something? Can we try to create a better system.
    But what we have is I think everybody on both sides of the 
aisle agree the system is broken, and so we have to see, can we 
do something that is meaningful?
    And I think, you know, Congress can make a big difference 
by having a trigger that is as meaningful as possible and then 
by putting as much as we can in the law to make things for a 
better day. But if a law doesn't change, if a law doesn't pass, 
you know, the next head of ICE is going to come up here and 
say, the system is broken; we don't have enough people; there 
is still a lot--you know, problems will continue.
    Mr. Crane. It is funny you ask me that question, sir, 
because I am actually going to be up here next week, and I 
intended to come up and ask you folks, how do you put something 
into our legislation that, you know, will guarantee that we are 
actually going to be able to enforce the laws, because, I mean, 
you are talking to somebody right now that we filed a lawsuit 
to try to be able to do our job. So my confidence level right 
now, at least with the Administration, is zero that we are 
going to be able do our jobs now or in the future. So I am very 
interested in hearing what Congressmen have to say about how do 
we--something has to change. Something different has to be done 
this time.
    Mr. DeSantis. Great.
    Ms. Vaughn, I hear the term there is 11 million people who 
are in the country illegally, without documents, depending on 
which side of the aisle you are on, I guess you say. But where 
does that figure come from? How much confidence do you have in 
it? Is it possible that there are many million more? Is it 
possible that there are some less? Just can you give me a 
little bit of background on the number, because I have noticed 
since I have been in Congress that people repeat things over 
and over again, and it just kind of--you know, then you just 
stop questioning it, oh, yeah, this or that. So can you speak 
to that?
    Ms. Vaughan. I think there actually is a fair amount of 
consensus around the number. The number we are using now is 
11.5 million. The way our staff demographer, our director of 
research, Steven Camarota, calculates that is to use Census 
Bureau data to count the number of people who are here and 
subtract from that and adjust for mortality and return 
migration, subtract the number of people that we know came here 
legally, because we do have good information on that. And, you 
know, it is basically a very complicated subtraction problem.
    And actually, our figures are very close to what the 
Department of Homeland Security has and also the Pew Hispanic 
Center. So we feel very confident that that is a pretty 
accurate number.
    There is no exact count, because, you know, our--but we 
have found that most people who are here illegally do fill out 
a census form, and we do adjust for undercounts as well.
    Mr. DeSantis. My final question is just I know in 2006 when 
this was debated, I think the Congressional Budget Office came 
out with an estimate that said, actually, it would be 
beneficial for the economy to do some type of legalization. 
Now, obviously, we have a different social welfare system, 
because we have this new healthcare law that is going to be 
kicking in. So what is your organization's position on the 
costs that this would mean for taxpayers if you went forward 
with a comprehensive plan that resulted in essentially instant 
legalization?
    Ms. Vaughan. If we move forward with the kind of 
comprehensive reform package that has been proposed, the two 
different proposals this week, it would be enormously costly, 
because the people who would be legalized are people who have 
not had full access to our social welfare system, face pretty 
modest chances of being able to improve their earnings because 
of their education levels, and so they are not likely to be 
able to contribute enough in taxes to cover what they would be 
using in the way of social services. And we don't have--we are 
thinking, you know, tens of billions of dollars a year 
additional if we were to legalize the entire population, as has 
been proposed.
    Mr. DeSantis. Thank you.
    Yield back.
    Mr. Bachus. Thank you.
    Ms. Vaughn, I was reading your testimony, and it says that 
ICE, Mr. Crane's agency, had arrested 27,600 gang members in 
the past 8 years.
    Does that sound about right to you, Mr. Crane?
    Mr. Crane. That might be what they have stats on, but I 
would say that it is probably far higher than that. We have all 
kinds of folks that we encounter in jails and prisons, and you 
know, they don't make any admissions of gang affiliations.
    Mr. Bachus. And these are illegal immigrants, I guess. Is 
that right?
    Mr. Crane. Yes, sir.
    Mr. Bachus. So we have 11 million, 11 and a half million 
immigrants, and more than 27,000 of them have been arrested for 
being gang members?
    Ms. Vaughan. Yes. Not all of them are illegal immigrants. 
Some of them are people that we have given green cards to, but 
they are still removable. Some of them are people who have 
temporary protected status, for example. It is a serious----
    Mr. Bachus. But non-citizens?
    Ms. Vaughan. Yes.
    Mr. Bachus. Okay. I noticed, and I was doing some 
calculation, I bumped it up when you went from 11 million to 
11.5 million, but taking 11.5 million, that is 3.4/3.5 percent 
of our population, or maybe let's just round it up to 3.5 
percent of our population, yet the U.S. Sentencing Commission, 
this is on page 2 of your testimony, 64 percent of the 
kidnappers convicted in Federal court were non-citizens. So you 
are talking about--and let's just say that for every illegal 
immigrant, there is a non-citizen that is here legally, 
although we know that that figure is more somewhere closer to 5 
or 6 million, I think. Right? Maybe 10?
    Ms. Vaughan. The legal immigrant population is more like, I 
think, 20-some.
    Mr. Bachus. Okay. That is both, legal and illegal?
    Ms. Vaughan. No. It is 30-some, about 35 million combined, 
non-citizens.
    Mr. Bachus. And that--but that includes naturalized 
citizens, does it not? I think that is foreign born.
    Ms. Vaughan. That is foreign born.
    Mr. Bachus. Yeah. So you have to take--you have to back out 
a third of that, so just say 3.5 and 3.57 percent. Now, that 
includes illegal and legal residents who have not been 
naturalized citizens, yet 31 percent of drug traffickers in 
Federal court are in that 6 percent or 7 percent, which is a 
pretty high number; 34 percent of all money laundering cases.
    You have 6 percent of the population, 7 percent, and yet 64 
percent of the kidnappers, 34 percent of the money laundering, 
31 percent of the drug traffickers prosecuted in Federal court 
come from that population.
    So, you know, when we talk about giving citizenship to 11 
million non--illegal immigrants, we are talking about a lot of 
people who have been convicted--I mean, not the majority, not 
even a large percentage of the minority--but you are talking 
about a good number of people that have committed felonies.
    Now, Mr. Crane, is that correct? Am I correct there?
    Ms. Vaughan. That is what the U.S. Sentencing Commission 
has on its Web site, so I have pretty good confidence in that.
    Mr. Bachus. So that is according to the U.S. Government 
officials.
    I noticed that, Mr. Crane--and this is really disturbing, 
and I really empathize with you. I mean, I can't imagine what 
it is like, but the two main laws that you are supposed to 
enforce are people being here illegally or overstaying their 
visa, but your testimony is that ICE policy is that you can't 
arrest someone for being here illegally? Is that correct?
    Mr. Crane. Yes, sir. And it is pretty clear, if you look at 
the December 21st, 2012, detainer policy that ICE just put out, 
it specifically says, you know, one, they are illegally in the 
United States and, two, they did one of the following, and it 
starts going through a laundry list of----
    Mr. Bachus. Serious felonies?
    Mr. Crane. Yeah. Felonies, serious misdemeanors. Excludes 
many other insignificant misdemeanors, which none of us really 
know what that means, but the bottom line is that, you know, 
you cannot simply arrest someone, even in a jail, for being a 
visa overstay or illegal entry, unless they have done 
something, committed a felony.
    Mr. Bachus. So the 3 percent that were actually deported, 
according to the Administration, would have been those 3 
percent who committed a felony or committed at least a DUI, 
leaving the scene of an accident? Not just traffic--you know, 
reckless driving doesn't--you can't convict them for that. You 
can't convict them of being in an automobile accident causing 
injury, unless they leave the scene. Is that correct?
    Mr. Crane. Well, I would have to check on all the math, 
sir, but one thing that I have been thinking about as you have 
had this discussion is that I don't remember what exactly the 
President put out this year in terms of number of convicted 
criminals that were part of these numbers that we had this 
year, but they are extremely high.
    I am sorry.
    Mr. Chishti. Close to 50 percent.
    Mr. Crane. No. I mean an actual number, not a percentage.
    Mr. Chishti. About 200,000, less than.
    Ms. Vaughan. About 170,000-some.
    Mr. Crane. About 170,000-some odd people. And with the 
handful of folks, like Ms. Myers was testifying, we have States 
where we have two ICE agents in the whole State. Do you think 
we are getting all these jails covered? Absolutely we are not. 
And, you know, so I think the numbers of criminals are far 
higher in general probably than just the really bad offenders 
that you are citing.
    Mr. Bachus. And in your testimony, you cite several 
examples of ICE agents who have arrested people for 
misdemeanors or detained illegal immigrants as they came out of 
a courtroom, and the ICE agent, the--it goes up to the office 
or the higher-ups, and you get an order to dismiss that person 
and release him, and also you are--they are disciplined. Right?
    Mr. Crane. Yes, sir. I mean, obviously, in one of the cases 
that we had in Delaware, that is exactly what happened. You 
know, the officer encountered an individual that was driving 
without a driver's license, had been convicted of that 
repeatedly, was getting in a vehicle in their presence getting 
ready to do it again. They said, hey, this guy is a public 
threat. We are at least going to take him down to the office 
and issue an NTA, at which time, you know, the officer was 
told, no, you will not issue an NTA, you will just release him. 
And when he attempted to issue the NTA, he was given a proposed 
suspension of 3 days.
    Mr. Bachus. And I noticed that he was also told that if he 
received a second offense, he would lose his job.
    Mr. Crane. Well, I don't know, sir, that he was told that.
    Mr. Bachus. It would likely result.
    Mr. Crane. Yeah. That is the standard procedure, that, you 
know, once you commit an offense, and they basically, you know, 
say that you did it and issue a suspension, the next time you 
do it, you are going to have either, you know, a higher 
suspension or removal. You are only going to get two or three 
shots at that, and you are going to lose your job.
    Mr. Bachus. And that agent had been with the ICE for 18 
years and was a 5-year military veteran?
    Mr. Crane. He was actually, I believe, 11 years at the U.S. 
Border Patrol and came over to the ICE for his total of 18 
years of Federal law enforcement experience. So he is 
definitely a vet on the immigration side as well as the 5 years 
of military service, yes.
    Mr. Bachus. All right. Thank you.
    I would ask every Member to please read this testimony 
and--I am sorry. I am going to yield to the Chairman.
    Mr. Goodlatte [presiding]. I thank the gentleman.
    And I can work from here.
    I want to ask all the panelists one last question. I want 
to thank you for your great contribution. We have talked about 
what happened in 1986. We have talked about the problems that 
we are experiencing right now in getting clear guidance from 
the Administration about enforcing the law or we are getting 
clear guidance that, in many instances, we are not allowed to 
enforce the existing laws, and I know that frustrates a great 
many American people.
    If we were to do so-called comprehensive immigration 
reform, we are going to have to address this component of it. 
We did it in 1986. It was not enforced, with regard to the 
employer sanctions, at least not in a significant comprehensive 
way, and so I think a lot of people would say, Fool me once, 
shame on you; fool me twice, shame on me.
    Why should this Committee, why should this Congress pass 
comprehensive immigration reform without having the assurance 
that somehow these laws will be enforced? And what would that 
assurance be that we could write into the law that we would 
know that it wouldn't be in the hands of one individual to 
decide to suspend an entire area of enforcement of the law, as 
is being challenged by the lawsuit of Mr. Crane and his 
associates? And I commend them for doing that. What could we 
put into this law that would give comfort to American citizens 
that if we attempt to solve this problem this time, it will 
indeed be mostly, if not completely, solved? And we will start 
with you, Ms. Wood.
    Ms. Wood. I get the easy question at the end?
    Mr. Goodlatte. All of you are going to get this question.
    Ms. Wood. I mean, I think Congress should attempt this 
because it is the right thing to do, because our system has 
been broken for far too long, and we are not--we are kind of 
not managing it, and I think we need a kind of reset where we 
are to move forward in a productive enforcement manner.
    What I would suggest is to look honestly at what the 
agencies need to be equipped in terms to really enforce, so 
that on day 1, when the first person comes in the country and 
overstays a visa is 1 day late or is not eligible for 
adjustment, day 1, we are able to identify that person and send 
the person home.
    And so I think that means resources in terms of manpower 
for all the agencies. I think that means technology, a better 
employer verification system, a better entry-exit, you know, 
better technology. And then look and say, you know, can we do 
it? With 17,000 kind of people at ICE and a problem of 11 
million individuals illegally in the country, I will tell you, 
we can't do it. Right? The numbers just don't stack up. So how 
can we make the numbers actually work. And maybe that would 
mean kind of, you know, an intensive surge, a border surge, 
kind of for an initial time on the resources, and then it could 
kind of peter out as we move forward.
    And then I think we need to look at the inefficiencies in 
our system. You know, it is ridiculous that people can tie up 
court hearings for years and years and years just to determine 
whether or not they are in the country illegally. Right? You 
know, so we need to see can we make systems move through the 
courts more quickly, expand expedited removal, voluntary 
returns and things of that nature.
    And then, finally, I think we should look at, you know, the 
fundamental fairness of our system. I think part of the problem 
we have now is that people feel, rightly or wrongly, that our 
system is unfair to them, because they have built up equities, 
or they came here when they were 2 or something else. And so 
how is our system fair? Are we treating everyone fairly? And, 
you know, I think that would be something that we could----
    Mr. Goodlatte. Okay. But what I am really getting at is, I 
don't like a system where one individual can say, the President 
of the United States can say, we are not going to enforce this 
law. And maybe we will win this lawsuit and make it clear that 
the President doesn't have the authority to do that, but I am 
looking for ideas that would go into a bill to do that.
    Ms. Wood. Cut the funding. Say, if, you know, you could tie 
the funding if certain things weren't done, then certain 
funding streams are cut off. I will tell you that that has been 
very effective for ICE, I know personally, you know, in a 
certain number of areas including, you know, making sure that 
they are filling the number of detention beds. So I think tying 
certain things to funding streams, funding streams that the 
Executive Office of the President or other places care about, I 
think would be a way to make sure that you are actually meeting 
some of the triggers, but it is very hard, so hopefully the 
other panelists may have some other ideas on that front.
    Mr. Goodlatte. Mr. Crane.
    Mr. Crane. Well, I don't know how good my ideas are on 
this, because I have always been baffled, quite frankly, just 
as a U.S. citizen to see that the President of the United 
States has the ability to control these agencies in this way. I 
mean, once they appoint the director of the agency, they seem 
like they have sole control, and when we come and we talk to 
Members of Congress, you know, they seem like there is nothing 
that they can do. And so, like I said, as just a citizen, it is 
kind of baffling to me.
    So if there is a way that Congress--like you said, that one 
person doesn't have the sole power--I mean, ICE is getting a 
budget of about $6 billion a year, and once that President gets 
that appointee confirmed, then that agency and that $6 billion 
and everything that goes with it seems to be under the control 
of the President. And I just--to me, I just think that is 
fundamentally wrong, and I don't think it matches up with our 
democratic principles.
    So I don't know, sir. If there is a way that Congress, 
Members of Congress could be more involved in it, we would 
certainly welcome that, because there are a lot of problems 
within these agencies, not just this immigration enforcement 
issue.
    Mr. Goodlatte. I think it is one of the keys, one of just a 
very few central keys to figuring out how to do this 
legislation. So if you have further ideas, please feel free to 
share them with us.
    Ms. Vaughan.
    Ms. Vaughan. I think it is critically important that 
Congress reassert its authority, its constitutional authority 
to make immigration laws. I don't think that there is one 
single trigger that is possible to ask for that will set in 
motion the kind of comprehensive immigration reform that has 
been talked about.
    I think that package, what is known as CIR, is a bad idea 
for many reasons. Number one, it is going to inspire more 
illegal immigration. It is costly. It is going to distort the 
labor market.
    What we need to do first is establish a sustained period of 
control and integrity in the systems that we have, including 
our legal immigration system and also start consolidating some 
of our legal immigration categories, so that, you know, we are 
not offering more opportunities for legal immigration than we 
can actually fulfill, all those backlogs that people have 
talked about. But I don't think we--to repeat an expression 
that came earlier today, we shouldn't just throw up our hands.
    I think what is important is, you know, I see the vast 
disparity of views on this issue that are represented on this 
Committee, and I think what needs to happen is to take smaller 
steps, at such point as we all have confidence in the system or 
at least more confidence, start small, look for the areas of 
consensus, like perhaps skilled immigration, looking at it in a 
small way, the illegal aliens, younger illegal aliens, who were 
brought here by their parents and have grown up here. Bite off 
what Congress can chew, start with confidence-building 
measures, and do it slowly and in a meaningful way. After all, 
that is how it has happened over the last 20 years. I mean, I 
cut my teeth on the Immigration Act of 1990, when the skills 
issue was addressed. There were more reforms that came in 1996 
and, you know, every few years. It doesn't have to be done all 
at once. In fact, it is a mistake to do it that way.
    Mr. Goodlatte. Thank you.
    Mr. Chishti.
    Mr. Chishti. Thank you very much for letting me be the last 
speaker on this.
    I mean, I think, first of all, you should congratulate 
yourselves. I mean, I don't think Congress has reneged its 
responsibility in this area. The fact that we have had this 
robust enforcement machinery built has a lot to do with 
congressional appropriations over the last many years, 
especially since 9/11. That is the--I think the staffing and 
the resources was critical to the development of this robust 
machinery, which was lacking, I think, in the prior years. So 
something really has worked here, and we should celebrate that.
    I think we are a pragmatic people. A defining 
characteristic of the country is a pragmatic country. We have 
to accept reality. The reality is these are 11 million people 
in our midst. Why we go here, we can all debate that, but that 
is the reality today. It is not in our interests to keep 
perpetuating that bad reality.
    Mr. Goodlatte. Well, if we accept that premise, we also 
have to address, do we want another 11 million.
    Mr. Chishti. Exactly. I will get to that.
    Mr. Goodlatte. Well, we only have another minute.
    Mr. Chishti. That is right. So we want to make sure we 
clean this slate, because having so many people in the 
underclass does not help U.S. workers, does not help economic 
interest, moral interest, all that.
    Now, what we should not get here again is lessons from 
1986. And this is where, unfortunately, the comprehensive 
nature of this approach is important. Just look at the E-
Verify, which you are quite committed to. The E-Verify will 
never be a successful program if there are 11 million people 
who are unauthorized to work. E-Verify will never be a 
successful program if we don't allow for future flows of lawful 
workers. That is why I think exactly is the argument that it 
only works when we do these things together, and that is the 
lesson of IRCA and that is why we didn't do IRCA well.
    Mr. Goodlatte. Thank you very much.
    I want to thank all of the panelists for their 
contributions today. This has been a long day but a good day in 
terms of gathering information that we will benefit from as the 
Committee continues to address the issue of immigration reform 
and fixing our broken immigration system.
    This concludes today's hearing. And thanks to all of our 
witnesses for attending.
    Without objection, all Members will have 5 legislative days 
to submit additional written questions for the witnesses or 
additional materials for the record.
    And this hearing is adjourned.
    [Whereupon, at 4:40 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

   Supplemental Material submitted by Michael S. Teitelbaum, Senior 
   Advisor, Alfred P. Sloan Foundation, Wertheim Fellow, Harvard Law 
                                 School

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
